<html>
<title> - EVALUATING U.S. POLICY OPTIONS ON THE HORN OF AFRICA</title>
<body><pre>[Senate Hearing 110-645]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 110-645
 
                    EVALUATING U.S. POLICY OPTIONS 
                         ON THE HORN OF AFRICA

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                       ONE HUNDRED TENTH CONGRESS



                             SECOND SESSION



                               __________

                             MARCH 11, 2008

                               __________



       Printed for the use of the Committee on Foreign Relations


                   Available via the World Wide Web: 
              http://www.gpoaccess.gov/congress/index.html


                     U.S. GOVERNMENT PRINTING OFFICE
45-700 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                COMMITTEE ON FOREIGN RELATIONS          

           JOSEPH R. BIDEN, Jr., Delaware, Chairman          
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       NORM COLEMAN, Minnesota
BARBARA BOXER, California            BOB CORKER, Tennessee
BILL NELSON, Florida                 GEORGE V. VOINOVICH, Ohio
BARACK OBAMA, Illinois               LISA MURKOWSKI, Alaska
ROBERT MENENDEZ, New Jersey          JIM DeMINT, South Carolina
BENJAMIN L. CARDIN, Maryland         JOHNNY ISAKSON, Georgia
ROBERT P. CASEY, Jr., Pennsylvania   DAVID VITTER, Louisiana
JIM WEBB, Virginia                   JOHN BARRASSO, Wyoming
              Antony J. Blinken, Staff Director          
       Kenneth A. Myers, Jr., Republican Staff Director          

                             (ii)          

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Almquist, Hon. Katherine, Assistant Administrator for Africa, 
  U.S. Agency for International Development, Washington, DC......    13

      Prepared statement.........................................    17


Dempsey, Colonel Thomas, USA (Ret.), Professor, Peacekeeping and 
  Stability Operations Institute, U.S. Army War College, Carlisle 
  Barracks, PA...................................................    61

      Prepared statement.........................................    63


Feingold, Hon. Russell D., U.S. Senator From Wisconsin...........     1


Frazer, Hon. Jendayi, Assistant Secretary, African Affairs, 
  Department of State, Washington, DC............................     4

      Prepared statement.........................................     8


Fredriksson, Lynn, Advocacy Director for Africa, Amnesty 
  International USA, Washington, DC..............................    43

      Prepared statement.........................................    45


Shinn, Dr. David, Adjunct Professor of International Affairs, The 
  Elliot School of International Affairs, George Washington 
  University, Washington, DC.....................................    54

      Prepared statement.........................................    56


Whelan, Theresa, Deputy Assistant Secretary for African Affairs, 
  Department of Defense, Washington, DC..........................    23

      Prepared statement.........................................    26


                                 (iii)

  


          EVALUATING U.S. POLICY OPTIONS ON THE HORN OF AFRICA

                              ----------                              


                        TUESDAY, MARCH 11, 2008

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:15 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Russ 
Feingold, presiding.
    Present: Senators Feingold, Bill Nelson, Cardin, Lugar, and 
Isakson.

        OPENING STATEMENT OF HON. RUSSELL D. FEINGOLD, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Feingold. This hearing will come to order. I want 
to begin by thanking Senator Biden, Chairman Biden, for making 
this a full committee hearing, while allowing me to chair as 
the Africa Subcommittee chairman. Today's hearing will address 
U.S. policy toward arguably the most worrisome region on the 
African Continent, the Horn of Africa. Since, I visited that 
region just over a year ago; the situation has gone from bad to 
worse.
    Today's hearing is an effort to examine the United States 
Government's policy toward the Horn--specifically, Ethiopia, 
Eritrea, and Somalia--and to assess what we've done right, what 
we've gotten wrong, and most importantly, what we need to do 
going forward to reconcile what appears to be, by most 
accounts, a failing policy in a very critical part of the 
world.
    This committee has sought to understand and address the 
escalating deterioration of security, political, and 
humanitarian conditions on the Horn that have been generated 
and exacerbated by more than two decades of instability. This 
is our third hearing in less than 2 years to try to inform and 
encourage a comprehensive U.S. strategy to address the Horn.
    Unfortunately, the problems we will hear about today are 
quite similar to those discussed at previous hearings, while 
the deterioration on the Horn continues to pose a serious 
threat to regional and international security. We need to 
address this--the insecurity and instability in Somalia, 
Ethiopia, and Eritrea, as in other countries in Africa--by 
working to end violence, promote democracy, defend human 
rights, reduce poverty, and improve security. But too often, 
these long-term goals have taken a back seat to more short-term 
and short-sighted priorities.
    I would like to say a word about why this hearing is so 
timely and important. There may be less than 10 months left in 
this administration, but we must nonetheless develop a policy 
that can help reverse the declining trends in the Horn of 
Africa, both at the national level as well as regionally. We 
have no option but to reassess where we currently stand, given 
that the political crises in Ethiopia and Eritrea are 
escalating dramatically, the border situation between those two 
countries remains inflamed, and the bloody fighting in Somalia 
shows little sign of abating, despite the recent appointment of 
a Prime Minister who appears to be saying many of the right 
things.
    The challenges we face on the Horn are not new, but in the 
post-9/11 world, how we deal with them presents new challenges 
that have, in my opinion, yet to be met. We have repeatedly 
discussed the need for a long-term comprehensive and 
coordinated U.S. Government policy that considers our strategic 
concerns, political dynamics, humanitarian concerns and, 
perhaps most critical, our national security interests, and 
applies our significant diplomatic, military, intelligence, and 
foreign assistance resources toward building a secure and 
stable Horn of Africa.
    Unfortunately, such a policy remains elusive. As we are 
likely to hear today, the problems in Somalia have a ripple 
effect across the Horn; they reflect longstanding clashes 
between Ethiopia and Eritrea that, in turn, benefit from the 
turmoil of a country with no functioning central government.
    In other parts of the world, we've seen what happens when 
decisions are made and executed without the benefit of a long-
term, comprehensive strategy. We've seen what happens when the 
administration's counterterrorism agenda dominates its 
bilateral relationships, and poor governance and human rights 
abuses therefore get a pass. Such actions undermine our 
country's own credibility and actually end up contributing to 
instability.
    This hearing is intended to not only inform the legislative 
process here in the Senate, but also to continue to emphasize 
the need for a more interconnected and balanced approach to the 
Horn of Africa that addresses each country specifically while 
still recognizing the transactional challenges and national 
security implications. This part of the world is far too 
important for us to rely on narrow, feeble policies or half-
hearted ad-hoc measures.
    And so with that said, let me introduce our two 
distinguished panels so we can begin today's discussion. On our 
first panel we have three witnesses from the administration who 
represent the top Africa Policy Directors in their respective 
agencies. We have Assistant Secretary of State for African 
Affairs, Dr. Jendayi Frazer; the Assistant Administrator for 
Africa at the U.S. Agency for International Development, Ms. 
Katherine Almquist; and Deputy Assistant Secretary for Africa 
at the Defense Department, Ms. Theresa Whelan.
    All three of these witnesses have testified before the 
Africa Subcommittee, so it's my pleasure to welcome you back to 
full committee. I appreciate your willingness to testify and 
look forward to, what I hope, will be a frank and productive 
discussion.
    Our second panel features a range of individuals who are 
well-qualified to speak on the unique challenges related to 
this complex region and the impact that U.S. policy is having 
throughout the volatile Horn of Africa, as well as on the U.S. 
national security priorities and policies, more generally.
    First, we'll hear from Ms. Lynn Fredriksson, the Africa 
Advocacy Director for Amnesty International U.S.A. We will look 
to you, Ms. Fredriksson, for a detailed picture of dynamics on 
the ground, and how they have been affected by recent 
developments.
    We are also privileged to welcome back Dr. David Shinn. 
Ambassador Shinn was the U.S. Ambassador to Ethiopia between 
1996 and 1999, and currently serves as an Adjunct Professor of 
International Affairs at George Washington University. Mr. 
Ambassador, we hope that you will offer analysis of the 
regional and international dynamics relating to developments on 
the Horn, as well as your opinion of how the United States and 
the international community can most effectively address the 
challenges we face there.
    Last, we welcome Retired Colonel Thomas Dempsey, currently 
the Professor of Security Reform, at the U.S. Army Peacekeeping 
and Stability Operations Institute. Mr. Dempsey has served as a 
Strategic Intelligence Analyst for Africa at the John F. 
Kennedy Special Warfare Center, and as Chief of Africa Branch 
for the Defense Intelligence Agency.
    I'd like to extend a special welcome, also, to all those in 
the audience today who have personal ties and commitments to 
these countries and issues. I know many of you have traveled a 
long way to attend this hearing, and I'm pleased that you could 
be with us. We are seeking to obtain balance and insightful 
recommendations that will have lasting implications for the 
Horn of Africa and for United States and international 
security.
    I am looking forward to hearing from each of our witnesses 
about the nature and consequences of our actions and our 
inaction on the Horn, as well as what our long-term objectives 
and strategies should be.
     Now, I am pleased to turn to the ranking member of the 
full committee and the former chairman of the committee, and 
really find it impossible not to mention his consistent 
commitment--not only his famous work on African issues, but he 
is almost always at this subcommittee's hearings, showing his 
continued devotion to working on issues related to African 
countries.
    Senator Lugar.
    Senator Lugar. Well, thank you very much, Mr. Chairman. Let 
me just mention again the commendation you've given to our 
witnesses, and likewise to the distinguished audience that has 
joined us today, as you pointed out, many from long distances, 
but all with very compassionate and constructive interests in 
Africa.
    And I appreciate so much your leadership, your willingness 
to have extensive hearings discussing all parts of the 
continent and the various dimensions of what we can do. So I 
will forgo any opening statement. I will be in and out of the 
hearing, as will be the case of many Senators, I suspect today, 
trying to cover several bases, but I really look forward to the 
hearing and the witnesses.
    And I thank you, Mr. Chairman.
    Senator Feingold. I thank you, Senator Lugar. And, with 
that, we'll start with our first panel.
    Secretary Frazer, please.

STATEMENT OF HON. JENDAYI FRAZER, ASSISTANT SECRETARY, AFRICAN 
          AFFAIRS, DEPARTMENT OF STATE, WASHINGTON, DC

    Dr. Frazer. Good morning. And thank you, Chairman Feingold, 
Senator Lugar, and members of the committee, for calling the 
hearing on this important subject.
    I am especially pleased to have this opportunity to meet 
with you shortly after the President's overwhelmingly 
successful visit to Africa and the critical peace agreement in 
Kenya. The President's trip saw an extraordinary outpouring of 
support for the United States and the American people, and 
appreciation of the President's initiatives funded by the U.S. 
Congress.
    At points in their history, the five countries the 
President visited--Benin, Tanzania, Rwanda, Ghana, and 
Liberia--experienced some of the turmoil now facing countries 
in the Horn of Africa, that is, societies torn apart by war, 
and conflict with neighbors, and experiencing political strife. 
Yet today, these countries stand as transformative models, and 
we foresee the same in the Horn of Africa. Today, the Horn of 
Africa is a crucible in which many of our most important 
priorities for Africa are being addressed in their most raw 
forms. We will continue to work for U.S. interests in the Horn, 
as elsewhere in Africa, to promote regional stability, 
facilitate economic growth, eliminate any platforms for al-
Qaeda or other terrorist operations, provide humanitarian 
assistance to the people in need, and work with governments in 
the region to transform the countries to invest in the people 
and good governance. Our strategy focuses on a regional 
approach working in partnership with African countries.
    The situation in Somalia remains the key challenge to 
regional stability and security in the Horn of Africa. Somalia 
has been characterized as a complex emergency, both in 
humanitarian and political terms, since the collapse of the 
Siad Barre regime in January 1991. For the last 17 years, 
Somalis have struggled to establish credible governance and 
stability in their country.
    During 14 reconciliation conferences, and numerous civil 
conflicts during the intervening years, U.S. strategy for 
Somalia aims to advance four key policy objectives.
    First, encourage inclusive political dialog to further the 
transitional political process outlined by the Transitional 
Federal Charter and leading to national elections in 2009.
    Second, provide humanitarian and development assistance for 
the Somali people, and help build the capacity of the 
Transitional Federal Government to better govern and deliver 
services.
    Third, facilitate the full deployment of the African Union 
Mission in Somalia, AMISOM, to stabilize the country and create 
the conditions for Ethiopia's withdrawal.
    And fourth, deny terrorists the opportunity to find save 
haven in Somali territory.
    Over the past year, we pursued our objectives coordinating 
closely with the Transitional Federal Government, or TFG, and 
regional countries, and working multilaterally, especially 
through the International Contact Group on Somalia.
    Mr. Chairman, the committee requested an update on our core 
objectives. Since we submitted the comprehensive regional 
strategy on Somalia to Congress in February 2007, we have made 
important progress. But we still have a ways to go, as 
expected, and working to transform Africa's one, true failed 
state.
    First, we have worked closely with the Transitional Federal 
Government leadership and the U.N. Special Representative to 
the Secretary General, Ahmedou Ould Abdallah, to continue the 
political dialog process and encourage additional outreach to 
key Somalia stakeholders. The TFG successfully held a National 
Reconciliation Congress in Mogadishu in July through August 
2007 that was attended by 2,600 delegates, and funded by the 
United States and other donors, and backed by the African 
Union, the Arab League, and the United Nations.
    The conference recommendations were also blessed by Saudi 
Arabia, recognizing the inclusive participation of Somali clan 
leaders, business, civil society, women's groups, and the 
religious leaders, among others. Only the truly extremists 
refused to take part, as noted in the GAO Report on Somalia.
    In more recent months, we have seen the emergence of a very 
positive momentum with President Yusuf's appointment of a new 
Prime Minister in November 2007, and that Prime Minister's 
selection of a more representative Transitional Federal 
Government Cabinet. Prime Minister Nur ``Adde'' Hassan Hussein 
has promoted reconciliation by engaging in extensive outreach 
to elements of the Somali opposition, working closely with 
humanitarian agencies, and preparing the ground for the key 
tasks that remain to be completely before elections in 2009.
    However, time is short for this 2009 transition, and 
significant tasks remain ahead. Needed among them are effective 
and inclusive security and justice mechanisms that will allow 
Somalis to live in peace and security. Given financial support, 
the neighboring countries are prepared to provide training to 
assist the TFG to create viable and responsive security forces, 
to establish a more secure environment in which the political 
process can move forward.
    Second, as correctly noted in a GAO Report, Somalia's 
chronic humanitarian emergencies continue today, following 
almost two decades of civil conflict. Localized droughts and 
flooding have exacerbated the deteriorating humanitarian 
conditions. We will continue to pressure all parties to allow 
unfettered delivery of humanitarian aid to effective 
populations. We have to develop greater leverage over 
extremists, especially groups like al-Shabaab that attack 
humanitarian relief staff and facilities.
    We will continue urging the Transitional Federal Government 
and Ethiopians to do all that they can to protect fluencies and 
prevent further deaths and displacement of innocent people. In 
2007, the United States was the leading donor of humanitarian 
assistance, providing more than $140 million to assist the 
Somali people.
    Third, at the time of the Somali Strategy Report to 
Congress, AMISOM was but a concept on paper. One month later, 
in March 2007, Uganda deployed two battalions, and today, 
Uganda and Burundi have deployed more than 2,500 soldiers as 
part of AMISOM.
    Burundi deployed its first battalion of approximately 850 
soldiers in January 2008, and has an additional battalion that 
awaits only funding to deploy. Uganda also plans to deploy an 
additional two battalions of 1,600 troops, if the necessary 
financial support is provided.
    Nigeria has pledged a battalion as well. Once deployed, 
this would bring the total number of troops in AMISOM to almost 
6,000, closer to the authorized strength of 8,000. To date, the 
United States has allocated $59.1 million to support this 
critical mission. We continue to work with the United Nations 
on contingency plans to support AMISOM, and a possible 
rehatting as a U.N. force, as conditions permit.
    Fourth, while the al-Qaeda-affiliated al-Shabaab is more 
isolated than ever, we remain deeply troubled that al-Qaeda 
operatives are treating Somalia as a safe haven. The United 
States remains committed to neutralizing the threat that al-
Qaeda poses to all Americans, Somalis, and others in the Horn 
of Africa.
    We have been clear that we will therefore take strong 
measures to deny terrorists safe haven, as well as the ability 
to plan and operate from Somalia. Fighting terrorism in Somali 
is not our sole priority, but rather is part of a comprehensive 
regional strategy to improve governance and the rule of law, 
stabilize the country and the region, and create the conditions 
for economic growth and development.
    Finally, since the report to Congress, Secretary Rice has 
appointed a special envoy for Somalia based in Nairobi and has 
increased the staff of our Nairobi office, working exclusively 
on Somalia.
    Our effectiveness will be further enhanced with the ability 
to regularly travel to Somalia and establish offices in the 
country. I have traveled to Baidoa in Somalia, and Hargeisa in 
Somaliland, to pave the way for regular, in-country, diplomatic 
engagement. This is a difficult and long-term effort in 
Somalia. As we encourage political dialogue, we will continue 
to seek to isolate those who out of extremism refuse that 
dialog and insist on violence.
    This dispute between Ethiopia and Eritrea regarding 
demarcation of their common border poses an additional threat 
to regional stability. However, the current standoff is not 
comparable to the 1998 to 2000 war that claimed the lives of 
120,000 combatants. Our diplomatic goals are for Eritrea and 
Ethiopia to work together in good faith to implement the 
Eritrea-Ethiopia Boundary Commission's Delimitation Decision, 
and for both parties to engage in talks to normalize relations.
    Unfortunately, recent efforts to resolve the boundary 
impasse remain stalled. Ethiopia refuses to demarcate the 
border without broader normalization talks, and Eritrea's 
longstanding restrictions on the U.N. Mission in Ethiopia and 
Eritrea, UNMEE operations, and the more recent refusal to allow 
UNMEE to obtain fuel have caused the U.N. to begin withdrawing 
UNMEE personnel.
    The Eritrea-Ethiopia Boundary Commission's virtual 
demarcation decision by map coordinates has not brought the 
parties closer to resolution. The result has been a hardening 
of positions on both sides, and increased tension between them. 
We will continue to seek opportunities for progress, especially 
supporting U.N. efforts, but we do not expect this impasse to 
be resolved in the near future.
    With Eritrea, while publicly claiming to seek peace and 
stability for the region, the Government of the state of 
Eritrea has privately undermined nearly all efforts for broad-
based inclusive dialog and reconciliation in the region, most 
notably in Somalia and Sudan.
    Its activities include supporting and hosting Hassan Dahir 
Aweys, a United States and United Nations designated terrorist; 
supporting Somalia extremists elements associated with the now-
defunct Council of Islamic Courts; and supporting the Ogaden 
National Liberation Front, ONLF, in Ethiopia-Somalia region.
    In addition to its destabilizing activities in the region, 
the Government of Eritrea has stamped out political freedom at 
home. Fifteen years after independence, national elections have 
yet to be held, and the constitution was never implemented. The 
Eritrean people deserve better. The United States has 
repeatedly pressed the Eritrean Government on these issues, but 
the Eritrean people continue to suffer.
    Ethiopia is the oldest independent country in Africa, one 
of the poorest countries in the world, and one of America's 
staunchest partners, especially in countering terrorism in the 
Horn of Africa. In Ethiopia, the Somali region commonly called 
the Ogaden, is both a humanitarian and an emergency problem, 
complicated by Eritrea's support for the ONLF and the periodic 
infiltration of al-Qaeda-trained terrorists, like Aden Ayro.
    Our objectives in Ogaden are to assist the Government of 
Ethiopia to prevent famine in the short term by reopening 
commercial trade routes and ensuring food deliveries, to push 
for improvement in the human rights conditions, and over time 
support efforts to integrate the Ogaden into national strategy 
for better health, education, agriculture, and economic 
development.
    The United States is deeply involved in the persistent 
diplomacy to ensure that humanitarian conditions in Ogaden do 
not deteriorate into famine. Our Ambassador in Addis Ababa 
coordinates the humanitarian response from the international 
community. I visited the Ogaden in September to push for 
increased commercial food deliveries, greater access, and 
respect for human rights.
    USAID Administrator Henrietta Fore and my colleague, Kate 
Almquist, also traveled to the region in November. It is not 
easy to ensure access for humanitarian workers for parts of the 
Ogaden, at the time, remained mired in conflict to ONLF attacks 
and counterinsurgency measures by the Ethiopian National 
Defense Forces.
    We acknowledge the government's right to defend its 
territory, including against insurgents, but equally, I've made 
clear to the Government of Ethiopia its responsibilities toward 
noncombatants during its operations, and have expressed our 
concerns about the impact of the insurgency and 
counterinsurgency on the civilian population.
     In promoting improved governance, we were encouraged by 
the Government of Ethiopia's release of political detainees in 
July and August of 2007. Again, this achievement was the result 
of persistent diplomacy. Although Ethiopia has a long and proud 
history, its democratic governance institutions are still 
young. We have conveyed directly our expectations for 
improvement on human rights and democracy issues, but also 
recognize the progress made over the past 15 years.
     We are confident that Ethiopia will work through its 
challenges, and will work with the government and opposition to 
find them--to help them find common ground as they work toward 
the elections in 2010.
    Djibouti is in a region fraught with instability, yet 
Djibouti is a peaceful, tolerant, democratic country serving as 
a valuable partner for both its neighbors and the United 
States. Though challenged by poverty and chronic food 
insecurity, Djibouti is rapidly becoming a vital hub for 
regional economic growth.
    President Guelleh recognizes that Djibouti knows that its 
future success depends on regional stability and economic 
integration, and with successful elections, it will continue to 
serve as a model for several of its neighbors.
    Somaliland: In early February, I also had an opportunity to 
visit the city of Hargeisa in the self-declared Republic of 
Somaliland. Somaliland has achieved a commendable level of 
stability, largely without external support or assistance. 
However, Somaliland's democracy remains fragile, and it is 
important to maintain the success of the past.
    We will continue to urge Somaliland's political parties to 
demonstrate the level of political will that ensured the 
previous Presidential elections in 2003 were credible and 
transparent, and to work together to ensure a peaceful result, 
regardless of who wins the elections.
    Although not a focus of this hearing, Kenya is an integral 
part of our policy in the greater Horn of Africa, and has long 
been a productive force of peace and stability in this region. 
We are encouraged by the February 28 political agreement 
reached by President Mwai Kibaki and opposition leader, Raila 
Odinga. And we believe that that agreement will allow Kenya to 
play its traditional leadership role in the region.
    In conclusion, despite continued instability in Somalia, 
and persistent tensions along the Ethiopia-Eritrea border, the 
Horn of Africa as a whole is making some progress. Our policy 
objectives remain consistent with our international and 
regional partners, but as always, we are constrained by limited 
resources, and to date, an inability to regularly travel to and 
set up offices in Somalia and Somaliland.
    Despite these constraints, we will continue to work with 
our partners to bring lasting stability to areas of conflict in 
the Horn of Africa, and to maintain stability and good 
governance where these goals have been achieved.
    Thank you. And I would be happy to take your questions.


    [The prepared statement of Dr. Frazer follows:]


 Prepared Statement of Hon. Jendayi E. Frazer, Assistant Secretary for 
          African Affairs, Department of State, Washington, DC

                              INTRODUCTION

    Good morning, and thank you, Chairman Feingold and members of the 
committee, for calling a hearing on this timely and important issue. I 
am especially pleased to have this opportunity to meet with you shortly 
after the President's tremendously successful visit to Africa, and in 
the wake of the critical peace agreement in Kenya.
    The President's trip saw an extraordinary outpouring of support for 
the United States and the American people. We are working closely with 
our African partners in a way that brings credit to our country. Our 
objectives in the countries the President visited--Benin, Tanzania, 
Rwanda, Ghana, and Liberia--are similar to those currently dominating 
our agenda in the Horn: Helping Africans resolve conflict and rebuild 
societies torn asunder by war; promoting ethnic tolerance and 
reconciliation; encouraging economic growth and job creation; improving 
health conditions; and ensuring democratic institutions and values 
prosper, including in nations with significant Muslim populations, for 
Islam is clearly compatible with democracy.
    The Horn of Africa today is the crucible in which many of our most 
important priorities for Africa are being addressed in their rawest 
forms. The issues are not conceptually different in the Horn than in 
the countries the President visited, but in some cases they present 
starker challenges in societies confronting ongoing conflict, where 
delivering state services and entrenching democratic values and 
institutions remain major challenges.
    Somalia's challenges have frustrated its citizens, neighbors, and 
friends for decades. Following the appointment of Prime Minister Nur 
``Adde'' Hassan Hussein, we are now seeing greater and more effective 
outreach to elements of the Somali political opposition, isolation of 
terrorist and extremist elements, efforts to repair and strengthen 
relationships with the humanitarian organizations, and concrete plans 
and timetables to accomplish the required transitional tasks under the 
Transitional Federal Charter. In Somaliland, we are witnessing the 
patient, methodical emergence of representative institutions.
    While Ethiopia and Eritrea have been as yet unable to resolve their 
many differences, the parties have controlled their militaries and 
largely refrained from reckless behavior on the border. Ethiopia has a 
unique history and is making the transition from two millennia of 
autocracy to a modern state. Djibouti is stable and preparing to be an 
important regional hub centered on its strategically located port. 
Eritrea remains the tragic exception to this picture. We have strong 
relations and mutual interests with the countries of the Horn of 
Africa, except Eritrea. President Isaias sponsors instability in 
Ethiopia, Darfur, and Somalia and is undermining the integrity of 
United Nations (U.N.) peacekeeping operations. His contempt for his 
neighbors and the U.N. is not new but it is particularly egregious at 
this sensitive time and sets a dangerous precedent.
    We will continue to work in the Horn, as elsewhere in Africa, to 
promote regional stability and representative government; facilitate 
economic growth, increased prosperity and jobs; eliminate any platform 
for al-Qaeda or other terrorist operations; provide humanitarian 
assistance in the wake of drought, flooding, and 17 years of near-
constant conflict in southern and central Somalia; and work with 
governments in the region to transform the countries through investing 
in people and good governance.

                                SOMALIA

    The situation in Somalia remains a key challenge to regional 
stability and security in the Horn of Africa. Somalia has been 
characterized as a complex emergency, both in humanitarian and 
political terms, since the collapse of the Siad Barre regime in January 
1991. For the last 17 years, Somalis have struggled to return lasting 
governance and stability to their country, enduring 14 reconciliation 
conferences and numerous civil conflicts during the intervening years.
    U.S. strategy for Somalia remains centered around four key policy 
priorities. First, encourage inclusive political dialog with the goal 
of resuming the transitional political process outlined by the 
Transitional Federal Charter and leading to national elections in 2009. 
Isolating terrorist and extremist elements is a key component of this 
priority. Second, provide development and humanitarian assistance for 
the Somali people and help build the governance capacity of the 
Transitional Federal Government (TFG). Third, facilitate the full and 
timely deployment of the African Union Mission in Somalia (AMISOM) to 
stabilize the country and create the conditions for Ethiopia's 
withdrawal. And four, deny terrorists the opportunity to find a safe 
haven in Somali territory.
    Over the past year, and particularly since President Yusuf 
appointed Prime Minister Hussein in November 2007 and Hussein's 
subsequent appointment of a new TFG Cabinet in January 2008, we have 
worked closely with the TFG leadership and the Special Representative 
of the United Nations Secretary General (SRSG) to continue this dialog 
process and encourage additional outreach to key Somali stakeholders, 
including clan leaders, business and civil society, women's groups, and 
religious leaders, among others. It is also important to continue the 
efforts begun during the National Reconciliation Congress in Mogadishu 
held in July-August 2007 in moving toward national elections in 2009.
    As a result of the efforts of the President, Prime Minister, and 
SRSG, we have seen the emergence of a new, positive, yet fragile, 
momentum in recent months. The Prime Minister has promoted 
reconciliation by engaging in extensive outreach to elements of the 
Somali opposition, working closely with humanitarian agencies, and 
preparing the ground for the key tasks that remain to be completed 
before elections in 2009. Similarly, and as a consequence of its own 
extremist tendencies, the al-Qaeda-affiliated al-Shabaab is more 
isolated than ever. However, time is short for the 2009 transition and 
significant tasks remain ahead, among them building effective and 
inclusive security and justice mechanisms that will allow Somalis to 
live in peace and security.
    The United States remains the leading donor of humanitarian 
assistance in Somalia, with approximately $140 million provided to date 
over FY 2007-FY 2008. Working with our international and regional 
partners in the International Contact Group on Somalia, we continue to 
call on all parties, including the TFG, to ensure unfettered delivery 
of humanitarian aid to affected populations, and encourage all Somalis 
to protect civilians and prevent further deaths and displacement of 
innocent people. We continue to work closely with our international 
partners and the donor community to improve humanitarian access and 
respond to the humanitarian needs of the Somali people.
    Similarly, additional deployments under AMISOM will help create a 
more secure environment in which this political process can move 
forward and the TFG can create viable and responsive security forces. 
Since I last appeared before this subcommittee to discuss Somalia, 
Uganda has deployed more than 1,800 soldiers as part of AMISOM, and was 
joined by a battalion, or approximately 850 soldiers, from Burundi in 
January 2008. Uganda plans to deploy an additional 1,600 and Burundi an 
additional battalion. Nigeria has pledged a battalion as well. Once 
deployed this would bring the total number of troops in AMISOM to 
almost 6,000, closer to the authorized strength of 8,000.
    To date, the United States has allocated $49.1 million over FY 
2007-FY 2008 in Peacekeeping Operations (PKO) funds to support this 
critical mission. We have also contributed $10 million in deployment 
equipment and transportation as part of the Global Peace Operations 
Initiative (GPOI) to help Burundi and Uganda deploy to AMISOM. We 
continue to work closely with the African Union (AU) and troop 
contributing countries to encourage additional troop deployments under 
AMISOM.
    At the same time, we remain deeply troubled that foreign terrorists 
associated with al-Qaeda have received safe haven in Somalia. The 
United States remains committed to neutralizing the threat that al-
Qaeda poses to all Americans, Somalis, and others in the Horn of 
Africa. We have been clear that we will therefore take strong measures 
to deny terrorists safe haven in Somalia, as well as the ability to 
plan and operate from Somalia.
    Fighting terrorism in Somalia is not our sole priority, but rather 
is part of a comprehensive strategy to reverse radicalization, improve 
governance, rule of law, democracy and human rights, and improve 
economic growth and job creation. This is a difficult and long-term 
effort in Somalia. As we encourage political dialog, we will continue 
to seek to isolate those who, out of extremism, refuse that dialog and 
insist on violence. Unchecked, terrorists will continue to undermine 
and threaten stability and the lives of civilians inside Somalia and 
throughout the region. Therefore, we will remain engaged in working 
with our regional partners, Somali stakeholders, to ensure a successful 
political process leading to the return of effective governance and 
lasting peace and stability.

                            ETHIOPIA-ERITREA

    The dispute between Ethiopia and Eritrea regarding demarcation of 
their common border poses an additional threat to regional stability. 
Unfortunately, recent efforts to resolve the boundary impasse are 
stalled and the situation has deteriorated. Eritrea's refusal to allow 
the U.N. mission in Ethiopia and Eritrea (UNMEE) to obtain fuel and 
continued restrictions on UNMEE operations have caused the U.N. to 
begin to withdraw UNMEE personnel.
    Eritrea's restrictions on UNMEE have been nearly universally 
perceived as an assault on the integrity of the U.N. with dangerous 
consequences for other U.N. missions and activities. The U.N. Security 
Council and other interested governments have strongly condemned 
Eritrea's actions. We are now supporting the U.N. to ensure the safe 
withdrawal of UNMEE and avoid a further escalation in tensions.
    The Eritrea-Ethiopia Boundary Commission's (EEBC) demarcation 
decision by map coordinates has not brought the parties closer to 
resolution of the impasse. Eritrea accepts the decision, while Ethiopia 
rejects it as inconsistent with international law. The result has been 
a hardening of positions on both sides and increased tension between 
them. Eritrea and Ethiopia will have to work together in good faith to 
implement the delimitation decision of the EEBC, a decision that both 
parties have accepted.
    It is essential for both parties to engage in talks on issues that 
prevent normalized relations. We strongly support the U.N.'s efforts to 
achieve such talks and expect that these efforts will resume after the 
situation involving UNMEE has been resolved. At the same time, we 
continue to press both parties to respect the Algiers Agreement and 
implement concrete steps on the border to reduce tension and avoid 
renewed conflict. We will continue to seek opportunities for progress, 
but do not expect this impasse to be resolved in the near future.

                                ERITREA

    While publicly claiming to seek peace and stability for the region, 
the Government of the State of Eritrea has pursued a widespread 
strategy of fomenting instability throughout the Horn of Africa and 
privately undermined nearly all efforts for broad-based, inclusive 
dialog and reconciliation in the region--most notably in Somalia and 
Sudan. Its activities include supporting and hosting Hassan Dahir 
Aweys, a U.S.- and U.N.-designated terrorist; supporting Somali 
extremist elements associated with the now-defunct Council of Islamic 
Courts; and supporting and training the Ogaden National Liberation 
Front (ONLF) in Ethiopia. Last year, Eritrea also suspended its 
membership in the Intergovernmental Authority on Development (IGAD) and 
did not support the region's strategy for achieving a long-term 
solution in Somalia.
    In addition to the Government of Eritrea's increasingly 
destabilizing activities in the region, its domestic human rights 
record remains deplorable and is steadily declining. Last year and this 
year it was listed in the Human Rights Report among the ``world's most 
systematic human rights violators.'' This is no surprise as several 
thousand prisoners of conscience are detained indefinitely without 
charge and without the ability to communicate with friends and 
relatives. There is no freedom of press, religion, speech, or assembly. 
Tight government controls on the financial system and private sector 
have destroyed the economy.
    The United States has repeatedly pressed the Eritrean Government on 
these issues, but Eritrea remains unresponsive and the Eritrean people 
continue to suffer. Fifteen years after independence, national 
elections have yet to be held, and the constitution has never been 
implemented. The Eritrean people deserve better.

                                ETHIOPIA

    In Ethiopia, the United States was deeply involved in the 
persistent diplomacy that ensured humanitarian conditions in the Ogaden 
did not deteriorate into famine. I visited the region personally, as 
did USAID Administrator Henrietta Fore, and our Ambassador in Addis 
Ababa coordinated the humanitarian response from the international 
community. It was not easy to ensure access for humanitarian workers, 
for parts of the Ogaden at the time remained mired in conflict, with 
Ogaden National Liberation Front attacks and counterinsurgency measures 
by the Ethiopian National Defense Forces (ENDF). We have made clear to 
the Government of Ethiopia its responsibilities toward noncombatants 
during its operations and have expressed our concerns about the impact 
of the insurgency and counterinsurgency on the civilian population.
    While the humanitarian situation in the Ogaden is not 
deteriorating, access remains a key challenge. Commercial trade in and 
out of the region has improved in the past several months, although 
poor rains, drought, and security restrictions provide a continued risk 
of famine. Our Embassy in Addis Ababa is leading the international 
effort to work with the government to get food distributed throughout 
the region by March and April before the rainy season in an effort to 
prevent a famine from emerging.
    The United States has committed approximately $53 million in 
emergency assistance to the Ogaden since August 2007, accounting for 98 
percent of all international emergency assistance. Since January 2008, 
a USAID-sponsored Humanitarian Assistance Team has been in place in 
Ethiopia, traveling through much of the Ogaden, assessing needs and 
working closely with Ethiopian and international organizations to 
coordinate relief efforts.
    In promoting improved governance, we were encouraged by the 
Government of Ethiopia's release of political detainees in July and 
August 2007. Again, this achievement was a result of persistent 
diplomacy, unheralded in public at the time but without which the 
detainees might not have been released. Although Ethiopia has a long 
and proud history, its democratic governance institutions are still 
young. It is frequently forgotten that Ethiopia is a country emerging 
from almost two millennia of autocracy. We have conveyed directly our 
expectations for improvement on human rights and democracy issues, but 
also recognize significant progress made over the past 15 years.
    Ethiopia is still working through the aftermath of the 2005 
elections, which saw a vibrant political culture emerge. This is a 
talented people, destined by dint of population, location, and energy 
to play a prominent leadership role on the continent for a long time to 
come. We are confident Ethiopia will work through its challenges and we 
will work with the government and opposition to help them find common 
ground as they move toward elections in 2010.

                                DJIBOUTI

    In a region fraught with instability, Djibouti is a peaceful, 
tolerant, democratic, Muslim country, serving as a valuable partner for 
both its neighbors and the United States. Djibouti plays a key role in 
supporting regional efforts to reach a lasting solution in Somalia. I 
visited Djibouti in early February, just prior to its parliamentary 
elections. Despite a boycott call from a rival coalition, the elections 
were peaceful and voter turnout was over 72 percent.
    Though Djibouti is challenged by poverty and chronic food 
insecurity, it is rapidly becoming a vital hub for economic growth in 
the region. Current significant foreign investment into Djibouti's port 
and infrastructure will likely allow Djibouti to serve as a regional 
transshipment hub. Djibouti's expanding port capacity speeds regional 
trade, and its livestock quarantine and export facility (launched by 
USAID) permits legitimate exports from the Horn to key Middle East 
markets for the first time in decades.
    President Ismail Omar Guelleh is committed not only to expanding 
Djibouti's role in the global economy and increasing foreign and 
private investment, but has also emphasized education and health care, 
so the Djiboutian people can realize the benefits of the country's 
economic growth. Djibouti knows that its future success depends on 
regional stability and economic integration, and it serves as a model 
for several of its neighbors.

                               SOMALILAND

    In early February, I also had an opportunity to visit the city of 
Hargeisa in the self-declared Republic of Somaliland. Somaliland has 
achieved a commendable level of stability, largely without external 
support or assistance, which the international community must help to 
sustain regardless of the question of formal recognition. My visit in 
February provided a chance to witness Somaliland's progress regarding 
economic development, but also to hear about the challenges that 
Somaliland faces in its democratic process.
    During my visit, I met with members of the Somaliland 
administration, as well as representatives from Somaliland's three 
political parties to discuss the municipal and Presidential elections 
expected to take place in July and August of this year. The United 
States has provided $1 million through the International Republican 
Institute (IRI) to support training for members of Parliament elected 
in Somaliland's September 2005 parliamentary elections, as well as 
capacity-building programs for Somaliland's three political parties. We 
also plan to contribute an additional $1 million in support of the 
upcoming municipal and Presidential elections.
    Despite some recent delays in beginning a voter registration 
process, we are hopeful that the recent decision by President Dahir 
Rayale Kahin to authorize the voter registration process proposed by 
the National Electoral Commission will enable the elections to take 
place on schedule. At the same time, Somaliland's democracy remains 
fragile and it is important to maintain the success of the past. We 
will continue to urge Somaliland's political parties to demonstrate the 
same level of political will that ensured the previous Presidential 
elections in 2003 were credible and transparent, and to work together 
to ensure a peaceful result regardless of which candidate wins the 
election.

                                 KENYA

    Although not a focus of this hearing, Kenya is an integral part of 
our policy in the greater Horn of Africa and has long been a productive 
force for peace and stability in this troubled region and I just want 
briefly to address it. As chair of the Inter-Governmental Authority on 
Development (IGAD), Kenya has had a leadership role in supporting the 
peace processes in southern Sudan, Somalia, and northern Uganda.
    Kenya is the economic anchor of the region, with food aid, fuel, 
and commercial goods for Horn countries passing through Kenya. The 
Kenyan Government continues to support and pursue our joint efforts to 
counter the threat of terrorism in Kenya and elsewhere in East Africa. 
Kenya's recent political crisis has somewhat diverted Kenya's focus on 
this effort, but we expect this will quickly be resolved.
    Kenya's recent political crisis following the December 27 elections 
harmed its economy (and thus, the economies of the Horn countries) and 
impeded Kenya's ability to play its traditional leadership role in the 
region. We are encouraged by the February 28 political agreement 
reached by President Mwai Kibaki and opposition leader Raila Odinga, 
and we will continue to monitor implementation of the agreement 
closely. We believe one of the most important reasons the parties 
decided to sign this agreement was the skilled mediation of Kofi Annan 
and strong private messages to both parties from the United States.
    To support implementation of the agreement and economic recovery, 
Secretary Rice has committed an initial assistance package of $25 
million that will focus on three key areas: Peace and reconciliation, 
institutional reform, and restoring livelihoods and communities. With 
the continued support and assistance of the United States and the 
international community, we are confident that Kenya will soon be back 
on the path of democracy, prosperity, and stability, and will be once 
again in the position to support and advocate for peace initiatives in 
the Horn of Africa. Implementation is critical, and we will remain 
closely engaged with the government, opposition, and civil society.

                               CONCLUSION

    Despite continued instability in Somalia and persistent tensions 
along the Ethiopia-Eritrea border, the Horn of Africa as a whole is 
making progress toward improved regional stability and governance. Our 
policy objectives remain consistent with our international and regional 
partners, but as always we are constrained by a lack of resources. 
Despite these constraints, we will continue to work with our partners 
to bring lasting stability to areas of conflict in the Horn of Africa, 
and to maintain stability and good governance where these goals have 
been achieved.

    Senator Feingold. I thank the Assistant Secretary. It is 
clear from the range of issues you raised, how important it is 
to try to look at this region as a whole, as well as the 
individual difficulties, because the challenges are so 
interrelated. And I certainly take your point about Kenya as 
being very relevant to the region, as well.
    So we thank you. And now, we turn to Ms. Almquist.

 STATEMENT OF HON. KATHERINE ALMQUIST, ASSISTANT ADMINISTRATOR 
    FOR AFRICA, U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT, 
                         WASHINGTON, DC

    Ms. Almquist. Thank you, Chairman Feingold, and members of 
the committee, for the opportunity to appear before you today 
to discuss USAID's programs in the Horn of Africa.
    Like elsewhere in the world, USAID's efforts to promote 
economic development, strengthen democracies, and provide 
lifesaving humanitarian assistance in the countries of the Horn 
will ultimately contribute to greater stability in the region. 
I have prepared a longer statement about our programs, which I 
would request be entered today for the record.
    The Horn of Africa continues to face numerous humanitarian 
challenges which constrain our development opportunities. Thus 
far in fiscal year 2008, USAID has spent over $265 million in 
food and nonfood to humanitarian assistance in Ethiopia and 
Somalia alone.
    In addition to drought, which has contributed to near-
famine conditions in the Horn during 6 of the past 10 years, 
ongoing tension between Ethiopia and Eritrea, prolonged civil 
and clan conflict in Somalia, and the multifaceted conflict in 
Ethiopia's Ogaden region continue to drain the human and 
financial resources of these countries, undermining national 
and international development efforts and the stability of the 
region as a whole.
    Providing effective humanitarian assistance in these 
environments is enormously difficult, and attacks targeting 
humanitarian personnel in both Somalia and the Ogaden highlight 
the risks our partners face on a daily basis. The unexpected 
crisis in Kenya, the stable anchor country in the Horn and East 
Africa region, has also added further challenging dimensions.
    As Somalia enters a projected transition to a 
democratically elected government in 2009, United States 
foreign policy objectives in Somalia are to eliminate the 
terrorist threat, promote political stability by supporting the 
establishment of a functioning central government, and address 
the humanitarian needs of the Somali people. U.S. assistance is 
helping to build the capacity of the Transitional Federal 
Government, the components of which are known as the 
Transitional Federal Institutions, to provide social services 
and support the transitional process leading to national 
elections and the establishment of permanent, representative 
government institutions.
    Despite the difficult environments and the limited 
timeframe, the outcome of the National Reconciliation Congress, 
and the appointment of the new Prime Minister and Cabinet in 
the late fall, provide an opportunity for reviving the 
constitutional process.
    USAID is also encouraging the continued democratization and 
development in the regional administrations in Somaliland and 
Puntland.
    The continued insecurity, localized drought conditions, and 
increasing numbers of internally displaced persons have 
generated deteriorating humanitarian conditions in Somalia, 
even while this transition takes place. Multiple attacks on 
humanitarian relief staff and facilities in January and early 
February have led to the withdrawal of some international staff 
and temporary travel restrictions, further complicating efforts 
to provide critical assistance.
    According to the United Nations, the number of people 
requiring humanitarian assistance and livelihood support has 
increased from 1.5 million as of mid-2007 to nearly 2 million 
people in early 2008, which includes both new and long-term 
internally displaced populations in rural areas of southern and 
central Somalia.
    These figures do not represent the sizeable but unknown 
number of vulnerable households in urban settings, which also 
are affected by record high prices for staple foods, 
disruptions in market and commercial activities, and the 
ongoing conflict. In response to growing concern over food 
insecurity among displaced and affected households, relief 
agencies are reviewing current response plans and food stocks.
    The United States and other donors are working with the 
Prime Minister and his Cabinet to help address bureaucratic and 
security impediments to delivery of humanitarian assistance and 
help improve access for humanitarian relief. We are heartened 
by the Transitional Federal Government's recent commitment to 
work with donor partners and NGOs to improve access, but urge 
the Transitional Federal Government to further implement the 
necessary steps as soon as possible to ensure that aid reaches 
those in need.
    Ethiopia is one of the world's poorest countries, with 
severe malnutrition and health problems affecting up to one-
tenth of the population of over 77 million. The country 
nevertheless has experienced robust economic and export growth 
in recent years, around 8 percent annually, but subsistence 
agriculture is prevalent and vulnerable to seasonal flooding 
and cyclical droughts.
    While the country is experiencing growing pains, sometimes 
severe, in its march toward democracy and a market economy, 
with U.S. support, Ethiopia continues to undertake ambitious 
programs to reduce poverty, advance political reform, boost 
sustainable economic growth, and increase the quality and 
coverage of health, education, and other service delivery.
    U.S.-supported governance, judicial and conflict mitigation 
programs help improve political dialog, strengthen civil 
society, and lessen ethnic conflict. U.S. assistance will 
continue to help the government tackle the underlying causes of 
food insecurity through employment generation and enterprise 
growth. And we have a robust development program working with 
the Government of Ethiopia and our donor colleagues on all of 
these areas.
    In terms of the humanitarian situation, overall food 
security in Ethiopia has improved over the past several years. 
And the main agriculture season between October and December 
which represents 90 to 95 percent of total crop production 
countrywide, was above the recent 5-year average.
    However, an estimated 8 million chronically food insecure 
people across Ethiopia receiving food assistance and cash 
transfers while building productive assets through the 
Productive Safety Net Program, continue to confront a food 
security crisis. In addition, approximately 1.3 million people 
require emergency food assistance, including nearly 1 million 
people in the Somali region.
    Although slowly improving, recent restrictions on trade and 
movement in the Somali region have disrupted livelihoods and 
increased food insecurity among pastoralists and 
agropastoralists in the five zones under military operations. 
And 1.5 million people living in these restricted areas are 
estimated to be in need of humanitarian assistance between now 
and June of this year.
    The inability to access markets, combined with high food 
commodity prices, has decreased food availability and dietary 
diversity, contributing to increased levels of malnutrition in 
affected areas for local populations' dependant on the sale and 
exchange of livestock for income.
    Delays and logistical constraints have limited actual food 
distributions, and the full resumption of commercial activities 
remains critical to improving food security in the region.
    In late November, the USAID Administrator and Director for 
U.S. Foreign Assistance, Henrietta Fore, and I traveled to 
Ethiopia, including the Somali region. As a result of 
Administrator Fore's meeting with Prime Minister Meles, in 
December USAID deployed a Humanitarian Assistance Team to the 
conflict-affected zones of the Somali region to assess 
nutritional and humanitarian conditions there and determine 
what steps could be taken to further facilitate delivery of 
aid.
    The Humanitarian Assistance Team concluded an initial 
assessment phase on January 31. While it did not observe 
indicators of an immediate crisis within the areas it was able 
to visit, it cautions that humanitarian conditions and the food 
security situation could still significantly deteriorate in the 
next couple of months due to poor seasonal rains, continued 
restriction on commercial trade and disruptions to livestock 
movement, poor delivery mechanisms for food aid being employed 
by the Government of Ethiopia's Disaster Prevention and 
Preparedness Agency, limited access to and delivery of 
essential health services, and ongoing insecurity and overall 
reduced humanitarian access.
    In order to address obstacles to effective food and 
humanitarian aid distribution, USAID is urging the Government 
of Ethiopia to improve access to affected populations for 
further needs assessments and response activities.
    We look forward to working with the Government of Ethiopia, 
beyond this humanitarian situation in the Ogaden, on a recovery 
and a development strategy for this region, which is critical 
to addressing some of the underlying causes behind this 
conflict.
    In Eritrea, chronic drought conditions continue to 
negatively impact food security, health, and nutrition 
indicators, as well as water availability. Economic and 
political challenges, including a lack of human resources due 
to high levels of military conscription and shortages of 
agricultural inputs, have also contributed to the disruption of 
agricultural production and economic development, exacerbating 
existing poverty and deteriorating humanitarian conditions. In 
addition, political constraints prevent comprehensive 
assessments and monitoring, and have led to a significant 
reduction in the number of humanitarian agencies operating in 
Eritrea.
    Indeed, USAID is not currently providing any development or 
humanitarian assistance, as we closed our mission at the end of 
2005 at the request of the Government of Eritrea.
    In Djibouti, United States assistance programs support 
health, education, governance, food security, and economic 
development. United States-funded programs serve as catalytic 
agents, helping Djibouti ensure that it stays safe from 
security threats; its health care and education programs reach 
rural and large urban areas; it is prepared to respond to the 
food emergencies and other food insecurity, and help its people 
obtain the tools they need to secure jobs in a rapidly changing 
economy. U.S. investments also contribute substantially to 
achieving our own security and development objectives in the 
region.
    And finally, I would just like to note how critical 
stability in Kenya is to avoiding massive instability in the 
entire Horn of Africa region. The crisis in Kenya has already 
affected its neighboring countries in the region through the 
sharp increases in fuel prices and transportation blockades. We 
are extremely encouraged by the breakthrough in negotiations 
and the agreement reached on February 28, but are very mindful 
that our attention will need to stay focused on Kenya, as this 
will be a long-term process of national healing and reform.
    The political and security challenges in the Horn of Africa 
are significant, as are the development and humanitarian needs. 
USAID is deeply engaged with our partners to help to address 
these challenges and support emerging opportunities.
    Thank you for the opportunity this morning, and I look 
forward to your questions.


    [The prepared statement of Ms. Almquist follows:]


      Prepared Statement of Hon. Katherine J. Almquist, Assistant 
            Administrator for Africa, USAID, Washington, DC

    Chairman Feingold and members of the committee, thank you for the 
opportunity to appear before you today to discuss USAID's programs in 
the Horn of Africa. U.S. Government objectives for the Horn of Africa 
are to promote stability, combat terrorism, and advance democracy and 
economic development while addressing the humanitarian needs of the 
region's people. Like elsewhere in the world, USAID's efforts to 
promote economic development, strengthen democracies, and help people 
fulfill their human aspirations in the countries of the Horn of Africa 
will ultimately contribute to greater stability in the region.
    The Horn of Africa continues to face numerous humanitarian 
challenges. Thus far in FY 2008, USAID has spent over $265 million in 
food and nonfood humanitarian assistance in Ethiopia and Somalia alone. 
In addition to drought, which has contributed to near-famine conditions 
in the Horn during 6 of the past 10 years, ongoing tension between 
Ethiopia and Eritrea, prolonged civil and clan conflict in Somalia, and 
the multifaceted conflict in Ethiopia's Ogaden region continue to drain 
the human and financial resources of these countries, undermining 
national and international development efforts and the stability of the 
region as a whole. Providing effective humanitarian assistance in these 
environments is enormously difficult, and attacks targeting 
humanitarian personnel in both Somalia and the Ogaden highlight the 
risks our partners face on a daily basis. The unexpected crisis in 
Kenya--the stable ``anchor'' country in the Horn and East Africa 
region--has also added further challenging dimensions.

                                SOMALIA

    Somalia has struggled to reestablish effective central governance 
following nearly two decades of civil conflict. As Somalia enters a 
projected transition to a democratically elected government in 2009, 
U.S. foreign policy objectives in Somalia are to eliminate the 
terrorist threat, promote political stability by supporting the 
establishment of a functioning central government, and address the 
humanitarian needs of the Somali people. U.S. assistance is helping to 
build the capacity of the Transitional Federal Government, the 
components of which are known as the Transitional Federal Institutions, 
to provide social services and support the transitional process leading 
to national elections and the establishment of permanent, 
representative government institutions. The United States also works 
closely with other donor partners and international organizations to 
support the development of an effective and representative security 
sector, including the military, police, and judiciary, while supporting 
ongoing peacekeeping efforts in Somalia. The deteriorating humanitarian 
situation continues to be a significant concern to which the United 
States is providing substantial assistance.

Peace and Security
    USAID will continue to provide training and support in conflict 
mitigation and reconciliation to political, clan, and civil society 
leaders in order to promote stability conducive to social and economic 
development. In FY 2007, the United States supported the successful 
convening of the National Reconciliation Congress, which brought 
together more than 2,600 delegates to Mogadishu. The National 
Reconciliation Congress succeeded in producing concrete recommendations 
on the transitional tasks ahead, including the drafting of a 
constitution and preparations for elections, as well as calling for the 
Transitional Federal Parliament to ratify an amendment to the 
Transitional Federal Charter that allowed for ministerial positions to 
be held by nonmembers of Parliament, paving the way for enhanced 
representation in the Transitional Federal Government. USAID, in 
concert with the State Department, is working closely with other donor 
partners to support the efforts of Prime Minister Nur ``Adde'' Hassan 
Hussein, under the leadership of President Abdullahi Yusuf Ahmed, in 
promoting reconciliation at all levels across Somali society.
    USAID is also supporting quick impact community-based projects to 
provide tangible, practical benefits; in FY 2007, 65 quick impact 
projects were supported benefiting over 6,000 households. Complementary 
support is being provided to civil society and media programs to enable 
government-civil society collaboration and promote transparency and 
accountability.

Governing Justly and Democratically
    USAID assistance both supports the transitional political process, 
as well as programs to build the capacity of government ministries and 
train public sector executives in the transparent and accountable 
management. USAID recently contributed to a multidonor package of 
minimum needs that will allow the new Transitional Federal Government 
Cabinet to establish itself in Mogadishu over the next 6 months. 
Programs are providing assistance for the Transitional Federal 
Institutions to help reestablish appropriate executive functions, 
including ongoing training of 30 directors general from selected 
ministries, provision of basic equipment, and deployment of technical 
advisors in the office of the President and other key ministries. 
Support also includes the launching of a Public Administration and 
Capacity Building Institute in Mogadishu and programs to strengthen the 
capacity of the Transitional Federal Parliament. Despite the difficult 
environment and the limited timeframe available for constitutionmaking, 
the outcome of the National Reconciliation Congress and the recent 
appointments of a new Prime Minister and Cabinet provide an opportunity 
for reviving the constitutional process. U.S. assistance is also 
encouraging continued democratization and development in the regional 
administrations in Somaliland and Puntland. USAID will continue to 
support existing and emerging civil society institutions, including 
independent media outlets, which are key stakeholders in Somalia.

Investing in People
    USAID is also working with the Transitional Federal Government to 
support the delivery of critical social services, including basic 
education and essential health interventions. The integrated USAID 
program provides support for essential social services directly at the 
community level. The program is expanding assistance designed to 
increase student attendance and retention by rehabilitating community 
primary schools; training additional teachers, especially women; and 
increasing access to education. Health programs are focusing resources 
on delivering basic maternal and child health interventions at the 
health facility and community levels in collaboration with relevant 
line ministries and local government counterparts. U.S. assistance will 
also provide funds to develop safe water points and latrines in 
community schools and health posts.

Humanitarian Assistance
    Continued insecurity, localized drought conditions, and increasing 
numbers of internally displaced persons have generated deteriorating 
humanitarian conditions in Somalia, particularly affecting Mogadishu 
and Lower Shabelle, Middle Shabelle, Hiran, and Central regions. 
Multiple attacks on humanitarian relief staff and facilities in January 
and early February have led to the withdrawal of some international 
staff and temporary travel restrictions, further complicating efforts 
to provide critical assistance. According to the U.N. Food and 
Agriculture Organization's Food Security Analysis Unit, the number of 
people requiring humanitarian assistance and livelihood support has 
increased from 1.5 million as of mid-2007 to nearly 2 million people in 
early 2008, which includes both new and long-term internally displaced 
populations in rural areas of southern and central Somalia. The Food 
Security Analysis Unit notes that these figures do not represent the 
sizeable but unknown number of vulnerable households in urban settings, 
which are also affected by record high prices for staple foods, 
disruptions in market and commercial activities, and the ongoing 
conflict. In response to growing concern over food insecurity among 
displaced and affected households, relief agencies are reviewing 
current response plans and food stocks.
    The United States and other donors are working with the Prime 
Minister and his Cabinet to help address bureaucratic and security 
impediments to delivery of humanitarian assistance and help improve 
access for humanitarian relief. We are heartened by the Transitional 
Federal Government's recent commitment to work with donor partners and 
NGOs to improve humanitarian access, but urge the Transitional Federal 
Government to implement the necessary steps as soon as possible to 
ensure that aid reaches those in need.
    In FY 2007 and to date in FY 2008, the U.S. Government has provided 
more than $139 million for health, nutrition, agriculture and food 
security, livelihoods, coordination, protection, and water, sanitation, 
and hygiene programs, as well as for emergency food assistance, peace-
building activities, refugee assistance, and air operations in Somalia.

                                ETHIOPIA

    Ethiopia is one of the world's poorest countries, with severe 
malnutrition and health problems affecting up to one-tenth of the 
population of over 77 million. The country nevertheless has experienced 
robust economic and export growth in recent years (around 8 percent 
annually) but subsistence agriculture is prevalent and vulnerable to 
seasonal flooding and cyclical droughts. The country is experiencing 
growing pains in its march toward democracy and a market economy. With 
U.S. support, Ethiopia continues to undertake ambitious programs to 
facilitate peaceful change, reduce poverty, advance political reform, 
boost sustainable economic growth, and increase the quality and 
coverage of health, education, and other service delivery. U.S.-
supported governance, judicial and conflict mitigation programs help 
improve political dialog, strengthen civil society, and lessen ethnic 
conflict. U.S. assistance will continue to help the government tackle 
the underlying causes of food insecurity through employment generation 
and enterprise growth. Support to the Productive Safety Net Program and 
Pastoral Livelihoods Initiatives will continue to build resilience 
among the most vulnerable. Three Presidential Initiatives--the 
President's Emergency Plan for AIDS Relief, the President's Malaria 
Initiative, and the recent Education Initiative--will provide 
assistance for integrated programs for the prevention, treatment, and 
care of HIV/AIDS and malaria, and improve access to education for all 
Ethiopians, particularly underserved girls. Regional foreign assistance 
programs will continue to support refugee flows, including repatriation 
programs, as well as projects which combat environmental degradation.

Peace and Security
    Conflict mitigation and reconciliation programming is designed to 
help stabilize border regions with Eritrea, Sudan, and Somalia by 
addressing tensions arising from competition over scarce resources and 
expanding openings to resolve longstanding disputes between the 
Government of Ethiopia and insurgent groups. USAID is working to build 
the capacity and support the interventions of joint government-civil 
society conflict management partnerships at the local, regional, state 
and national levels to prevent and manage conflict in violence-prone 
areas, including assisting with the development of a national conflict 
management policy.

Governing Justly and Democratically
    USAID programs are supporting constructive dialog among Ethiopians 
who represent diverse political perspectives and ethnic groups to build 
consensus on key issues. Funds are also being used to support 
multilateral efforts to facilitate the ongoing restructuring of 
elections and political processes and build capacity in preparation for 
the May 2010 national elections. USAID is helping to strengthen the 
capacity and role of civil society; improve independent human rights 
monitoring, investigation and reporting; and improve the respect the 
judiciary and police have for international, national, and 
institutional human rights standards. U.S. assistance is also used to 
ensure a U.S. role in the ongoing multidonor support program to 
strengthen the federal and regional Parliaments operating in the new, 
multiparty environment, and build the capacity of the National and 
Regional Judicial Training Centers and selected law schools. Capacity-
building efforts are also assisting the Gambella and Somali Regional 
State Governments to improve governance through better service 
delivery.

Investing in People
    Ethiopia's health services and education are slowly improving but 
are still among the poorest quality in the world. USAID programs 
continue to support and improve management and quality of health care 
services including family planning services to meet the growing unmet 
demand in order to reduce Ethiopia's very high population growth rate 
to sustainable levels. Investments in health and education are enabling 
Ethiopians to take advantage of expanded economic opportunities. USAID 
is supporting activities that expand access to sustainable reproductive 
health care and high-quality, voluntary family planning services and 
information contributing to poverty reduction. USAID provides support 
in maternal and child health to help mitigate the effects of external 
shocks, foster a healthier workforce, and focus on both child and adult 
education in the hinterlands. Funds are also used to help combat 
tuberculosis and reduce the incidence of malaria, major sources of 
morbidity and workforce absenteeism, and improve access to safe water 
supplies and basic sanitation, ultimately improving rural household 
health and food security. Africa Education Initiative assistance and 
other USAID support will improve the quality and equity of primary 
education through training teachers and administrators, strengthening 
planning, management, and monitoring and evaluation systems, and 
fostering community partnerships and school governance through 
capacity-building of parent-teacher associations and management of 
school grants. Scholarship support is assisting girls and HIV/AIDS 
orphans to succeed in school. Ethiopia is receiving significant support 
to scale up integrated prevention, care, and treatment programs 
throughout the country and support orphans and vulnerable children, 
thereby forging linkages with the President's Emergency Plan for AIDS 
Relief funded programs.
    New assistance in FY 2008 under the President's Malaria Initiative 
will expand efforts to scale up proven preventive and treatment 
interventions toward achievement of 85 percent coverage among 
vulnerable groups to support the program's goal of reducing malaria-
related morbidity by 50 percent.

Economic Growth
    The U.S. Mission in Ethiopia is using a range of assistance to 
leverage investment, export and private sector growth. USAID programs 
help to drive economic growth and promote a more enabling environment 
for agriculture, the private sector, small and medium enterprises, and 
trade and investment in general. Focus will continue on developing 
commodity exchanges, improving access to finance, and establishing 
policies to enable private-sector-led economic growth. Programs also 
focus on enhancing the productivity and competitiveness of key sectors, 
especially in rural areas. This includes investments in the tourism 
sector, agribusiness expansion, support to African Growth and 
Opportunity Act exports and World Trade Organization accession, 
continued support to pastoralist areas, and support to the livestock 
and agriculture sectors which employ 85 percent of the workforce and 
contribute 45 percent of GDP. These programs are continuing to increase 
economic prosperity through exports and job and wealth creation. The 
U.S. mission will continue its focus on the most vulnerable 
populations, providing impetus for new and alternative livelihood 
programs, improved agricultural practices, better livestock husbandry 
and meat and dairy marketing, and phyto-sanitation. Along with other 
major donors, the United States supports the Government of Ethiopia's 
Productive Safety Net Program to reduce food insecurity, which affects 
44 percent of the population. Investments in the Safety Net Program and 
related policy, regulatory, and administrative systems are serving to 
protect vulnerable populations and contribute to poverty reduction and 
rural economic growth. USAID funding is also helping to strengthen 
small enterprise and other poverty reduction efforts related to the 
Productive Safety Net Program.

Humanitarian Assistance
    The United States is the major donor assisting the Government of 
Ethiopia to anticipate and respond effectively to any natural or 
manmade disaster. USAID will continue to work closely with the Ethiopia 
Disaster Prevention and Preparedness Agency, to increase capacity for 
early warning and to provide humanitarian assistance of emergency food 
and nonfood aid.

                     CURRENT HUMANITARIAN SITUATION

    Ongoing trade and access restrictions in Somali region--though they 
have eased just slightly over the last few months--coupled with 
insecurity and recent drought conditions in Southern Ethiopia have 
increased humanitarian needs and food security concerns. In Somali 
region, insecurity, reduced humanitarian access and now poor rainfall 
are leading to deteriorating humanitarian conditions and increased 
malnutrition. Distributions of food aid and commercial food deliveries 
in some areas are subject to inadequate delivery systems or are being 
disrupted, impeding the ability to address the needs of affected 
populations, according to USAID's Famine Early Warning Systems Network.

Food Security and Agriculture
    Overall food security in Ethiopia has improved over the past 
several years, and the main agricultural season between October and 
December, which represents 90 to 95 percent of total crop production 
countrywide, was above the recent 5-year average. However an estimated 
8 million chronically food insecure people in Afar, Oromiya, Amhara, 
Tigray, Somali, and Southern Nations regions receiving food assistance 
and cash transfers while building productive assets through the 
Productive Safety Net Program continue to confront a food security 
crisis. In addition, approximately 1.3 million people require emergency 
food assistance, including nearly 1 million people in Somali region, 
84,000 people displaced by last year's flooding, and more than 260,000 
people in Oromiya region affected by localized crop failures, according 
to Famine Early Warning Systems Network.

Somali Region
    Although slowly improving, recent restrictions on trade and 
movement in Somali region have disrupted livelihoods and increased food 
insecurity among pastoralists and agropastoralists in the five zones 
under military operations--Warder, Korahe, Gode, Fik, and Degehabur. 
The inability to access markets combined with high food commodity 
prices has decreased food availability and dietary diversity, 
contributing to increased levels of malnutrition in affected areas for 
local populations dependent on the sale and exchange of livestock for 
income.
    The December 2007 deyr rains assessment mission in Somali region 
identified approximately 1.5 million people living in restricted areas 
of Warder, Korahe, Gode, Fik, and Degehabur zones in need of 
humanitarian or livelihood assistance between January and June 2008. As 
of February 19, humanitarian agencies had distributed approximately 
10,000 of the estimated 52,000 metric tons of food aid required to the 
region, according to the U.N. World Food Program. The Government of 
Ethiopia has approved 21 nongovernmental organizations to operate in 
the five Somali zones under military operations, but few organizations 
have been able to initiate programs to date, according to field 
reports. In addition, the Government of Ethiopia has approved 186 food 
distribution points--a 38-percent decrease from the previously utilized 
300 distribution points. However, delays and logistical restraints have 
limited actual food distributions, and the full resumption of 
commercial activities remains critical to improving food security in 
the region.
    From November 23 to 26, USAID Administrator and Director of Foreign 
Assistance Henrietta H. Fore and I visited Ethiopia, including Somali 
region, to discuss humanitarian conditions and efforts to facilitate 
emergency assistance to affected populations. On December 4, we met 
with Prime Minister Meles to discuss our concerns and offer USAID's 
assistance in response to his expressed need for better nutritional 
data for the region. Administrator Fore formally offered to Prime 
Minister Meles that USAID could deploy a Humanitarian Assistance Team 
to the conflict-affected zones of Somali region to assess nutritional and 
humanitarian conditions there and determine what steps could be taken to 
facilitate delivery of food and other humanitarian assistance. The Prime 
Minister accepted and the team deployed to Ethiopia on December 20.
    The Humanitarian Assistance Team concluded an initial assessment 
phase on January 31 and while it did not observe indicators of an 
immediate crisis within the areas of travel to date, it cautioned that 
humanitarian conditions and the food security situation could 
significantly deteriorate in March or April. Among the factors that 
signal potential deteriorating conditions in the region are:

  <bullet> The poor performance of the 2007 gu and deyr rains;
  <bullet> Current restrictions on commercial trade and disruptions to 
        livestock movement;
  <bullet> Poor delivery mechanisms for food aid being employed by the 
        Government of Ethiopia's Disaster Prevention and Preparedness 
        Agency;
  <bullet> Limited access to and delivery of essential health services; 
        and
  <bullet> Ongoing insecurity and reduced humanitarian access.

    In addition, Ethiopia's National Meteorological Agency is 
predicting an 80-percent chance of average or below average rains 
beginning in the March through May rainy season, with a 45-percent 
chance of below average rains. The Somali Regional Government has just 
appealed to donors for help due to poor rainfall and the U.N. is 
pressing the Government of Ethiopia to formally acknowledge the drought 
conditions and need for assistance.
    Some of the key recommendations from the team's initial assessment 
phase were that:

  <bullet> The capacity of the Government of Ethiopia's Disaster 
        Prevention and Preparedness Agency to target, monitor, and 
        deliver assistance needs to be enhanced to address obstacles to 
        effective food aid distribution;
  <bullet> USAID should support the current joint UNICEF and Government 
        measles vaccination campaign, given a serious outbreak in the 
        region;
  <bullet> The Government of Ethiopia should allow qualified U.N. or 
        nongovernmental organization partners to conduct standardized 
        nutritional surveys in conflict-
        affected areas; and
  <bullet> The Government of Ethiopia should work to improve 
        humanitarian access to affected populations for further needs 
        assessments and response activities.

    The Humanitarian Assistance Team remains engaged in the conflict-
affected areas of the Somali region, and has shifted focus from 
assessment to advocacy, monitoring, and program management. The team 
plans to undertake ongoing targeted field visits to Somali region to 
enhance findings and monitor humanitarian conditions, and assist the 
USAID/Ethiopia mission, partners, and host-country government 
ministries to implement response programs.
    OFDA has committed $5.3 million in Nutrition, Health, Water/
Sanitation, Livestock and Market interventions in Somali region to date 
in FY 2008.

                                ERITREA

    We are not currently providing any development or humanitarian 
assistance to Eritrea. We closed down our mission in Asmara on December 
31, 2005, in response to a request from the Government of Eritrea that 
we do so.
    In FY 2007, however, we did provide nearly $3 million in 
humanitarian assistance for ongoing programming in the areas of health, 
nutrition, humanitarian coordination and information management, and 
water, sanitation, and hygiene.
    Chronic drought conditions continue to negatively impact food 
security, health, and nutrition indicators, as well as water 
availability in Eritrea. According to the U.N. Office for the 
Coordination of Humanitarian Affairs, only 32 percent of rural 
populations have access to protected water sources. Economic and 
political challenges, including a lack of human resources due to high 
levels of military conscription and shortages of agricultural inputs, 
have also contributed to the disruption of agricultural production and 
economic development, exacerbating existing poverty and deteriorating 
humanitarian conditions. In addition, political constraints prevent 
comprehensive assessments and monitoring and have led to a significant 
reduction in the number of humanitarian agencies operating in Eritrea.

                                DJIBOUTI

    U.S. assistance programs supporting health, education, governance, 
food security, and economic development are helping Djibouti build on 
its demonstrated will to achieve its goals. U.S.-funded programs serve 
as catalytic agents, helping Djibouti ensure that it stays safe from 
security threats, that its health care and education programs reach 
rural and marginalized urban areas, that it is prepared to respond to 
food emergencies, and that its people obtain the tools they need to 
secure jobs in a rapidly changing economy. U.S. investments will also 
contribute substantially to achieving our own security and development 
objectives in the region.

Peace and Security
    Djibouti is on the mainline between the Middle East and Africa and 
faces steady pressure aimed at radicalizing its people and changing its 
polity. U.S. security cooperation is intended to ensure Djibouti has 
the tools to resist the threat of terror and instability. Department of 
State-funded programs promote stabilization operations and security 
sector reform, fight transnational crime, and support counterterrorism 
activities.

Governing Justly and Democratically
    Assistance for improving governance, provided by USAID, is helping 
promote a more transparent and efficient government at the national, 
regional, and local levels, increase confidence in the electoral 
process, and advance Djibouti's decentralization. It also helps to 
increase political participation, guarantee civil liberties, promote 
government accountability, and strengthen civil society. The democracy 
and governance program addresses major obstacles to Djibouti's capacity 
to sustain private sector development by promoting dialog between 
government, civil society, and the private sector. Popular frustration 
over the lack of jobs, inadequate public services, and obstacles to 
political participation must be overcome to ensure Djibouti's long-term 
success and stability. Leadership education and training will 
constitute a major focus of the democracy and governance program.

Investing in People
    To ensure Djibouti's continued stability in the volatile Horn of 
Africa region, U.S. assistance programs promote improved quality of 
life for Djiboutian citizens. USAID-funded health and education 
activities combat low life expectancy, maternal and under-5 child 
mortality, and the transmission of infectious diseases such as HIV/AIDS 
and tuberculosis. In addition, USAID activities continue to assist 
Djibouti in responding to food and other humanitarian emergencies. The 
health program continues to focus on expanded access to quality health 
care by improving maternal and child health services, and on the 
prevention of the spread of HIV/AIDS and tuberculosis. The education 
program continues its essential focus on basic education, promoting 
expanded access, particularly for girls and rural children, and an 
emphasis on preparation for employment opportunities. Support for 
teacher training, the provision of pedagogic materials, expanded 
community participation in education, the improvement and 
decentralization of education sector service delivery, and improved 
sector information systems and management capacity are also priority 
targets for U.S. assistance.

                                 KENYA

    It is important to note how critical stability in Kenya is to 
avoiding massive instability in the entire Horn subregion. The crisis 
in Kenya has already affected its neighboring countries region through 
the sharp increases in fuel prices and transportation blockades.
    We are extremely encouraged by the breakthrough in negotiations and 
the agreement reached on February 28 but are very mindful that our 
attention will need to stay focused on Kenya as this will be a very 
long-term process of national healing and reform.
    The political and security challenges in the Horn of Africa are 
significant as are the development and humanitarian needs. USAID is 
deeply engaged with our partners to help to address these challenges 
and support emerging opportunities.

    Senator Feingold. Thank you very much, Ms. Almquist. And 
now, Ms. Whelan.

  STATEMENT OF THERESA WHELAN, DEPUTY ASSISTANT SECRETARY FOR 
     AFRICAN AFFAIRS, DEPARTMENT OF DEFENSE, WASHINGTON, DC

    Ms. Whelan. Good morning, Chairman Feingold, and 
distinguished members of the committee. Thank you for the 
invitation to speak to you today about the situation in the 
Horn of Africa, and the Department of Defense's activities in 
the region.
    Africa, and the Horn of Africa in particular, is a region 
of great strategic importance to the United States. At the 
crossroads of sub-Saharan Africa and the Near East, the Horn 
presents a series of complex threats to U.S. national security, 
including weak governance, lawlessness, territorial disputes, 
and safe havens for terrorism.
    If ignored or unaddressed, all of these issues will have 
dire consequences for the people of the Horn, for the broader 
region, for our friends and allies on the continent, and for 
the United States. We believe that a coordinated U.S. foreign 
and national security policy in the Horn of Africa, of which 
our defense relations are a component, is of critical 
importance to U.S. security interests.
    The Department of Defense's activities in the Horn are a 
subset of U.S. national security strategy for Africa, as 
outlined by the President in the National Security Presidential 
Directive 50. And we also support the Department of State's 
foreign policy goals of countering terrorism and building local 
capacity. Our activities with African partners focused on 
issues of mutual strategic concern, including the elimination 
of terrorist safe havens, prevention of arms and human 
trafficking, and ensuring access to land and sea lines of 
communication.
    We addressed these security interests by working with 
African partners to promote civilian control and defense 
reform, and to build local military capacity. This is achieved 
by ensuring their militaries are appropriately sized and 
funded, by professionalizing militaries through training to 
develop and maintain well-trained and well-led and disciplined 
forces, with respect for law and human rights, and by building 
capacity of African partner militaries that positively 
contribute to combating terrorism, and that prevent and respond 
to national and regional crises.
    Theater Security Cooperation remains the cornerstone of our 
strategy to enhance partner capabilities and to promote these 
relationships and common interests. Within the Horn, our 
engagement and activities are governed by the realities of 
regional instability and our bilateral relationships.
    In Ethiopia, the security situation remains challenging and 
complex, with profound regional implications. One area of 
significant concern is the ongoing border dispute between 
Ethiopia and Eritrea. Both Ethiopia and Eritrea dedicate a 
significant portion of the military resources and efforts to 
manning the border region, and we remain concerned about the 
possibility for renewed hostilities along the border. We 
believe that any return to conflict between Ethiopia and 
Eritrea would undermine stability throughout the entire region.
    Beyond the border, Ethiopia is facing genuine security 
concerns in the Ogaden region. The Ogaden National Liberation 
Front continues to wage a separatist insurgency in the Ogaden 
region with outside support, including from neighboring 
Eritrea.
    Following the April 2007 attack, that killed 9 Chinese oil 
workers and more than 70 Ethiopians, the Government of Ethiopia 
increased its operations in a coordinated counterinsurgency 
campaign in the region. As a result, we have seen increased 
military operations, coupled with restrictions on commercial 
traffic and humanitarian access.
    We continue to monitor the situation in the Ogaden, but 
given that we in DOD no longer have the level of direct access 
that we previously had to the region, we are unable to confirm 
the actual facts on the ground. We are, however, acutely aware 
that for a counterinsurgency campaign to be successful, the 
military must respect the local civilian populace.
    We continue to pursue the strategic bilateral relationship 
with Ethiopia and the Ethiopian National Defense Force, a 
partner in regional counterterrorism activities. We believe 
that promotion of a professional ENDF, committed to human 
rights and rule of law, is best achieved through engagement, 
rather than isolation. And we have invested in training and 
supporting the professionalization of the Ethiopian forces.
    Our engagement with the Government of Ethiopia and the ENDF 
emphasizes our expectations that any military partner of the 
United States behave in a professional manner with respect for 
the rule of law and citizens' rights. Our training engagement 
is particularly important with the ENDF, a 200,000-person 
military that is professionalizing and restructuring into a 
more conventional force. This transformation has been 
challenged and made all the more necessary by the border 
conflict, the counterinsurgency campaign in the Ogaden, and 
Ethiopia's military activities in Somalia.
    Our relationship with the ENDF includes military education, 
counterterrorism capability development, and funding for 
nonlethal equipment purchases and maintenance to support the 
ENDF's modernization. Our Security Assistance Office in Addis 
works closely with the embassy to ensure our assistance 
complies with Leahy Law requirements. Until last year, the 
United States conducted military-to-military training in basic 
soldiering and commando skills at small outposts in Central 
Ethiopia. All of this training emphasized the rule of law. 
While this training ceased in 2007 at the request of the 
Ethiopian Government, we continue our activities at the 
Ethiopian Command and Staff College, where we have two 
uniformed instructors who have trained over 120 mid- and 
senior-level Ethiopian military officers. We believe that 
continued robust security cooperation, including military-to-
military training, is critical to the development of the ENDF 
and to U.S. foreign and national security policy in the region.
    Although we currently do not have a bilateral relationship 
with the Eritrean Defense Forces, we believe that there are 
areas of strategic security interest to the United States, 
including maritime security in the crucial shipping lanes in 
the Red Sea and the transformation of the ENDF from a guerilla 
force to a smaller, professional military.
    Since the closure of our Security Assistance Office in 
Asmara in early 2006, based on indications from the Government 
of Eritrea that it no longer wished to maintain a bilateral 
military relationship, we have had little to no contact with 
the Eritrean forces.
    The Government of Eritrea continues to undermine security 
in the Horn of Africa by supporting destabilizing elements in 
the region. We are concerned about Eritrea's actions, including 
the decision in November 2007 to deny the United Nations 
Mission in Ethiopia and Eritrea on the right to purchase or 
import fuel, de facto forcing UNMEE's current relocation of 
forces out of the TSZ and into Asmara.
    We continue to monitor the situation with UNMEE, and 
particularly whether UNMEE--now that it has started to withdraw 
from Eritrea--will be allowed to take with it all its 
equipment. If UNMEE were not allowed to take its equipment out 
of the country, Eritrea in essence would receive a windfall of 
military equipment left by departing U.N. troops.
    Another area of concern for us is the situation in Somalia. 
Although we have no bilateral military cooperation with the 
Transitional Federal Government, we are watching the security 
situation in Somalia and the implications of its continued 
instability for the region as a whole.
    Although recent efforts of the new TFG Prime Minister to 
reach out to elements of the opposition appear promising, there 
are serious and ongoing concerns about the security situation 
throughout Somalia. There is sporadic violence between 
Somaliland and Puntland forces. The lack of a representative 
security force impedes the TFG's efforts to extend its 
authority and control over all of Somalia, including portions 
of Mogadishu and the southern border area. Terrorist and 
extremist elements, including the al-Qaeda-affiliated al-
Shabaab militia, continue to exploit TFG weaknesses and are 
attempting to undermine any efforts toward peaceful dialog 
process and to seek safe haven in Somalia.
    The ability of al-Qaeda operatives and their affiliates to 
continue to use Somalia as a base for operations is a real and 
severe threat, not only to Somalia, but to the entire region 
and to the United States. We continue to work with our 
partners, particularly Djibouti and Kenya and Ethiopia, to 
develop regional counterterrorism capability to respond to 
terrorists and extremist elements in Somalia that threaten 
United States interests and the security of the region.
    Security assistance, including through traditional funding 
streams like foreign military financing and international 
military education training, and the DOD 1206 authority, have 
allowed us to support partners as they develop the capability 
to respond to the terrorist threat emanating from Somalia.
    Kenya's progress in developing a counterterrorism 
capability, with United States assistance, has been critical to 
regional security. Continued and increased assistance to these 
frontline states is crucial to ensuring that the instability in 
Somalia does not impact its neighbors. There may also be 
opportunities to make progress in Somalia by working with those 
parts of Somalia, including Somaliland, that are relatively 
stable. In addition to our partner relationships, the United 
States also has ongoing operations in the region that respond 
to the presence of identified al-Qaeda terrorists in Somalia.
    We remain committed to promoting security and stability in 
the Horn of Africa, and believe this is in the best interests 
of the people and governments of the region, and of the United 
States. The Department of Defense's relations and policies in 
the region are subordinate to our foreign and national security 
policies, and consequently, we continue to support and work 
closely with the embassies and USAID missions in the region to 
ensure our activities are consistent with and support the U.S. 
foreign policy objectives in the Horn.
    Thank you very much, and I would be happy to take your 
questions.


    [The prepared statement of Ms. Whelan follows:]


 Prepared Statement of Theresa Whelan, Deputy Assistant Secretary for 
         African Affairs, Department of Defense, Washington, DC

                              INTRODUCTION

    Good morning, Chairman Feingold, distinguished members of the 
committee. Thank you for the opportunity to speak to you today about 
the situation in the Horn of Africa, and the Department of Defense's 
activities in the region.
    Africa, and the Horn of Africa in particular, is a region of great 
strategic importance to the United States. At the crossroads of sub-
Saharan Africa and the Near East, the Horn presents a series of complex 
threats to U.S. national security, including weak governance, 
lawlessness, territorial disputes, and safe havens for terrorism. If 
ignored or unaddressed, all of these issues will have dire consequences 
for the people of the Horn, for the broader region, for our friends and 
allies on the continent, and for the United States. We believe that a 
coordinated U.S. foreign and national security policy in the Horn of 
Africa, of which our defense relations are a component, is of critical 
importance to U.S. strategic and security interests.

                   DEPARTMENT OF DEFENSE IN THE HORN

    The Department of Defense's activities in the Horn are a subset of 
the U.S. national strategy for Africa, as outlined by the President in 
National Security Presidential Directive 50, and support the Department 
of State's foreign policy goals of countering terrorism and building 
local capacity. Our activities with African partners focus on issues of 
mutual strategic concern, including the elimination of terrorist safe 
havens, prevention of arms and human trafficking, and ensuring enduring 
access to land and sea lanes of communication. We address these 
security interests by working with African partners to promote civilian 
control and defense reform, and to build local military capacity. This 
is achieved by ensuring their militaries are appropriately sized and 
funded, by professionalizing militaries through training to develop and 
maintain well-trained and disciplined forces with a respect for law and 
human rights, and by building capacity of African partner militaries 
that positively contribute to combating terrorism, and that prevent and 
respond to national and regional crises.
    Theater security cooperation remains the cornerstone of our 
strategy to enhance partner capabilities and to promote these 
relationships and common interests. Within the Horn, our engagement and 
activities are governed by the realities of regional instability and 
our bilateral relationships.

                                ETHIOPIA

    The security situation in Ethiopia remains challenging and complex, 
with profound regional implications.
    One area of significant concern is the ongoing border dispute 
between Ethiopia and Eritrea. Both Ethiopia and Eritrea dedicate a 
significant portion of military resources and efforts to manning the 
border region, and we remain concerned about the possibility for 
renewal of hostilities along the border. We believe that any return to 
conflict between Ethiopia and Eritrea would undermine stability 
throughout the entire region.
    Beyond the border, Ethiopia is facing genuine security concerns in 
the Ogaden region. The Ogaden National Liberation Front (ONLF) 
continues to wage a separatist movement in the Ogaden region with 
outside support, including from neighboring Eritrea. Following the 
April 2007 attack that killed 9 Chinese oil workers and more than 70 
Ethiopians, the Government of Ethiopia increased its operations in a 
coordinated counterinsurgency campaign in the region. As a result, we 
have seen increased military operations coupled with restrictions on 
commercial traffic and humanitarian access. We continue to monitor the 
situation in the Ogaden, but given that we no longer have the level of 
access that we previously had to the region, we are unable to confirm 
the actual facts on the ground. We are, however, acutely aware that for 
a counterinsurgency campaign to be successful, the military must 
respect the local civilian populace.
    We continue to pursue a strategic bilateral relationship with 
Ethiopia and the Ethiopian National Defense Forces (ENDF), a partner in 
regional counterterrorism activities. We believe that promotion of a 
professional ENDF, committed to human rights and rule of law, is best 
achieved through engagement, rather than isolation, and we have 
invested in training and supporting the professionalization of the 
Ethiopian forces. Our engagement with the Government of Ethiopia and 
the ENDF emphasizes our expectation that any military partner of the 
United States is to behave in a professional manner with full respect 
for the rule of law and citizens' rights. Our training engagement is 
particularly important with the ENDF, a 200,000-person military that is 
professionalizing and restructuring into a more conventional force. 
This transformation has been challenged and made all the more necessary 
by the border conflict, the counterinsurgency campaign in the Ogaden, 
and Ethiopia's military activities in Somalia.
    Our relationship with the ENDF includes military education, 
counterterrorism capability development, and funding for equipment 
purchases and maintenance to support the ENDF's modernization. Our 
security assistance office in Addis works closely with the Embassy to 
ensure our assistance complies with Leahy law requirements. Until last 
year, the United States conducted military-to-military training in 
basic soldiering and commando skills at small outposts in central 
Ethiopia. All of this training emphasized the rule of law. While this 
training ceased in 2007 at the request of the Ethiopian Government, we 
continue our activities at the Ethiopian Command and Staff College, 
where we have two uniformed instructors who have trained over 120 mid- 
and senior-level Ethiopian military officers. We believe that continued 
robust security cooperation, including military-to-military training, 
is critical to the development of the ENDF and to U.S. foreign and 
national security policy in the region.

                                ERITREA

    Although we currently do not have a bilateral relationship with the 
Eritrean Defense Forces (EDF), we believe there are areas of strategic 
security interest to the United States, including maritime security in 
the crucial shipping lanes in the Red Sea and the transformation of the 
EDF from a guerilla force to a smaller, professional military. Since 
the closure of our Security Assistance Office in Asmara in early 2006, 
based on indications from the Government of Eritrea that it no longer 
wished to maintain a bilateral military relationship, we have had 
little to no contact with the Eritrean forces.
    The Government of Eritrea continues to undermine security in the 
Horn of Africa by supporting destabilizing elements in the region. We 
are concerned about Eritrea's actions, including the decision in 
November 2007 to deny the United Nations Mission in Ethiopia and 
Eritrea (UNMEE) the right to purchase or import fuel, de facto forcing 
UNMEE's current relocation of forces out of the TSZ and into Asmara. We 
continue to monitor the situation with UNMEE, and particularly whether 
UNMEE, now that it has started to withdraw from Eritrea, will be 
allowed to take with it all its equipment. If UNMEE were not allowed to 
take its equipment out of the country, Eritrea in essence would receive 
a windfall of military equipment left by departing U.N. troops.

                                SOMALIA

    Another area of concern for us is the situation in Somalia. 
Although we have no bilateral military cooperation with the 
Transitional Federal Government (TFG), we are watching the security 
situation in Somalia and the implications of its continued instability 
for the region as a whole.
    Although recent efforts of the new TFG Prime Minister to reach out 
to elements of the opposition appear promising, there are serious and 
ongoing concerns about the security situation throughout Somalia. There 
is sporadic violence between Somaliland and Puntland forces. The lack 
of a representative security force impedes the TFG's efforts to extend 
its authority and control over all of Somalia, including portions of 
Mogadishu and the southern border area. Terrorist and extremist 
elements, including the al-Qaeda-affiliated al-Shabaab militia, 
continue to exploit TFG weaknesses and are attempting to undermine any 
efforts toward a peaceful dialog process and seek a safe haven in 
Somalia.
    The ability of al-Qaeda operatives and their affiliates to continue 
to use Somalia as a base for operations is a real and severe threat not 
only to Somalia, but to the entire region and to the United States. We 
continue to work with our partners, particularly Djibouti, Kenya, and 
Ethiopia, to develop a regional counterterrorism capability to respond 
to terrorists and extremist elements in Somalia that threaten U.S. 
interests and the security of the region. Security assistance, 
including through traditional funding streams like foreign military 
financing (FMF) and international military education training (IMET), 
and the DOD 1206 authority, have allowed us to support partners as they 
develop the capability to respond to the terrorist threat emanating 
from Somalia. Kenya's progress in developing a counterterrorism 
capability, with U.S. assistance, has been critical to regional 
security. Continued and increased assistance to these front-line states 
is crucial to ensuring that the instability in Somalia does not impact 
its neighbors. There also may be opportunities to make progress in 
Somalia by working with those parts of Somalia, including Somaliland, 
that are relatively stable. In addition to our partner relationships, 
the United States also has ongoing operations in the region that 
respond to the presence of identified al-Qaeda terrorists in Somalia.

                                SUMMARY

    We remain committed to promoting security and stability in the Horn 
of Africa, and believe this is in the best interests of the people and 
governments of the region, and of the United States. The Department of 
Defense's relations and policies in the region are subordinate to our 
foreign and national security policies, and consequently we continue to 
support and work closely with the Embassies and USAID missions in the 
region to ensure our activities are consistent with and support U.S. 
foreign policy objectives in the Horn.

    Senator Feingold. Thank you, Ms. Whelan.
    Even if there is not a Defense Department presence in the 
Ogaden we can, or we could at least, hope that you're talking 
to State and USAID through the interagency process to get the 
facts on the ground. Perhaps your staff can confirm some of 
these reports that way, instead of simply suggesting that 
you're unable to get it any information because the United 
States does have some presence there.
    But I do thank you for your testimony. I allowed much 
longer testimony than usual, because this is such a broad and 
intricate subject. So I thank all of you, and I will begin 10-
minute question rounds at this point.
    Dr. Frazer, the U.S. Government Accountability Office 
recently released a report I requested in 2006, analyzing U.S. 
policy in Somalia, which found that the administration's 
strategy has been insufficient, incomplete, and ineffective. 
Now this comes not really as a surprise. As you know, I had a 
requirement passed into law that same year requiring the 
administration to detail its Somalia strategy. The document 
that Congress received, which was received long past the 
deadline, was badly insufficient. The Pentagon has acknowledged 
the need for a detailed interagency strategy, but the State 
Department did not respond to the GAO's recommendation.
    Do you agree with the GAO's assessment that a more specific 
coordinated and comprehensive plan for restoring security and 
stability in Somalia is necessary?
    Dr. Frazer. I read the GAO Report, Senator, in great 
detail, and I came away with a very different take than the one 
that you just described.
    I felt that the GAO, based on their interviews both in the 
region and in Washington, did a really excellent job of 
describing a very complex situation in Somalia that creates 
many barriers to transforming that country into what we both 
would share as our goals of well-governed, developed, without 
humanitarian crisis. The GAO talked about the weaknesses of the 
Transitional Federal Government. The GAO Report talked about 
the need to have more African troops deployed. And so, I didn't 
take the report the way you characterized it.
    I do recognize that the GAO gave one or two 
recommendations.
    One, that we should have used their six characteristics of 
an effective national strategy in our report of our strategy. 
And so, they compared our strategy--which answered the mandate 
of the legislation that you put forward--versus their six 
criteria that they've used in many other cases. And then, they 
broke those six criteria into another 27 component elements. 
And so, I think they were comparing apples and oranges.
    We, in our strategy, did what the legislation asked us to 
do. If the legislation had asked us to use the six criteria 
from the GAO Report, then we would have done so.
    Senator Feingold. Well, do you think the current strategy--
if we can call it that--is actually working? And why do you 
think the Pentagon believes interagency planning and 
coordination on Somalia policy is insufficient?
    Dr. Frazer. I think I outlined in my testimony that in each 
of the four areas of our strategic objectives, we have seen 
significant progress, over the last few years, and more 
progress than we've seen over the previous 17 years.
    And so, yes; I do think our strategy is working. I don't 
think you can fix a country that's been broken for at least 17 
years--and much longer, in fact, because it was under an 
authoritarian regime--in just 2 years.
    Senator Feingold. Well, why do you think the Pentagon 
thinks that interagency planning and coordination in Somalia 
policy is insufficient?
    Dr. Frazer. I think the GAO probably interviewed a low-
level Pentagon official, because Secretary Gates was the 
principle at the Principles Committee who blessed the 
interagency policy and strategy on Somalia.
    And so, sure, whenever you go around any government, you're 
going to find some person who's going to say that they don't 
feel that it accurately----Senator Feingold. Dr. Frazer, it is 
my understanding that the Pentagon's response to the GAO Report 
was written by Deputy Assistant Secretary Whelan.
    Dr. Frazer. Well, I know what----Senator Feingold. And 
we're fortunate to have her with us. I'd like to ask you, Ms. 
Whelan, to explain why you not only accepted and agreed with 
the GAO's recommendation for a more detailed U.S. strategy on 
Somalia, but actually asked that the recommendation be 
strengthened.
    Ms. Whelan. Since the strategy came out in--last spring--
April, almost a year ago, there have been numerous developments 
in Somalia, to include: A new Prime Minister, Prime Minister 
Nur Hussein, or otherwise known as Nur Adde; President Yusuf 
and the TFG has confronted some health challenges that have 
raised questions about his future, at least, it raised 
questions in some of the Somali's minds; there have been some 
tensions between the President and the Prime Minister that have 
been reflected in Somali press; Ethiopia's posture in Somalia 
has changed considerably over the course of the past year; 
there have been splits noted in the Shabaab militia; and we 
also have seen, unfortunately, only two of the nations that had 
pledged to pull their troops to AMASOM follow through.
    So our contention is simply that the situation has evolved 
over the course of the last year. And in such circumstances, it 
always is healthy to review one strategy to take into account 
the evolving situation.
    Senator Feingold. Let me go back, Secretary Frazer, and you 
can respond to that, as well. But let me also ask you--I had 
been pleased to see Somalia's new Prime Minister Nur Hussein 
calling for inclusive negotiations and a renunciation of 
violence by all sides, but I'm not aware of any concrete 
measures he has taken since his appointment last November.
    So let me ask, what is your assessment of his potential and 
progress to date as a unifying and credible leader of the TFG? 
And also, what steps have we taken to ensure that this rhetoric 
of the Prime Minister has tangible outcomes? I'm a little 
concerned that, once again, we based our policy on one man, or 
one leader, one person, as opposed to seeking opportunities to 
build and bolster institutions.
    Dr. Frazer. Thank you Senator. I think we're trying to do 
both. I think the very, very first test of the Prime Minister 
was in the false start that he had in appointing his first 
Cabinet, or floating names for a Cabinet.
    He quickly reversed himself, and appointed a Cabinet that 
by all accounts is extremely representative, and far more 
credible than the previous Transitional Federal Government. And 
so, I think that's a very first important step that he put in 
place--people who could be more representative.
    Second, he has certainly reached out to the NGO community. 
He has, in fact, reversed decisions of some of the security 
officials to end the arrest of certain media, certain 
reporters, as well as humanitarian aid workers. And so, he's 
gotten them out of jail. That's an important step.
    Third, he has reached out effectively to the international 
community particularly in establishing a very strong 
relationship with the U.N. Special Representative to the 
Secretary General. And so, he has credibility internationally.
    It's going to take a much longer time to build the capacity 
of his ministry. Yes; he has ministers, but to get civil 
servants and others who can really work in these ministries is 
going to take some more time. But I do think that his early 
steps have been promising.
    Senator Feingold. On another topic, Dr. Frazer, last fall 
the U.N. conducted an assessment mission of the Ogaden and 
released publicly its humanitarian assessment, but did not 
release its human rights assessment.
    Have you seen this report and would you recommend that it 
be released?
    Dr. Frazer. I haven't seen the report, but I would imagine 
that our Ambassador in Ethiopia, who is a coordinator of the 
international community in Addis Abbaba, may have seen the 
report. But I have not personally seen that report.
    Senator Feingold. Well, I would ask your assistance in 
having this reviewed. And if there's not a reason to release 
that part of it, we would like to see that happen.
    Ms. Almquist, what is the U.S. Government doing to hold the 
TFG and Ethiopians accountable for their promise to facilitate 
humanitarian access? For example, I've heard reports of 
checkpoints run by TFG-appointed officials, and then secured by 
Ethiopians and TFG militia on the road leading from Mogadishu, 
that are taxing humanitarian aid shipments. What is being done 
to reduce these kinds of activities?
    Ms. Almquist. Thank you, Mr. Chairman, for the question. We 
are working closely with the Prime Minister and his Cabinet to 
raise these issues and to seek a humanitarian focal point from 
him and on behalf of the TFG. He has committed to appointing 
one.
    That has not happened yet, but we understand that it will 
be forthcoming soon, so that we can address each of the 
blockages and the taxation issues, and other hurdles that are 
coming up from the TFG, or those elements that the TFG might 
influence directly in Somalia.
    We also have more engagement now with the Prime Minister. 
He's met with the donors and the humanitarian community in 
Nairobi several times. He's seeking to have more interaction in 
Mogadishu itself. It's complicated for us, since we aren't 
present in Somalia as American officials, but our partners are 
there, and the United Nations is there, and so we're actively 
working on the agenda of this issue.
    Senator Feingold. Also on the issue of accountability, 
earlier this month there were reports of TFG troops looting the 
country's bustling Bakara Market in broad daylight. The Prime 
Minister apologized for the soldiers' misconduct and promised 
to take immediate action against those that had committed these 
crimes.
    Do you know if any action's been taken yet?
    Dr. Frazer. No, Mr. Chairman; I do not have information on 
that.
    Senator Feingold. If you could get back to me on that, and 
I thank my colleagues for their patience.

    [Dr. Frazer's response to Senator Feingold follows:]

    Dr. Frazer. Unfortunately, due to the rather loose chain of command 
in the TFG's security forces, there was no structure within which to 
investigate, identify, and hold accountable the perpetrators of the 
misconduct in Bakara market. As a result, in order to address this 
problem and prevent future incidents, the TFG leadership opted for a 
systemic remedy.
    Following the incident in Bakara market, TFG Prime Minister Nur 
``Adde'' Hassan Hussein engaged in discussions with the Benaadir 
Business Council, which includes the key business leaders of Bakara 
market, with the goal of establishing a private security force of 200 
persons who would be paid by the traders in Bakara market to guarantee 
security in the area. In exchange, the business leaders agreed to deny 
safe haven for extremist elements within Bakara market. Since the 
establishment of this private security force, violence in Bakara market 
has decreased, and there have been no further looting incidents.
    To address the broader problem of a lack of an effective chain of 
command within some of its security forces, the TFG is working to 
create effective security institutions to prevent and address 
misconduct in the future. The Prime Minister and his cabinet, under the 
leadership of President Yusuf, have launched an overhaul of the 
security forces, removing clan-based militia leaders from positions of 
power and sending troops to participate in training that will integrate 
them into a broader national force. While this will be part of a 
longer-term security sector reform process, we are hopeful this 
institutional action will help i prove accountability within the TFG 
security forces and prevent similar incidents from occurring in the 
future.


    Senator Feingold. I note that Senator Isakson has joined 
us. I understand that you will be the ranking member of the 
subcommittee?
    Senator Isakson. Pending a vote admitting, yes.
    Senator Feingold. I wish you good luck on the vote. And, 
obviously, I look forward and would be delighted to work with 
you.
    Of course, Senator Cardin, very active on the subcommittee, 
as well as the whole committee, and I know Senator Nelson of 
Florida has already been here, so this is a long hearing, but 
we have had a fair amount of interest.
    And, with that, I turn to Senator Lugar for his round.
    Senator Lugar. Thank you very much, Mr. Chairman. And I 
will welcome, along with you, Senator Isakson, as our ranking 
member, pending the election which is to occur about noontime, 
and which appears to, I hope, be a unanimous vote for him.
    Let me just ask you, Secretary Frazer, about the election 
of 2005 in Ethiopia. At least, for many of us, it was a setback 
for democratic efforts, and I think you've testified to that 
effect in previous hearings. But the opposition did make some 
gains in the Parliament.
    Can you trace what that has meant in governance in the 
country, and specifically speculate what the position of the 
opposition is with regard to Ethiopia's military deployment in 
Somalia?
    Dr. Frazer. Thank you, Senator Lugar. The opposition took 
up their seats; they hold now 173 out of 547 seats in 
Parliament. And it's been important to move toward what Senator 
Feingold just asked for, ``greater institutionalization of good 
governance.''
    The rules and procedures of Parliament have been modified 
to accommodate the opposition to allow opposition members to 
initiate legislation. And so, we think that taking their seats 
in Parliament is key to the continued development and the 
strengthening of the quality of Ethiopia's democracy.
    And we will continue to work with the opposition members in 
Parliament. We will continue to work with the Government to 
have effective electoral campaign regulations, including for 
the local elections, which are going to be taking place this 
year.
    On the issue of what the opposition feels about Ethiopia's 
deployment in Somalia, I'll have to come back to you, Senator, 
with a specific answer to that.
    Senator Lugar. Well, I was just hoping for some speculation 
down the trail as to whether there is an active debate going on 
in the country. Can you characterize that? Is this--is Somalia 
discussed in the Ethiopian Parliament?
    Dr. Frazer. Somalia is discussed, and certainly it was 
discussed in Parliament. It's also discussed within the ruling 
party itself. There are definitely differences of views about 
whether Ethiopia should have deployed into Somalia.
    Senator Lugar. Now, let me ask, what justification does 
Ethiopia have to perceive Eritrea as a threat in the region? 
You've characterized these free border disputes in Eritrea as 
serious, with regard not just to Ethiopia, but certainly to 
Somalia and Sudan.
    Describe, will you, that relationship between Ethiopia and 
Eritrea?
    Dr. Frazer. Well, Ethiopia perceives Eritrea as a threat, 
because Eritrea has been funding, and perhaps training and 
arming insurgents within Ethiopia, including the ONLF, but not 
restricted to the ONLF.
    Eritrea, of course, not only doing this in Ethiopia, but is 
also doing it in Sudan, so it has a long history of doing this. 
Eritrea also continues to essentially almost hold hostage 
Somalis who were part of the Somali Courts, and so that's part 
of the concern of Ethiopia.
    Also, Eritrea has moved its forces into the Temporary 
Security Zone, so it's moved it closer to Ethiopia's border, 
leading to some speculation about Eritrea's real intentions in 
pushing to get the UNMEE forces out of that border region.
    So I think that Eritrea, on several fronts, support for 
insurgencies, past support for extremists, as well as the 
deployment on the border has led the Ethiopians to feel 
threatened.
    Senator Lugar. What do we counsel with regard to that? In 
other words, in dialog with leadership of Ethiopia vis-a-vis 
Eritrea.
    Dr. Frazer. We've been very clear, especially regarding the 
border, that Ethiopia should do nothing to provoke any type of 
attack by the Eritreans. We, of course, counseled them that 
they have the majority of forces, and that they really should 
use all restraint necessary.
    We, of course, with their insurgency, continue to push as 
we do around Africa for a political solution for reaching out 
to these insurgent groups, to the extent that the insurgents 
will also reach out. And we've pushed them also with Eritrea to 
try to normalize the relations through allowing the demarcation 
of the Ethiopia-Eritrea boundary delimitation decision.
    Senator Lugar. Senator Frazer, we now have an Ambassador to 
the African Union headquartered in Ethiopia. Would you give us 
some further information about what kind of institutional 
assistance we provide to the African Union, and how that 
mission is progressing.
    How does that particular Ambassador fit into the scheme of 
all that you have commented on this morning?
    Dr. Frazer. Well, our Ambassador to the African Union, our 
mission to the African Union (AU) is extremely important. We 
are providing assistance to try to strengthen the AU's 
institutional capacity, including on the peacekeeping front. We 
have planners there working with the AU planners for the 
deployment of the AMISOM force, as well as for the deployment 
of the UNAMID force in Sudan.
    We are also working to strengthen a democracy unit, so that 
they can better train observers who can go to, for instance, 
hopefully to Ethiopia, also to Zimbabwe and other countries. 
The mission has grown. It's growing slowly. We have a----
Senator Lugar. How many people do you have there?
    Dr. Frazer. We have the Ambassador, a DCM, a Public Affairs 
Officer, a Health Attache, an Office Management Specialist, and 
three or four locally engaged staff.
    So it's growing. And we anticipate that it will grow 
further, but certainly we arehelping the African Union to be 
able to deploy these peacekeepers, to plan these peacekeeping 
operations, as well as to support countries in what are the 
fundamental basis for peace and stability, which is democracy. 
The USAU mission is certainly playing a positive role.
    Senator Lugar. In your judgment, that's the proper place 
for that Ambassador to be headquartered? In other words, our 
relationship with Ethiopia is such that working from that point 
and with regard to all these democracy efforts, that that's 
the--at least, the right spot for the Ambassador?
    Dr. Frazer. It is. It's much like the U.N. in New York. It 
is the headquarters of the AU. All of the permanent 
representatives to the AU are based in and out of Addis Ababa, 
and so it's the appropriate place for our Ambassador to the AU 
to be located.
    Senator Lugar. Now, finally, let me just ask one further 
question of you. The Combined Joint Task Force for the Horn of 
Africa has now been in place since May 2003, with the support 
of the Maritime Task Force and Special Operations Task Force.
    Now, granted the complexity that you and the other 
witnesses have described today, what sort of added value has 
this given to our diplomatic efforts in the Horn of Africa?
    Dr. Frazer. The Combined Joint Task Force has been 
absolutely critical. I can say that they have planners who are 
at our USAU headquarters, again assisting the AMISOM 
deployment. In addition, they have helped me personally with my 
diplomatic missions, providing left and sitting right with me 
in meetings with heads of state, Foreign Ministers, Defense 
Ministers, as we have coordinated this regional approach to the 
challenges in the Horn of Africa. So they've played a 
fundamental role.
    They're also working in civil affairs in areas to try to 
prevent these crises. For instance, in Comoros, a place that 
very few people get to--I went myself to Comoros--there are a 
number of Seabees there who are building schools and painting 
the schools. So they have an important presence and, I believe, 
a stabilizing presence, and certainly help our diplomatic 
efforts.
    Senator Lugar. Thank you very much.
    Senator Feingold. Thank you, Senator Lugar.
    Senator Cardin.
    Senator Cardin. Well, first, Mr. Chairman, let me thank you 
for holding this hearing. The Horn of Africa represents 
significant challenge for the international community and for 
the United States, and I very much appreciate this opportunity 
of hearing from our key people as to the strategy related to 
the countries of the Horn of Africa. And I would ask that my 
full statement be made part of the record.


    [The prepared statement of Senator Cardin follows:]


            Prepared Statement of Hon. Benjamin L. Cardin, 
                       U.S. Senator From Maryland

    Mr. Chairman, I thank you for the opportunity to hear testimony 
from the administration and expert analysts about the Horn of Africa.
    Without a doubt, the Horn of Africa is the most volatile subregion 
in all of Africa. The potential for the outbreak of war, terrorist 
activity, and complex humanitarian emergencies are all serious threats 
in this area.
    As we witnessed recently in the aftermath of Kenya's elections, 
long-seeded tensions can take a turn for the worst almost overnight 
because mechanisms for resolving conflict are either inadequate or 
nonexistent.
    In the Horn of Africa, millions face starvation, displacement, and 
political marginalization. While the world watches little is, or can 
be, done from the outside.
    If we take a brief survey of the region, we see that Somalia is 
still a failed state without a central government. Following Ethiopia's 
December 2006 invasion and removal of the Islamic Courts, Somalia is 
even more dangerous than ever. Added to that, some 600,000 people had 
to flee their homes in Mogadishu during fighting in 2007.
    The small nation of Eritrea continues to act in an obstructionist 
manner. Relations between the United States and Eritrea are not good. 
Issues pertaining to religious freedom and Eritrea's alleged links to 
funneling weapons into the region is worrisome.
    Mr. Chairman, perhaps no other nation in the Horn of Africa is more 
complex than Ethiopia. Ethiopia is an important U.S. ally in our war on 
terror and peacekeeping operations in the region.
    However, Ethiopia's recent activities have caused many observers to 
question their commitment to democracy and human rights. The May 2005 
elections in Ethiopia and the subsequent crackdown on political 
opponents was a major cause of international concern for a nation which 
views itself as a regional power. The level of secrecy and intimidation 
worried many friends and analysts of this ancient and proud nation.
    As a Senator who is concerned about human rights, I am particularly 
concerned about Ethiopia's activities in the Ogaden region. It is my 
understanding that international human rights groups have raised 
concerns about human rights abuses, perpetrated by the Ethiopian 
military in the Ogaden.
    These allegations include public executions, disappearances, 
arbitrary arrests, rape, torture and other inhumane treatment. 
Additionally, there are allegations of burning villages and denying 
food and water to the civilian population.
    For some time the International Committee of the Red Cross was 
denied access to the area. I understand now this situation has been 
corrected, but I am under the opinion that humanitarian corridors must 
be maintained to assist the most vulnerable populations during 
humanitarian crises.
    To conclude, I am very interested in learning from the Assistant 
Secretary of State what the U.S. position is regarding Ethiopia's 
Ogaden region. Additionally, I wish to learn from the USAID what 
findings the DART (Disaster Assistance Response Team) team concluded 
from its recent assessment mission to the region.
    In the end, a workable solution to the situation in the Ogaden must 
be found and I believe the United States can help Ethiopia reach a 
solution that is in the best interest of all parties.

    Senator Cardin. I want to deal with the Ogaden region of 
Ethiopia, and talk a little bit more about what our strategy is 
there. It seems to me that the communities are at risk. The 
underlining problems do not appear to be addressed. There are 
fundamental issues that need to be dealt with for the safety of 
the people of that region.
    And I would just like to get a better assessment from the 
panel as to what the U.S. policy is in regards to the rights of 
the people in that region, our involvement, how we're 
protecting the safety, or how we're participating in protecting 
the safety of the people of the region, and providing the 
appropriate type of international attention.
    Whomever would like to take that question. I see that 
everybody's volunteering all at once.
    Ms. Almquist. Senator Cardin, maybe I have in some ways the 
easiest job to answer what we're doing on the humanitarian 
assistance side. And from our foreign assistance perspective, 
we have certainly, all of us, in fact--Assistant Secretary 
Frazer, and other senior officials, as well as USAID 
Administrator Fore, and myself--been raising concern over the 
humanitarian situation in the Ogaden, and trying to follow it 
as closely as possible. Access to the area is difficult, and 
we've seen some improvement in that as a result, I think, of 
our engagement with the Government of Ethiopia in terms of the 
ability to even monitor what's happening on the ground for the 
condition of the civilian population.
    Additional access is still needed in order for us to truly 
respond to the humanitarian situation. There are nearly 1 
million people in the Ogaden that are in need of food 
assistance, and 1.5 million people in the Ogaden region are in 
need of some sort of humanitarian assistance, including the 
food assistance, and more broadly in the Somalia region, 4.5 
million people are--the region as a whole is 4.5 million 
people.
    So this is a significant proportion of the population that 
we would like to be able to address more directly.
    We have seen some increase in the delivery of foods to the 
region; 12,000 metric tons out of about 36,000 metric tons that 
have been allocated by WFP for the Ogaden have been 
distributed. There are 186 distribution points. Unfortunately, 
the World Food Program cannot reach all of those distribution 
points to monitor delivery of food assistance, and this is 
something that we would still, and are selectively, pursuing 
with the Government of Ethiopia so that we can get monitors 
out, and ensure that food is reaching the intended 
beneficiaries.
    The Ambassador has been very engaged on behalf of the 
humanitarian community in Addis Abbaba. And when briefing these 
issues with the Government of Ethiopia, a number of us have 
visited the region ourselves to draw more attention to the 
situation there and try and understand it better. We think that 
the coming--in fact, this month and next month are crucial, 
because of the projections for poor rainfall, which is critical 
right now given the vulnerability of the population in that 
area. And we hope that increased access will enable us to 
provide a better immediate response to the situation.
    In the longer term, we look very much forward to working 
with the Government of Ethiopia on a recovery and a development 
strategy for the Ogaden, and addressing the needs of the 
pastoralist population there. And we have some experience with 
this already in the Somalia and Afar regions in Ethiopia, and 
we think there are a number of interventions that would be very 
beneficial in recovering the assets of the livelihoods of the 
population that have been affected by conflict and security, as 
well as the cyclical droughts and other conditions aggravating 
the situation that they have right now.
    Senator Cardin. Is this as a result of findings of the DART 
assessment? What were the key findings within the DART 
assessment?
    Ms. Almquist. Yes. We feel that the Humanitarian Assessment 
Team, more or less the same thing as the DART, although we 
chose a different title for bureaucratic reasons.
    Senator Cardin. We can't keep up with all your titles.
    Ms. Almquist. I know, I'm sorry. We try and limit the 
number of acronyms these days.
    So far, the Humanitarian Assessment Team did not find 
famine conditions in the region. They were able to visit a 
number of areas, but insecurity and time prevented them from 
visiting all of the areas that we think are affected by this 
situation. They found that there are some improvements in 
humanitarian and commercial access, but overall, the situation 
is still quite concerning, in terms of the distribution process 
for humanitarian food assistance.
    They looked at what the Ethiopia Government, DPPA, Disaster 
Prevention and Preparedness Agency, is able to do with WFP. 
They looked at what international NGOs are able to do, in terms 
of delivery of health services and other nonfood assistance. 
And they tried to assess the level of commercial trade, and the 
prices of foods in the markets, and that sort of thing, and 
livestock movements, in order to understand the livelihoods of 
the people in the region.
    They came away with an impression that there is a serious 
humanitarian situation that could deteriorate significantly if 
there is another shock, such as poor rains forthcoming, or even 
worse, further reduced humanitarian access, so that food aid 
cannot get out.
    There are a number of things that could be done to improve 
that, in terms of movement of humanitarian organizations, 
working to increase the capacity of the local government agency 
responsible for working with World Food Program on distribution 
of aid, as well as trying to ease the restrictions on 
commercial trade. And those would all benefit the people of the 
region.
    Senator Cardin. I take it when you mean access to 
humanitarian assistance that you're talking about the safety of 
operating within that area, and the operations of either 
government officials or those that are for independence in that 
region. Is that right?
    Ms. Almquist. Right now, the humanitarian organizations, to 
operate in the region, they must be registered with the 
government, and then they have to have essentially travel 
clearances from the government to move about the area. The 
Somali regional government, as well as the military, given its 
operations, are relevant actors in that regard.
    And so, there are efforts to coordinate movements of 
humanitarian aid with both of those parties. Now, obviously, if 
there's an ongoing military or security situation, it's not 
appropriate or it's much more difficult for humanitarian actors 
who are unarmed to move freely in those areas. Now, we would 
encourage in our working with the United Nations to see if, 
through their Department of Security, they can put more staff 
on the ground in the Ogaden to work with the Ethiopian 
authorities in assessing the security conditions, so that in 
the maximum number of cases we can get out and deliver 
humanitarian aid.
    Now, that's the stuff that is under discussion right now, 
both with the United Nations and with the Government of 
Ethiopia, and we only hope very much that we can move forward.
    Senator Cardin. Well, let me just turn to the political 
situation and the future of that region, as far as stability 
and respect for the communities. Is there a game plan? Is there 
an end game here that appears to be moving forward?
    Dr. Frazer. Senator, in terms of the Somali region, it is 
very difficult. What we've been pushing for, of course, is on 
the humanitarian side, primarily. But in addition to the 
humanitarian side, we've sent signals to the ONLF to renounce 
violence, and we've also pushed the Government of Ethiopia to 
positively respond to the ONLF should the ONLF actually 
renounce violence. So that's on the internal dynamics.
    We've also pushed for the Government of Ethiopia to treat 
the Ogaden in a more integrated fashion. As all of us have 
said, it's important to win over the civilian population. And 
so, the only way to do that is to bring development to that 
region. And so, there needs to be a real focused effort, and an 
increased effort on the part of the Government of Ethiopia.
    Senator Cardin. Do you see that happening?
    Dr. Frazer. We're pushing for it. I think that the focus is 
on counterinsurgency, and also to allow for more humanitarian 
aid to come in. But we need more development, as well.
    And then, the third part of that strategy is, of course, 
one that is far more difficult, which is that you have to get 
the normalization between Ethiopia and Eritrea, because Eritrea 
is continuing to arm and finance and train the insurgents.
    Senator Cardin. Thank you. Thank you very much, Mr. 
Chairman.
    Senator Feingold. Thank you, Senator Cardin.
    Senator Isakson.
    Senator Isakson. Well, thank you, Mr. Chairman. First of 
all, I look forward to working with you on the subcommittee, 
and I appreciate the opportunity to be here. And I apologize to 
our panelists for having missed your testimony. This is an 
unusually bad day for me with commitments. I'm overcommitted 
and underprepared. But I'm glad to be here. And I want to make 
a couple of comments, if I can.
    First of all, to Dr. Frazer, I just returned from Djibouti. 
I was there visiting Ambassador Symington, and the military 
installation that we have there, and the deployments that we 
have there assisting people in Africa. And I would like to note 
that last month when the President made his trip to Africa, 
there were a couple of African leaders that made outspoken 
statements not wishing any American military personnel in their 
country.
    But the people of Djibouti, and the Governor of Djibouti, 
seemed not only to be very hospitable, but very welcoming to 
our investment there. Was I correct in that judgment?
    Dr. Frazer. Yes, sir. Without a doubt.
    Senator Isakson. The folks I talked to, the ones who were 
going out and drilling wells and providing infrastructure 
assistance, said they were being received very well in the 
outlands of the countries they were going visiting. Is that 
correct?
    Dr. Frazer. That's correct. And I think it's true of our 
military forces throughout Africa, where they're doing civil 
affairs projects, bringing assistance and development to many 
regions that are typically not reached. So, yes; that is 
correct.
    Senator Isakson. Well, the reason I raised the point with 
you is I read Ms. Whelan's testimony, ``We believe that a 
coordinated U.S. foreign and national security policy in the 
Horn of Africa is of critical importance to the United States' 
both strategically and regarding our security interests.''
    Having now been there and seeing firsthand, I 
wholeheartedly echo that statement. And I think what's going on 
in Djibouti is a perfect combination of both the national 
security aspect, as well as America helping those people to 
have a better life. And it was very impressive.
    Ms. Almquist, I also had the privilege to spend a week in 
Ethiopia a few years ago with the Basic Education Coalition, 
Save the Children, and CARE, organizations all of which I know 
USAID works with.
    I was impressed with the progress that was being made in 
educational assistance in Ethiopia. That was 2002, so that's 
been--well, 5\1/2\ years ago now. Is that still progressing 
through USAID?
    Ms. Almquist. Yes, sir. We still have a Basic Education 
Program there. And, in fact, Ethiopia is part of the 
President's most recently announced International Education 
Initiative, which he announced last year. And so, we'll be 
further adding to our basic education funding for Ethiopia in 
support of that initiative.


    [Additional information submitted by Ms. Almquist follows:]


 what kind of basic education programs is usaid supporting in ethiopia?
    Assistance from the Africa Education Initiative and other USAID 
support has helped to improve the quality and equity of primary 
education. Programs with the Ministry of Education improve the quality 
of primary and secondary education by improving teaching methods and 
curriculum, strengthening school-community empowerment, and fostering 
civic education.
    These programs support the training of teachers and administrators; 
the provision of textbooks and other learning materials; strengthening 
of planning, management, monitoring, and evaluation systems; and the 
fostering of community partnerships and improved school governance 
through capacity-building of parent-teacher associations and management 
of school grants. USAID is working closely with the Ministry of 
Education to produce Ethiopia's first primary grade English as a Second 
language textbook with integrated HIV/AIDS messaging.
    Scholarship support will assist girls and HIV/AIDS orphans to 
succeed in school through integrated coordination and implementation 
between the USAID basic education program and PEPFAR. There is a 
special focus on increasing access to education for girls and on 
schools in Muslim areas. Ethiopia received $7 million for basic 
education in FY 2007; the FY 2009 request level is $18 million. FY 2008 
levels are not yet final but are expected to be on par with or higher 
than the FY 2009 request level.


    Senator Isakson. And CDC out of my hometown of Atlanta, GA, 
is operating in Addis Abbaba, and in Africa, on the American 
AIDS Initiative, if I'm not mistaken.
    Ms. Almquist. Yes, sir. The President's Emergency Plan for 
AIDS Relief, PEPFAR, is also present in Ethiopia. And USAID is 
implementing a substantial portion of that program, as well as 
the President's Malaria Initiative.
    Senator Isakson. Has there been a decline in the AIDS 
infection rate in Ethiopia over the last few years? They were 
one of the worst at one time, I know.
    Ms. Almquist. Yes, sir. I unfortunately don't have those 
statistics off the top of my head, but I would be happy to get 
back to you on that.


    [Ms. Almquist's response to Senator Isakson's question 
follows:]


    Ms. Almquist. The most recent HIV prevalence rates for Ethiopia are 
indeed lower than those published in previous years. However, this 
reflects a change in the way that prevalence is being measured rather 
than a true decrease in HIV infection rates.
    The new estimate is a calibration of both antenatal clinic (ANC) 
sentinel surveillance and the 2005 population-based Demographic and 
Health Survey (DHS). The 2005 ANC estimate was about 3.5 percent; the 
2005 DHS prevalence was 1.4 percent (with an urban prevalence of 5.5 
percent and a rural prevalence of 0.7 percent). The Government of 
Ethiopia conducted a data synthesis exercise in conjunction with the 
World Bank in 2006, and the official prevalence rate of the Government 
of Ethiopia was derived from that exercise. The Government of Ethiopia 
states that the national prevalence is 2.1 percent. The range published 
by UNAIDS, which shows the range of 0.9-2.5 percent, rather than a 
single number, is a ``confidence interval'' that reflects the 
statistical precision of the estimate.
    Through linkages with the President's Emergency Plan for AIDS 
Relief (PEPFAR), Ethiopia will receive significant support to scale up 
integrated prevention, care and treatment programs throughout the 
country and support orphans and vulnerable children. These programs 
leverage and complement resources of other international partners, 
Ethiopia's public and private sectors, and the Global Fund to Fight 
AIDS, Tuberculosis, and Malaria.
    USAID PEPFAR programs support HIV/AIDS prevention, care and 
support, and treatment at primary care facilities and include 
prevention of mother to child transmission of HIV, activities that 
strengthen the health system and develop its human resources, HIV 
education activities, community care for people living with HIV and 
AIDS, and provision of food, safe water, education, protection, and 
health care services for orphans and vulnerable children. PEPFAR 
provided close to $230.2 million for Ethiopia in FY 2007; the FY 2009 
request is $337 million. FY 2008 levels are not yet final but are 
expected to approximate the FY 2009 level.


    Senator Isakson. Well, thank you very much, Mr. Chairman. I 
look forward to serving with you. Thank you.
    Senator Feingold. I share that, Senator. Thank you for your 
participation. We do need to get to another panel, so I'll only 
use a portion of my second round time.
    Ms. Whelan, I noted in your testimony that you referred to 
al-Shabaab as al-Qaeda-affiliated. What are the implications of 
this designation, in terms of DOD's activities?
    And then, I'd like Dr. Frazer to indicate if she agrees 
with this assessment. And what are the implications of such a 
designation on U.S. counterterrorism policy, Ms. Whelan?
    Ms. Whelan. Thank you, Senator. The al-Shabaab, we believe, 
is affiliated with al-Qaeda in that certain elements of the al-
Shabaab militia have sought to gain financial support from the 
al-Qaeda organization.
    In the context of our counterterrorism policy, we continue 
to see our counterterrorism approach in the Horn, and 
particularly in Somalia, in a holistic fashion, in that we need 
to work with our partners in the Horn to develop their 
capacities to deal with the terrorist issues inside their 
borders, particularly with the Kenyans, and we have had great 
success there.
    We also need to work directly where we can to go after al-
Qaeda terrorists, particularly those who were engaged in the 
bombings in Mombasa, and the bombings in Nairobi, and Dar-us-
Salam. So the fact that al-Shabaab is courting--or at least 
elements of al-Shabaab are courting al-Qaeda for greater 
support, somewhat along the lines of the al-Qaeda in the lands 
of Islamic Maghreb in Northern Africa, that relationship, this 
to us is a very disturbing development.
    And it could lead to further entrenchment, potentially, of 
al-Qaeda elements in the Horn. So we are continuing to monitor 
this, and we will continue to work with our partners in the 
region to attempt to address it, if it develops along those 
lines.
    Senator Feingold. Dr. Frazer, your comments on this?
    Dr. Frazer. Yes. The al-Shabaab is very much linked to al-
Qaeda. Leaders, like Aden Hashi Ayro, trained with al-Qaeda in 
Afghanistan prior to 2001. He's issued statements praising al-
Qaeda leader, Osama bin Laden, and inviting foreign fighters to 
come to Somalia to participate in holy war against Ethiopians 
and Ugandan forces.
    He's also responsible for the assassination of Somali peace 
activists in July 2005, and multiple targeted assassinations, 
and harassment of civil society figures, government officials, 
and journalists. He is also implicated in the murder of an 
Italian nun in Mogadishu in September 2006.
    Mukhtar Robow is another senior military commander, a 
spokesman of al-Shabaab who has provided logistical support for 
al-Qaeda operatives inside Somalia. And I can go on with others 
who were in the leadership of al-Shabaab, with ties and 
membership in al-Qaeda.
    I believe that their role in attacking civilians and their 
connections with al-Qaeda terrorists will further isolate them 
from the Somali people, who are very pragmatic and who are not 
linked and tied to terrorists and to extremists. And so, I 
think that clearly going after al-Shabaab and designating them 
is an important part of our strategy to isolate them further, 
and to be able to take direct action against them.
    Senator Feingold. Thank you. Back to Ms. Whelan. Are we at 
war in Somalia? And, if so, who is the enemy?
    Ms. Whelan. The United States is not at war in Somalia. And 
I think that our enemy in that region, Senator, are the al-
Qaeda operatives who are utilizing that region to plan and 
execute terrorist operations that kill civilians, innocent 
civilians.
    Also, any individuals associated with those al-Qaeda 
operatives, who facilitate their operations, are those that we 
have an argument with, but we are not at war in the region.
    Senator Feingold. Well, the Department acknowledged a 
strike last week against a terrorist target in Somalia. And I 
appreciate, of course, that there are some very bad actors in 
the region, whom we should be pursuing, and I support those 
efforts.
    But from the point of view of military strategy, are our 
operations in Somalia simply part of a global manhunt, or do we 
have broader goals?
    Ms. Whelan. I think we have broader goals, but there are 
elements--there are individual elements and objectives that try 
to achieve our broader goals. Our operations in Somalia have 
been quite limited in the scheme of things. In the last year, 
5--about half of our top 10 individuals have been either 
captured or are dead.
    Most of that has been through the support of our partners 
in the region. And so, our efforts in the region are really not 
necessarily focused on U.S. military action, per se, although 
there are some very limited circumstances in which we have 
found it necessary to take action ourselves.
    But, for the most part, our efforts in the region have been 
coordinated with and supported by and, in some cases, the 
counterterrorism campaign has been directly executed by our 
partners in the region who share our goals to eliminate global 
extremism.
    Senator Feingold. Ms. Whelan, only about one dozen sub-
Saharan African countries receive foreign military financing. 
And the total amount requested for bilateral military 
assistance to these countries has fallen significantly in 
recent years.
    However, the administration's fiscal year 2009 request 
includes the seven-fold increase in EMF money for Ethiopia. Why 
are you asking for such a large increase? I am very concerned 
by the fact that we've received reports from a range of sources 
citing serious human rights abuses committed by Ethiopian 
security forces, particularly in the Ogaden region of Ethiopia, 
even though the Ethiopian Government certainly has legitimate 
security concerns in that part of the country.
    What steps has the administration taken to investigate 
these reports, and convey to the Ethiopian military and 
political leadership that such misconduct is not acceptable? 
And what steps have the Ethiopians themselves taken to 
investigate these reports?
    Ms. Whelan. Thank you, Senator. With regard to overall FMF 
numbers for Africa, certainly we hope that in the future that 
FMF numbers will increase, in that FMF is critical to capacity-
building, long-term capacity-building. It is through such long-
term capacity-building that we see positive change in not only 
the capability of African militaries, but also their 
professionalism and their behavior in difficult and challenging 
combat situations.
    We have seen, for example, our capacity-building training 
with Nigeria, some years ago, in preparation for their 
deployment to Sierra Leone to support the U.N. And Sierra Leone 
resulted in the Nigerian battalions that deployed to Sierra 
Leone performing in a much better way than previously untrained 
battalions. So capacity building is critical to ensuring 
professional militaries on the continent.
    With regard to the Ethiopian request, the Ethiopian 
Government has been a strong supporter of the United States. We 
have strong military relations with the United States. And, as 
I mentioned in my statement, the Ethiopian military is a 
200,000-man military. It is a military that the intention of 
the Ethiopians has been to transform that military into a much 
more professional force.
    This is the force that Ethiopia's inherited, essentially, 
from its years of conflict against the Dergue. And, subsequent 
to that, instead of having the opportunity to restructure and 
reform the military, the Ethiopians found themselves in a 
border conflict with Eritrea. And, since then, of course, there 
have been numerous other issues in the Horn.
    So the Ethiopians have not necessarily had the time to 
focus on the reforming and professionalization.
    Senator Feingold. Well, what are we doing to investigate 
these reports of human rights abuses by the Ethiopian forces?
    Ms. Whelan. I have met with both Human Rights Watch and 
Amnesty International, and we have encouraged them to provide 
us in the Defense Department with as much specificity as 
possible with regard to allegations of Ethiopian forces 
committing human rights violations in their operations in the 
Ogaden.
    I think--and we are waiting for both of those organizations 
to get back to us with that specificity. General accusations 
are not helpful. Specific accusations can be helpful. We 
believe that the Ethiopian military understands just as much as 
we do that a successful counterinsurgency campaign requires 
taking into account the local populous, and not turning the 
local populous into your enemy.
    Senator Feingold. Well, I would urge you, and the 
Department, and the administration, and Ethiopia, with all 
respect, to make this a high priority. It's very important on 
the merits, and also for credibility.
    Well, this has been a very long panel, and I appreciate 
your patience. Thanks so much. I'd ask the next panel to come 
forward.
    All right, we will begin the second panel. Ms. Fredriksson, 
please proceed with your testimony.

 STATEMENT OF LYNN FREDRIKSSON, ADVOCACY DIRECTOR FOR AFRICA, 
           AMNESTY INTERNATIONAL USA, WASHINGTON, DC

    Ms. Fredriksson. I would like to thank you, Mr. Chairman, 
and distinguished members of the committee, for this important 
opportunity for Amnesty International to share our concerns 
about violations of human rights and international humanitarian 
law in Somalia, Ethiopia, and Eritrea, and the need for a 
consistent recentering of human rights in U.S. foreign policy 
on the Horn of Africa.
    Amnesty International is deeply concerned by widespread 
egregious human rights violations being perpetrated against 
civilians throughout the Horn. Ending current violations and 
preventing future violations in these three countries is 
perhaps one of the greatest challenges of our time, requiring 
immediate action and long-term planning, attention to domestic 
conditions within the context of a regional perspective.
    Each set of country concerns must be considered 
independently, as with Ethiopian Government repression of its 
domestic opposition, journalists and human rights defenders, 
and the humanitarian crisis in the Somali region.
    In Eritrea, an authoritarian government maintains a 
stranglehold on freedom of expression, freedom of religion, and 
press freedom, while detaining thousands of dissidents, many in 
the harshest conditions.
    In Somalia, a transitional government without popular 
mandate has not only failed to protect over 1 million displaced 
civilians, but has failed to hold its own troops accountable 
for violations against them. Compounding these challenges is 
the intervention of Ethiopian forces in Somalia, and recent 
threats of renewed conflict between Ethiopia and Eritrea along 
their disputed border. Further compounding these challenges is 
what I consider a flawed--what Amnesty considers a flawed U.S. 
foreign policy, which has placed counterterror concerns at the 
forefront of U.S. involvement in the region, often at the 
expense of human rights and humanitarian concerns.
    In large part, because of the capable and resilient civil 
society throughout the region, despite these conditions, the 
situation is far from hopeless. But the United States, the 
International Contact Group, regional donors, and the U.N. 
Security Council, and the U.N. Human Rights Council, as well as 
other international organizations cannot simply maintain their 
current priorities and refuse to shift course.
    Crucial to this course shift is a recentering of 
humanitarian and human rights in U.S. foreign policy. On 
Ethiopia, that means more consistent and more public 
denunciations of ongoing restrictions on civil society and the 
private media, demands for the release of remaining prisoners 
of conscience, and the requirement of a demonstrated opening of 
commercial and humanitarian access to the Somali region.
    Eritrea represents a different type of situation. The U.S. 
administration should seriously reconsider any plans it might 
have to add Eritrean opposition groups to the United States 
list of foreign terrorist organizations, or to add an already 
isolated regime to the United States list of state sponsors of 
terrorism, but should consider opportunities to provide 
essential humanitarian assistance.
    The international community must also decide where it 
stands on the Border Commission ruling, thereby denying 
Ethiopia the ability to continue to flout its findings, and 
Eritrea the excuse to interfere with UNMEE. On Somalia, if the 
United States intends to alleviate, not worsen, the anti-
American sentiment on the Horn, it must first and foremost 
cease all land and air assaults intended to ``take out'' 
presumed al-Qaeda or other terrorist operatives.
    Since early 2007, four such assaults have been launched in 
Somalia, leading to civilian casualties, destruction of 
civilian property and livelihood, and the widespread belief 
that the United States protects the TFG and backs the Ethiopian 
forces, without genuine concern for civilians.
    In addition, the United States Government must exert 
significantly more pressure on the governments of Ethiopia and 
Somalia to prevent human rights abuses and ensure 
accountability for the conduct of their armed forces.
    Additional specific recommendations from Amnesty are 
included in an extensive written testimony, which I ask to be 
included in the record.
    Senator Feingold. Without objection.
    Ms. Fredriksson. I will use my remaining time to just 
briefly outline a few of the most disturbing aspects----Senator 
Feingold. I would ask you to conclude within a minute or two.
    Ms. Fredriksson. OK, I will do that. I want to mention 
simply a few of the most egregious violations in Somalia, 
Eritrea, and Ethiopia.
    In Somalia, witnesses describe disproportionate military 
responses by Ethiopian forces after opposition groups launch 
attacks against them, most often using small improvised 
explosive devices. These forms of human rights abuses include 
rape and unlawful killing referred to by Somalis locally as 
``slaughtering like goats.'' And we have collected scores of 
testimonies regarding men whose throats were slit and left in 
the street. Displaced civilians are also facing abuses on the 
road, and they are facing abuses within the IDP settlements and 
camps.
    I just also want to mention that the contrast between 
Somaliland, Hargeisa, and Mogadishu is striking. I don't want 
to admit that from the testimony, but the longer testimony 
includes further information.
    On Ethiopia, I want to skip from our concerns regarding 
ongoing incarceration of prisoners of conscience to the Ogaden 
region, where the Government of Ethiopia, initially in response 
to attacks by the ONLF, has maintained a blockade of commercial 
aid and trade, and that has had a devastating impact on 
conflict-affected areas in the region. And, in addition to 
that, we have not seen the type of human rights access that is 
necessary to actually understand whether or not progress has 
been made, as the first panel indicated it might have been.
    In terms of Eritrea, the situation is simply that one would 
be hard-pressed to find a country in sub-Saharan Africa in 
which United States foreign policy has had less impact. The 
government maintains a stranglehold on basic human rights and 
perceived protection against threats to the President's rule. 
Eritrea's human rights record remains abysmal, including 
persecution for religious beliefs, arbitrary detention, and 
cruel and unusual punishment.
    I'd like to just conclude by saying that the dearth of 
consideration of serious human rights and humanitarian concerns 
throughout the Horn of Africa by United States policymakers has 
dire consequences. As described, these violations in all three 
countries are not improving, as indicated by some on the first 
panel. It is time for a shift in policy that puts civilians, 
and particularly vulnerable civilians, at the center of our 
foreign policy.
    We have welcomed the opportunity to present longer 
recommendations in our written testimony. Thank you.


    [The prepared statement of Ms. Fredriksson follows:]


 Prepared Statement of Lynn Fredriksson, Advocacy Director for Africa, 
               Amnesty International USA, Washington, DC

    I would like to thank Chairman Feingold and distinguished members 
of the subcommittee for this important opportunity for Amnesty 
International to share our concerns about violations of human rights 
and international humanitarian law in Somalia, Ethiopia, and Eritrea, 
and the need for a consistent recentering of human rights in U.S. 
foreign policy on the Horn of Africa.

                              INTRODUCTION

    Amnesty International is deeply concerned by widespread egregious 
human rights violations being perpetrated against civilians throughout 
the Horn of Africa. Ending current violations and preventing future 
violations in Somalia, Ethiopia, and Eritrea is perhaps one of the 
greatest challenges of our time, requiring immediate action and long-
term planning, attention to domestic conditions within the context of a 
regional perspective. Each set of country concerns must be considered 
independently--as with Ethiopian Government repression of its domestic 
opposition, journalists and human rights defenders, and the 
humanitarian crisis in the Somali region (known as the Ogaden). In 
Eritrea an authoritarian government maintains a stranglehold on freedom 
of expression, freedom of religion, and press freedom, while detaining 
thousands of dissidents, many in the harshest conditions. In Somalia a 
transitional government without popular mandate has not only failed to 
protect over 1 million displaced civilians, but has failed to hold its 
own troops accountable for violations against them. Compounding these 
challenges is the intervention of Ethiopian forces in Somalia, and 
recent threats of renewed conflict between Ethiopia and Eritrea along 
their disputed border. Further compounding these challenges is a flawed 
U.S. foreign policy which has placed short-sighted counterterror 
concerns at the forefront of U.S. involvement in the region, while 
human rights and humanitarian concerns are routinely pushed aside.
    In large part because of capable and resilient civil society 
throughout the region, despite these conditions, the situation is far 
from hopeless. But the United States and the International Contact 
Group, regional donors, and the U.N. Security Council, the U.N. Human 
Rights Council, and other international organizations cannot simply 
maintain their current priorities and refuse to shift course. Crucial 
to this course shift is the recentering of humanitarian and human 
rights in U.S. foreign policy. On Ethiopia, that means more consistent 
and more public denunciations of ongoing restrictions on civil society 
and the private media, demands for the release of remaining prisoners 
of conscience, and the requirement of a demonstrated opening of 
commercial and humanitarian access to the Somali region. Eritrea 
represents a different type of situation which requires a reversal in 
current policy. The U.S. administration should seriously consider any 
plans it might have to add Eritrean opposition groups to the U.S. list 
of foreign terrorist organizations or to add an already isolated regime 
to the U.S. list of state sponsors of terrorism, but should consider 
opportunities to provide essential humanitarian aid. The international 
community must also decide where it stands on the Boundary Commission 
Ruling, denying Ethiopia the ability to continue to flout its findings, 
and Eritrea an excuse to interfere with UNMEE. On Somalia, if the 
United States intends to alleviate, not worsen, anti-American sentiment 
on the Horn, it must first and foremost cease all land and air assaults 
intended to ``take out'' presumed al-Qaeda or other terrorist 
operatives. Since early 2007 four such assaults have been launched in 
Somalia, leading to civilian casualties, destruction of civilian 
property and livelihood, and the widespread belief that the U.S. 
protects the Somali Transitional Federal Government (TFG) and backs up 
Ethiopian forces, without genuine concern for civilians. In addition, 
the U.S. Government must exert significantly more pressure on the 
governments of Ethiopia and Somalia to prevent human rights abuses and 
ensure accountability for the conduct of their armed forces.
    I will note additional specific recommendations from Amnesty 
International after outlining a few of the most disturbing aspects of 
recent findings. This information was obtained on a November/December 
2007 mission to Nairobi, Kenya, and Hargeisa, Somaliland to meet with 
international actors and interview refugees from southern and central 
Somalia, as well as recent reporting on the state of human rights in 
Ethiopia and Eritrea. A short report on the targeting of journalists in 
Somalia, entitled ``Journalists under Attack,'' is already available, 
and a full report on our findings on Somalia, entitled ``Who Will 
Protect Human Rights in Somalia,'' will be made available in the coming 
weeks.

        RECENT FINDINGS ON HUMAN RIGHTS VIOLATIONS IN SOMALIA: 
                 ABUSES BY ALL PARTIES TO THE CONFLICT

    Amnesty International has documented ongoing human rights abuses 
and violations of international humanitarian law by all parties to the 
conflict in Somalia, including unlawful killings, rape, arbitrary 
detention, and attacks on civilians and civilian property. Some 6,000 
civilians are estimated to have been killed in Mogadishu and across 
southern and central Somalia in 2007. Over 600,000 are reported to have 
been displaced in 2007, and a further 50,000 so far this year, joining 
some 400,000 already displaced from previous periods, for a total of 
over 1 million internally displaced persons in southern and central 
Somalia today. In addition, an estimated 335,000 refugees fled Somalia 
in 2007, seeking safety in other countries. On February 14, 2008, 
UNICEF announced that some 90,000 children could die in the next few 
months if the international community doesn't increase funding for 
nutrition, water and sanitation programs in Somalia.
    Our findings from November and December included testimony and 
other information reporting frequent incidents of rape and pillaging by 
the TFG, a recent surge in violent abuses by Ethiopian Armed Forces in 
Somalia, and the targeting of Somali journalists and human rights 
defenders by all parties to the conflict. House-to-house searches and 
raids in neighborhoods around Mogadishu were carried out by both TFG 
and Ethiopian forces, as were violent abuses against individuals and 
groups on the streets.
    ``Armed groups'' in Somalia constitute a range of nonstate 
combatants fighting the TFG, including remnants of the Islamic Courts 
Union, supporters of the Alliance for the Re-Liberation of Somalia, and 
Shabab youth militia. Subclan and other local political leaders have 
also acted outside of the law, as have bandits and clan militia 
conducting raids, robberies, and violent attacks on civilians. While 
the command structures within these entities are opaque, and nonstate 
armed groups and criminal elements are more difficult to identify by 
dress, vehicle, or appearance, some leaders have made themselves known 
and should be held responsible for the conduct of their forces.
    Those fleeing armed violence in Mogadishu have faced violence on 
the roads north toward Puntland and west toward Afgooye and Baidoa, 
including theft, rape, and shootings. Once they arrive at displacement 
settlements and camps, IDPs and refugees have faced further violence, 
and a lack of access to essential services, including clean water, 
medical care, and adequate food supplies. Humanitarian operations 
attempting to deliver these services have frequently been impeded by 
the TFG and other parties to the conflict and armed criminal groups, as 
well as overall high levels of insecurity throughout Somalia.

Violations of Human Rights and International Humanitarian Law by TFG 
        and Ethiopian Forces
    From testimonies we have collected, Amnesty International has 
concluded that until mid to late 2007 TFG forces are believed to be 
responsible for the majority of incidents of theft, looting, beatings 
and rape in and around Mogadishu. For example, one eyewitness reported 
seeing TFG soldiers seizing mobile phones from Somalis outside of a 
mosque as men were leaving Friday prayers. Somali civilians reported 
that they were more afraid of TFG forces than Ethiopians. This 
situation shifted in late 2007 with growing reports of increased 
incidents of theft, looting, beatings and rape, as well as unlawful 
killings, by Ethiopian forces.
    This shift followed fighting in early November 2007 when several 
Ethiopian soldiers' bodies were dragged through the streets, recalling 
images of Somali gunmen dragging the bodies of American marines through 
the streets of Mogadishu after clan militia downed two Black Hawk 
helicopters in 1993. The shift also followed reported deployments of 
new Ethiopian troops to Somalia as more seasoned veterans were reported 
to have been transferred to Ethiopia's border with Eritrea when threats 
of renewed conflict along the border intensified in November.
    In some instances involving rape and killing, the Somali Government 
and Ethiopian forces have targeted individuals and small groups of 
civilians. In other cases they have targeted entire neighborhoods in 
disproportionate response to smaller scale attacks by armed opponents, 
sometimes decimating or emptying entire areas, and often resulting in 
injuries and unlawful killings of civilians.
    Somali refugees in Nairobi and Hargeisa described incidents of 
attacks on their homes and in the streets. In some cases TFG and 
Ethiopians forces were searching for named individuals believed to have 
collaborated with armed groups, and in several such cases, they beat, 
arrested, or killed someone other than the person they were looking 
for. TFG and Ethiopian forces would also ``sweep'' entire streets, 
moving door to door in areas believed to be insurgent strongholds.
    Witnesses described military responses by Ethiopian forces after 
opposition armed groups launched attacks against them, most often using 
small improvised explosive devices. Among the most commonly reported 
abuses were gang rape, mass rape, and a form of unlawful killing 
referred to by Somalis we interviewed as ``slaughtering like goats,'' 
which refers to the slitting of throats. AI collected scores of 
testimonies regarding incidents where bodies of men whose throats had 
been slit were left lying in pools of blood on the street until 
combatants, including snipers, had cleared the area.
    Somali refugees noted specific characteristics, including uniforms, 
by which they identified their attackers as Ethiopian. They often 
referred to Ethiopian soldiers by language as ``Amharic,'' describing 
situations in which they said they pleaded for their families and their 
own lives but could not make themselves understood.

Violations by Antigovernment Armed Groups
    Many survivors of violence in Mogadishu reported that ``militias'' 
are not visible, but known to launch small scale attacks to which the 
TFG and Ethiopian military respond with heavy artillery fire. There was 
a clear reluctance among many displaced Somalis to provide information 
about abuses by armed groups, presumably out of fear of retribution. 
Many were aware of rocket fire, shelling, or gunfire they assumed came 
from armed groups, but said they never saw the attackers. Others 
received threats from armed groups by telephone, text message, or 
letter delivered by a third party.

Targeting Journalists and Human Rights Defenders
    Journalists and human rights defenders have been specifically 
targeted for their professional activities in exposing human rights 
violations by multiple parties to the conflict. Amnesty International 
spoke with scores of journalists among many who fled Somalia in the 
last few months of 2007 when attacks against them increased. While 
international journalists and human rights organizations have been able 
to document some violations of human rights and international 
humanitarian law, we can assume that the majority of violations are not 
being documented, given restrictions on, and closures of, independent 
media by the TFG, and the general silencing of journalists and human 
rights defenders reporting on military operations by TFG and Ethiopian 
forces and antigovernment armed groups.
    Some reporters and other media workers reported staying for days, 
sometimes weeks, in their offices because of general insecurity, 
specific threats, and fear of TFG forces. At other times they were 
unable to reach their offices for fear of violence by all parties to 
the conflict. Journalists reported arbitrary detentions by TFG and 
Ethiopian forces, lasting from a couple of hours to 11 days.
    Since the intensive fighting in March-April 2007, local human 
rights organizations active in Mogadishu have also been largely 
silenced. One local women's organization was raided by TFG soldiers who 
asked, ``Are you the ones giving us a bad name?''

Attacks on Civilian-Populated Neighborhoods
    Shelling and mortar fire have destroyed buildings and other 
civilian infrastructure, resulted in deaths and injuries of civilians, 
and often emptied entire neighborhoods, as residents fled for safety. 
In early December 2007, five Mogadishu districts were reported 
``completely empty'' by humanitarian organizations providing emergency 
assistance in IDP settlements in Somalia.
    All parties to the conflict are reported to have carried out 
attacks on civilian-populated areas, but TFG and Ethiopian artillery is 
generally capable of causing much heavier damage, while armed groups 
with less military support resort to small mortar fire and improvised 
explosive devises. At times TFG and Ethiopian strikes were reported to 
have targeted civilian-populated areas after armed group attacks had 
been launched from specific locations within those areas. A number of 
refugees told Amnesty International that they had left their homes (to 
collect water, food, or other necessities) and when they returned their 
houses were simply gone, destroyed by rocket-propelled grenades or 
mortar fire.
    Under international humanitarian law, civilians are unlawful 
targets for attack, unless they take a direct part in the hostilities. 
Amnesty International is not in a position to determine whether each of 
the intended targets in the incidents reported meet these criteria, but 
care was clearly not taken to avoid civilian casualties in most if not 
all of these cases.

Attacks on Civilians on the Road
    Displaced civilians from southern and central Somalia frequently 
reported being attacked on the road from Mogadishu to several 
destinations to the north and the southwest as they sought safety. 
Unidentified robbers stole money, food, and other possessions. IDPs 
were attacked or forced to pay fees at multiple check points and road 
blocks. One of the most dangerous areas reported was between Jowhar and 
Beletweyne on the route to Somaliland.
    The number of reported attacks on displaced Somalis on the road 
fleeing Mogadishu rose in late 2007, as did the level of brutality 
exhibited by perpetrators, most notably in cases of rape and other 
forms of sexual violence, as well as shootings, beatings, and 
``disappearance.'' AL received reports of violations against IDPs on 
the road in Somalia committed by Ethiopian and TFG troops, 
antigovernment armed groups, clan gangs, and common bandits. At times 
perpetrators would cover their faces to mask their identity, but often 
survivors believed they could still identify them by language or 
appearance. While in September 2007, some drivers were able to travel 
though certain areas by virtue of their clan affiliation, this changed 
in late 2007 when clan affiliation no longer offered any assurance of 
favoritism in an attack. IDPs were increasingly targeted even in cases 
where they shared clan affiliations with their attackers.

Conditions for Somali Refugees
    Despite the Government of Kenya's closure of its border with 
Somalia since January 2007, a significant number of Somali refugees 
have managed to find refuge in Kenya. Kenya's border closure has served 
particularly to keep the most vulnerable from reaching safety. 
Individual Somali men can now reach Kenya much more easily than women 
and children, so families are being separated, with women and children 
stranded in overcrowded IDP settlements in southern and central 
Somalia. While some Somali refugees in Nairobi have been receiving 
basic assistance from local NGOs, others are completely dependent on 
the good will of clans and neighbors for food and shelter.
    In Hargeisa, there are approximately six major displacement 
settlements. While the Government of Somaliland does not officially 
accept displaced persons from southern Somalia, it has allowed 
thousands or more to find refuge on its territory, particularly in 
Hargeisa.
    The U.N. reports there are now over 1 million IDPs in southern and 
central Somalia. Yet, as one source told us, ``Everyone is in denial--
denial of the scope of the problem. We say there are 600,000 newly 
displaced from Mogadishu and we're accused of distorting reality. The 
mention of [numbers] starts everyone shouting.''
    Risks were grave for humanitarian organizations in Somalia in 2007. 
Every day humanitarian workers face checkpoints, extortion, car 
jacking, a lack of acceptance of the impartial nature of assistance, 
and lack of authority and command structure among local security 
officials. The provision of humanitarian assistance is made difficult 
by unacceptable bureaucratic impediments, restricted access, restricted 
movement and overall insecurity, but also by the contempt for 
humanitarian operations indicated in recent speeches by TFG 
authorities. In October TFG security arbitrarily detained the director 
of the World Food Program for nearly a week. Staff from CARE (in May), 
Medecins Sans Frontieres (in December) and a French reporter (in 
December) were abducted, and later released, in Puntland. MSF staff 
were also abducted in Puntland, and several were killed in Kismayo 
early this year.
    The situation has been so dire that humanitarian organizations made 
a rare public statement in October 2007, calling for urgent support for 
increased humanitarian space. Forty international aid organizations 
wrote: ``There is an unfolding humanitarian catastrophe in South 
Central Somalia . . . International and national NGOs cannot respond 
effectively to the crisis because access and security are deteriorating 
dramatically at a time when needs are increasing. The international 
community and all parties to the present conflict have a responsibility 
to protect civilians, to allow the delivery of aid and to respect 
humanitarian space and the safety of humanitarian workers.''

             SOMALILAND: A STRIKING CONTRAST WITH THE SOUTH

    It's important not to omit formal mention of self-declared 
independent Somaliland. While overall human rights and humanitarian 
conditions continue to worsen in southern and central Somalia, and more 
recently Puntland, a stable Somaliland has devoted attention to 
democratization, institutional capacity and development in its decade 
and a half long pursuit of international recognition for independence. 
The contrast between Hargeisa and Mogadishu is striking, and the 
international community should consider what the Government of 
Somaliland needs to maintain peace and stability, including bilateral 
assistance to ensure it has the capacity to institutionalize human 
rights protections. Somaliland is not without its own set of human 
rights concerns. Its border with Puntland is contested, with 
unfortunate outbreaks of fighting in late 2007, and it has not 
established a monopoly on power in its boundary regions of Sool and 
Sanaag. In 2007 it held a journalist and unrecognized fourth party 
opposition leaders in prison for several months after unfair trials. 
And the Government of Somaliland issued an expulsion order for 24 young 
southern Somali journalists seeking refuge in Hargeisa in late 2007. To 
its credit that order was never carried out, and the Government of 
Somaliland has also allowed itself to become the de facto refuge for 
thousands or more southern Somali displaced persons fleeing armed 
conflict in Mogadishu, despite a near-total lack of international 
assistance to meet their basic needs.

    HUMAN RIGHTS IN ETHIOPIA: POLITICAL RIGHTS, THE SOMALI REGION, 
                        AND THE ERITREAN BORDER

    In early 2005, leading up to the May 15 elections, Ethiopia 
appeared to be turning a corner with respect to international human 
rights. The Government of Ethiopia was allowing some--albeit limited--
international press access and space for political opposition rallies 
in Addis Ababa. Yet since the disputed 2005 elections, plagued by 
accusations of electoral fraud and mass protest demonstrations, 
political repression greatly increased. As reported by Amnesty 
International, Human Rights Watch, and the U.S. Department of State, 
these violations have included mass arbitrary arrests and detentions, 
torture, extrajudicial killings, repression of ethnic minorities, 
intimidation of students and teachers, suppression of press freedom, 
and the less reported practice of targeting peaceful political 
opposition in the countryside. In several days of demonstrations in 
June and November 2005, government security forces shot and killed 187 
people and wounded 765, including 99 women and several children. Six 
police officers were also killed in clashes with demonstrators.
    In its most recent Country Report for Ethiopia, the U.S. Department 
of State's Bureau of Democracy, Human Rights, and labor reported human 
rights abuses including: Uunlawful killings, and beating, abuse, and 
mistreatment of detainees and opposition supporters by security forces; 
poor prison conditions; arbitrary arrest and detention; restrictions on 
freedom of the press; restrictions on freedom of assembly and 
association; and discrimination against religious and ethnic 
minorities.

Prisoners of Conscience and Coalition for Unity and Democracy (CUD) 
        Trials
    While allowed very limited access to observe the trials in Addis 
Ababa, Amnesty International has nevertheless closely monitored their 
progress as a means to gauge overall human rights conditions for 
journalists, Coalition for Unity and Democracy (CUD) opposition 
leaders, and human rights defenders in Ethiopia.
    Defendants have been held in different sections of Kaliti prison on 
the outskirts of Addis Ababa. Conditions in the worst sections have 
been harsh, with severe overcrowding, inadequate sanitation, and poor 
hygiene. Correspondence has often been prohibited, and private 
consultation with lawyers not allowed.
    Amnesty International has consistently called for the immediate and 
unconditional release of those defendants whom it classified as 
prisoners of conscience, because they did not use or advocate violence 
but were peacefully exercising their right to freedom of expression, 
association and assembly, as guaranteed by the Ethiopian Constitution 
and international human rights treaties which Ethiopia has ratified. 
Several trials of CUD leaders, journalists, and human rights defenders 
began in spring 2006, with the prosecution resting its case in April 
2007. More than 30 defendants were acquitted. In June 38 others, 
including human rights leader Mesfin Woldemariam and parliamentarian 
Kifle Tigneh, were convicted and sentenced to life, but they were 
pardoned and released in July, after a Presidential pardon was 
negotiated by Ethiopian elders and other parties.
    Two civil society activists and human rights lawyers, Daniel 
Bekele, policy manager of the Ethiopian office of ActionAid, and 
Netsanet Demissie, founder and director of the Organization for Social 
Justice, who refused to sign documents requesting pardon, were 
convicted in a trial which failed to meet international standards of 
justice, and sentenced to 2 years and 8 months. Their convictions were 
based on evidence that did not prove beyond reasonable doubt that they 
committed a crime under Ethiopian law. While their release, after time 
served, was expected in early January they are still in prison. 
Yalemzawde Bekele, a human rights lawyer working for the European 
Commission, was charged in July 2007 with conspiring to commit outrage 
against the constitution, but granted bail pending trial in late March 
2008.
    Over 17,000 prisoners, mostly convicted criminals, were released in 
September 2007, by Presidential amnesty upon the occasion of the 
Ethiopian millennium new year, while hundreds more CUD members detained 
in 2005 are still being held without trial.
    Separate from the CUD trials, a parliamentary inquiry was 
established in December 2005 to investigate the demonstration killings. 
This body initially concluded that Ethiopian security forces had used 
excessive force. However, the Chair and other members of the inquiry 
commission were later forced to flee the country, after receiving 
threats that they must alter their findings. The remaining members of 
the commission subsequently endorsed a report accepted by the 
Parliament in October 2006 that the actions of the security forces had 
been ``legal and necessary.'' No member of the security forces has 
since been arrested or charged with any offense in connection with the 
demonstration violence.

Ethiopia's Border Dispute With Eritrea
    Despite the Government of Ethiopia's stated acceptance, the 
international boundary commission ruling in 2002, following the 1998-
2000 border war between Ethiopia and Eritrea, it has resisted the 
implementation of this ruling and called for further negotiations. Not 
surprising, Eritrea has refused to allow the commission's ruling to be 
reexamined and demanded international enforcement instead. The ICB was 
dissolved in November without any further progress toward formal 
demarcation. The potential for mass abuses of human rights and 
international humanitarian law in the event of renewed combat along the 
border is grave, with new deployments by both sides in late 2007. 
Instability and threats of violence have already had dire effects on 
the livelihood, health, and right to movement of local populations. 
Though the mandate for the U.N. Mission in Ethiopia and Eritrea (UNMEE) 
was renewed in December 2007, Eritrea has created such severe obstacles 
to its function that U.N. Secretary General Ban Ki-Moon is temporarily 
disbanding UNMEE pending further UNSC consideration.

Ethiopian Blockade in the Somali Region (the Ogaden)
    The Government of Ethiopia, initially in response to attacks by the 
Ogaden National Liberation Front (ONLF) on an oil installation in Obole 
in April 2007, which reportedly killed 65 Ethiopian and six Chinese oil 
workers, stepped up counterinsurgency operations in the Somali region, 
including a blockade of aid and commercial trade that has had 
devastating impact on conflict-affected districts of the region, 
including food shortages. It has also further injured Ethiopia's 
overall relationship with the people of Somalia.
    Amnesty International has received reports of mass arrests, lengthy 
detentions without trial, beatings, rape and other forms of torture, 
forcible conscription and extrajudicial executions of alleged ONLF 
supporters by Ethiopian forces. And the ONLF has reportedly 
assassinated some civilian officials.
    A U.N. fact-finding mission in August 2007 reported on the 
humanitarian crisis, but a subsequent mission to assess human rights 
conditions in the Somali region has not yet materialized. In addition, 
Sultan Fowsi Mohamed Ali, a clan elder and mediator, was detained in 
August, reportedly to prevent him from speaking with members of the 
U.N. fact-finding mission, and he is still being detained without 
trial. Amnesty International considers him to be a prisoner of 
conscience.
    While some reports indicate a partial lessening of abuses in the 
region, most particularly a partial lifting of Ethiopia's blockade, 
there is no way to assess this information without full access for 
human rights monitors throughout the Somali region.
Armed Ethiopian Intervention in Somalia
    Please see related human rights concerns about Ethiopian violations 
of human rights and international humanitarian law addressed under 
Somalia above.

Renditions and Forcible Returns
    In January and February 2007 Ethiopian forces in Somalia rendered 
at least 85 political prisoners to Ethiopia. Most had been arrested in 
Kenya when Kenya closed its border to people fleeing Somalia. Foreign 
nationals from some 14 countries were released after some months and 
sent back to their countries of origin. In May the Ethiopian 
authorities acknowledged holding 41 detainees in military custody, but 
authorities have still not released their charges or their whereabouts. 
These detainees included Somalis who are Kenyan citizens, two 
conscripted Eritrean journalists, and alleged members of armed 
Ethiopian opposition groups. Detainees from Kenya and Somalia were 
reported to have been tortured or ill-treated in secret military places 
of detention in Addis Ababa.
    Fifteen refugees forcibly returned to Ethiopia by Sudan in August 
2007 were detained in Ethiopia, and five people from the Somali region 
were forcibly returned to Ethiopia by Somaliland in October 2007 and 
their whereabouts are unknown.

       HUMAN RIGHTS IN ERITREA: FREEDOM OF EXPRESSION, POLITICAL 
                  PRISONERS, AND MILITARY CONSCRIPTION

    One would be hard pressed to find a country in sub-Saharan Africa 
in which U.S. foreign policy currently has less impact than Eritrea, 
where the regime of President Issayas Afewerki maintains a stranglehold 
on basic human rights in perceived protection against multiple threats, 
domestic and regional, to his rule. International relations for Eritrea 
have not been improving--from the Government of Eritrea's conduct 
toward UNMEE to its support for Ethiopian and Somali opposition groups. 
And its human rights record remains abysmal, including persecution of 
Eritreans for their religious beliefs, arbitrary detention, cruel, 
inhuman, and degrading treatment of detainees, and forced conscription. 
The government, supported by remittances from the Eritrean diaspora, 
maintains its bellicosity on the Horn and its international isolation, 
with the ready excuse of the unenforced border commission ruling, and 
in retaliation for years of neglect by an international community 
biased against independence claims. No independent or private news 
outlets have been allowed since 2001, and university education is no 
longer available in Eritrea.

Political Prisoners
    There is no tolerance for dissent in Eritrea, evidenced by frequent 
arrests of suspected government critics, the absence of any authorized 
forums for assembly and association, and government violations of 
telephone and Internet privacy. Since authorities have taken reprisals 
against detainees' families if they made inquiries or communicated with 
international human rights organizations, it is very difficult to 
obtain information on their cases.
    In addition to religious detainees (mostly evangelical Christians), 
11 former government ministers, and Eritrean liberation veterans, who 
called for democratic reform and were charged with treason, remain in 
secret detention since 2001. They have not been seen by their families 
since their arrest in 2001. Ten journalists, determined to be prisoners 
of conscience, have been held in incommunicado detention since 2001 for 
supporting the detained government ministers. Journalist and educator 
Fessahaye ``Joshua'' Yohannes is reported to have died in detention, as 
have certain of the former government leaders. Aster Yohannes, arrested 
in 2003 when she returned from the United States to see her children, 
also remains in incommunicado detention, as does her husband, who was 
detained in 2001. Thousands of other political detainees have been held 
incommunicado for years.
    Prison conditions are extremely harsh and constitute cruel, 
inhuman, and degrading treatment. Many prisoners are held in 
overcrowded shipping containers, with no protection against extremes of 
heat and cold. Torture by means of painful tying, known as 
``helicopter,'' is routinely employed as punishment and a method of 
interrogation for religious and political prisoners. Evangelicals have 
been tortured to make them abandon their faith.

Freedom of Religion
    Some 2,000 members of minority religions arrested since their 
faiths were banned in 2002, including women and children, have been 
held in incommunicado detention without charge or trial. Some members 
of authorized religions (including the Eritrean Orthodox Church, the 
Roman Catholic Church, the Lutheran Church and Islam) were also 
detained. Government officials closed churches and seized church 
property. In one notable example, Patriarch Antonios, head of the 
Eritrean Orthodox Church, aged 79 and in poor health due to diabetes, 
was placed in secret detention and deposed in May 2007 after having 
been under house arrest since January 2006, for protesting the 
detention of three priests and the government's intervention in church 
affairs.

Conscription
    National military service has been compulsory for all citizens aged 
18-40, with women over 27 informally exempted. Relatives of young 
people who eluded conscription, by hiding in Eritrea or leaving the 
country, are detained and forced to pay heavy fines. They remain in 
indefinite detention if they can't pay the fine. Legal challenges to 
this system are not allowed. Thousands of young people facing 
conscription and conscripts have fled the country seeking asylum. 
Conscientious objection is not recognized, and three Jehovah's 
Witnesses have been detained by the military since 1994.

Forced Returns
    Despite guidelines from the Office of the U.N. High Commissioner 
for Refugees, that rejected Eritrean asylum seekers should not be 
returned to Eritrea on account of its serious human rights situation, 
several recognized refugees were returned by Sudan and detained by 
Eritrea in late 2007. One asylum seeker from the United Kingdom was 
also forcibly returned and detained. Hundreds of detained Eritrean 
asylum seekers in Libya remain at risk of forced return. Asylum seekers 
forcibly returned from Malta in 2002 and from Libya in 2003 remain in 
incommunicado detention. Recent threats to add Eritrean Liberation 
Front (ELF) groups to the U.S. list of foreign terrorist organizations 
will only serve to harm refugees seeking asylum based on serious human 
rights concerns, where previously affiliations with these groups 
constituted reason for consideration of asylum.

         CONCLUSION AND RECOMMENDATIONS: A HUMAN-RIGHTS-BASED 
                  APPROACH TO U.S. POLICY ON THE HORN

    There has been a dearth of consideration for serious human rights 
and humanitarian concerns throughout the Horn of Africa by U.S. 
policymakers, with dire consequences. As described in this testimony, 
trends indicate that violations of human rights and international 
humanitarian law in Somalia, Ethiopia, and Eritrea are worsening, not 
improving. It is now time for a shift in approach--to make the 
immediate protection of vulnerable civilians central to an effective 
U.S. foreign policy on the Horn. This means holding individual 
governments accountable for protecting the rights of civilians and 
controlling the conduct of their armed forces. It also means taking a 
step back to gain a regional perspective on interlocking crises on the 
Ethiopia-Eritrea border, in southern and central Somalia, and in the 
Somali region of Ethiopia. Toward these ends, Amnesty International is 
grateful for the opportunity to offer the following recommendations on 
how to recenter human rights in U.S. foreign policy on the Horn of 
Africa.

Foreign Policy Recommendations on Ethiopia
  <bullet> The U.S. Government must make human rights central to U.S. 
        relations with the Government of Ethiopia and Ethiopian civil 
        society.
  <bullet> The U.S. Ambassador to Ethiopia and other U.S. officials 
        should press the Government of Ethiopia to release all 
        prisoners of conscience immediately and unconditionally.
  <bullet> The U.S. Ambassador to Ethiopia and other U.S. officials 
        should actively monitor all political trials and visit 
        political detainees in Addis Ababa and other places in 
        Ethiopia, insist that trials and prison conditions adhere to 
        international standards, and actively monitor the treatment of 
        all prisoners of conscience and political detainees.
  <bullet> U.S. Government officials, including the U.S. Ambassador to 
        Ethiopia, must ensure that steps are taken by the Government of 
        Ethiopia to fully remove all remaining obstacles to unhindered 
        humanitarian assistance and commercial trade in the Somali 
        region of Ethiopia.
  <bullet> U.S. Government officials must press the Government of 
        Ethiopia to do everything in its power to avoid armed conflict 
        with Eritrea.
  <bullet> The Appropriations Committees of the U.S. Senate and House 
        of Representatives should provide humanitarian assistance at 
        appropriate levels to meet the basic needs of the people of 
        Ethiopia.
  <bullet> The U.S. Congress should actively fund and support judicial 
        and security sector reform in Ethiopia.
  <bullet> In the spirit of current notification requirements for IMET 
        and FMF funding to Ethiopia, the Appropriations Committees of 
        the U.S. Senate and House of Representatives should consider 
        withholding a portion of both programs' assistance until the 
        Secretary of State certifies that assistance under these 
        programs is not being used by Ethiopian security forces against 
        Ethiopian civilians, including students and political 
        opposition groups, with special attention to the Somali, 
        Oromia, and Gambella regions of Ethiopia.
  <bullet> The United States Government should establish investigations 
        to determine which units of the TFG and the Ethiopian Armed 
        Forces are responsible for mass human rights violations, and 
        military assistance should be conditioned for those units.
  <bullet> The U.S. Permanent Representative to the U.N. should call 
        for the establishment of a long-overdue U.N. fact-finding 
        mission on human rights conditions in the Somali region.

Foreign Policy Recommendations on Eritrea
  <bullet> The U.S. Government should make human rights central to U.S. 
        relations with the Government of Eritrea and Eritrean civil 
        society.
  <bullet> The U.S. Ambassador to Eritrea and other U.S. officials 
        should press the Government of Eritrea, directly and through 
        mutual bilateral partners, to release all prisoners of 
        conscience immediately and unconditionally.
  <bullet> The U.S. Ambassador to Eritrea and other U.S. officials 
        should actively monitor all political trials and visit 
        political detainees in Asmara and other places in Eritrea, 
        insist that trials and prison conditions adhere to 
        international standards, and actively monitor the treatment of 
        all prisoners of conscience and political detainees.
  <bullet> The U.S. Government must press the Government of Eritrea, 
        directly and through mutual bilateral partners, to do 
        everything in its power to avoid armed conflict with Ethiopia.
  <bullet> The Appropriations Committees of the U.S. Senate and House 
        of Representatives should provide humanitarian assistance at 
        appropriate levels to meet the basic needs of the people of 
        Eritrea, with special emphasis on the needs of displaced 
        persons along its borders.
  <bullet> The Appropriations Committees of the U.S. Senate and House 
        of Representatives should consider initial ESF funding to 
        support Eritrean diaspora projects in the United States, to 
        provide disenfranchised expatriate Eritreans with an effective 
        means to promote human rights and democracy in their home 
        country.

Foreign Policy Recommendations on Somalia
  <bullet> U.S. Government officials should strongly condemn human 
        rights abuses and violations of international humanitarian law 
        in all documents and statements pertaining to Somalia.
  <bullet> The United States and other countries to which Somali 
        refugees have fled persecution must ensure that they are 
        afforded protection, as required under international human 
        rights standards and international standards governing the 
        treatment of refugees.
  <bullet> U.N. agencies and bilateral partners, including the U.S. 
        Government, should fund and implement programs to provide 
        vulnerable groups, including women, young people, and 
        minorities, with education, employment, and training 
        opportunities, in addition to fully funding and staffing 
        emergency assistance programs throughout Somalia.
  <bullet> The U.S. Permanent Representative to the United Nations 
        should work within the U.N. Security Council to give the human 
        rights and humanitarian crisis
        in Somalia a higher profile, beyond the question of a 
        peacekeeping force, strengthen human rights components of 
        UNPOS, and ensure authorization of resources necessary to 
        support human rights assistance for Somalia through the Office 
        of the U.N. High Commissioner for Human Rights.
  <bullet> The U.S. Permanent Representative to the United Nations 
        should work within the UNSC to strengthen and enforce the U.N. 
        arms embargo.
  <bullet> Any U.S. military or police assistance to the TFG should 
        require a vetting process to ensure that violators of human 
        rights are not placed in positions of authority in Somalia.
  <bullet> The U.S. Congress should consider conditioning plans for 
        further security sector assistance to the TFG on the inclusion 
        of mechanisms to monitor the human rights performance of its 
        security forces and hold individual leaders, soldiers and units 
        responsible for violations of human rights and international 
        humanitarian law accountable for their actions, according to 
        international standards of justice.
  <bullet> The United States should establish investigations to 
        determine which forces of the TFG are responsible for 
        violations of human rights and international humanitarian law.
  <bullet> The U.S. Government and the international community are 
        strongly encouraged to fulfill all commitments made in UNSC 
        Resolution 1745 to fund and support full deployment of AMISOM, 
        as part of the process required to facilitate the withdrawal of 
        Ethiopian troops from Somalia, while acting to encourage AMISOM 
        to extend its operational mandate to include civilian 
        protection.
  <bullet> As national reconciliation efforts continue, diplomatic 
        initiatives must ensure that human rights and humanitarian 
        assistance are made central to the dialog among all political 
        actors and parties to the conflict in Somalia.

Foreign Policy Recommendations on Somaliland
  <bullet> The Appropriations Committees of the U.S. Senate and House 
        of Representatives should consider initial ESF and Development 
        Assistance to support democratization, elections, 
        institutionalization of human rights protections, police and 
        security sector reform and judicial capacity-building in self-
        declared independent Somaliland. Such assistance need not 
        address the question of international recognition, but would 
        ensure the support of the Government of Somaliland requires to 
        continue to build democratic institutions and a secure 
        environment for its citizens.

    Senator Feingold. Of course, we will put that in the 
record. And I thank you for your important testimony.
    Dr. Shinn.

      STATEMENT OF DR. DAVID SHINN, ADJUNCT PROFESSOR OF 
   INTERNATIONAL AFFAIRS, THE ELLIOT SCHOOL OF INTERNATIONAL 
     AFFAIRS, GEORGE WASHINGTON UNIVERSITY, WASHINGTON, DC

    Ambassador Shinn. Thank you, Mr. Chairman. And I also have 
a longer statement that I would like to include in the record.
    I think there are essentially four issues that are of great 
concern today, potentially and actual, in the Horn of Africa. 
The first, by far, is the situation in Somalia and the 
continuing violence there. Another is the potential breakdown 
of the Comprehensive Peace Agreement (CPA) in Sudan. A third is 
the situation in Darfur, although the implications for the Horn 
are not that great. And lastly, is a possible conflict between 
Ethiopia and Eritrea, although I don't believe that will 
happen.
    The situation in Somalia is particularly worrisome. The 
humanitarian situation is worsening. It impacts directly all of 
its neighbors, but also has brought Eritrea very much into the 
picture. The United States is treating Somalia primarily as a 
counterterrorist threat, and I think this raises some serious 
questions about the best way to approach the problem. The 
possible resumption of civil war between northern and southern 
Sudan would, in fact, have far greater consequences for the 
Horn of Africa than does, for example, the situation in Darfur.
    And the absence of normal relations between Ethiopia and 
Eritrea contributes significantly to instability in the region. 
As I say, I don't subscribe to the school of thought that 
suggests there will be a return to war between Ethiopia and 
Eritrea.
    Efforts by governments in the region to solve the problem 
in Somalia, to keep the CPA on track, and to encourage the 
normalization of relations between Ethiopia and Eritrea are 
sometimes at counter purposes with American objectives. The 
United States seeks stability in the region, and wants to 
mitigate or even eliminate the terrorist threat. Regional 
governments do not necessarily share these priorities.
    For its part, the U.S. obsession with counterterrorism 
emphasizes short-term objectives aimed at tracking down 
terrorists. It gives insufficient attention to working with 
regional governments on ameliorating the long-term causes that 
lead to support for people who use terrorist tactics.
    The United States, I think, has the most leverage with the 
Transitional Federal Government (TFG) of all of the actors 
outside the neighborhood. Although its assistance is modest, 
the TFG exists at the mercy of Ethiopia and the United States. 
The United States has also expended considerable political 
capital in helping to achieve the Comprehensive Peace 
Agreement, and as a result, has some leverage there. The rocky 
relationship with Khartoum, however, limits United States 
leverage to affect policy change, either in Darfur or to ensure 
implementation of the CPA.
    Washington has virtually no leverage with Eritrea. But even 
in the case of Ethiopia, leverage is a relative concept. The 
leaderships in both Ethiopia and Eritrea, since they assumed 
power in their respective countries in 1991, are notably 
resistant to outside pressure, even when large amounts of 
assistance are at stake. Both Prime Minister Meles and 
President Isaias will change positions on a policy only after 
they have concluded it is in the long-term interest of their 
respective governments.
    Mr. Chairman, I ended with a very long list of proposed 
recommendations. I certainly won't take time here to go through 
them all. I will only cite a few of them.
    I think, mostly importantly, United States policy should 
work in a stronger way to encourage the Transitional Federal 
Government of Somalia to create a government of national unity 
that includes moderates from the Alliance for the Reliberation 
of Somalia and from some clans in the Mogadishu area that now 
oppose the TFG.
    On a contingency basis, I think it should request, if it 
hasn't already done so, the United Nations to draw up plans for 
a peacekeeping operation that would eventually replace the 
small African Union presence in Somalia. It should help both 
Ethiopia and Eritrea identify confidence-building measures that 
may eventually lead to Ethiopian acceptance of the Boundary 
Commission's decision, followed by practical adjustments along 
the border that are acceptable to both. And it should encourage 
both Ethiopia and Eritrea to end support for groups whose goal 
is to destabilize the situation in the other's country.
    Finally, I would urge that the United States put front and 
center counterterrorism programs that mitigate the root causes 
of terrorism and the environment in the Horn that sustains but 
domestic terrorists and those coming from outside the region.
    Thank you, Mr. Chairman.


    [The prepared statement of Ambassador Shinn follows:]


    Prepared Statement of Dr. David H. Shinn, Adjunct Professor of 
  International Affairs, the Elliott School of International Affairs, 
              George Washington University, Washington, DC

    I thank Chairman Feingold for inviting me to testify on U.S. policy 
objectives and options on the Horn of Africa. The Horn has long been 
one of the most conflicted regions of the world and, as back door to 
the Middle East, is strategically important to the United States. It 
merits close attention by both the administration and Congress.
    The Subcommittee on African Affairs asked me to assess the current 
security situation in Ethiopia, Eritrea, and Somalia, and to identify 
the most serious threats to regional and U.S. security, It also 
solicited my analysis of efforts by governments in the Horn and by the 
administration to address these threats. It then urged that I offer 
recommendations on how the United States can better contribute to 
security, stability, growth, and democracy in Somalia, Ethiopia, and 
Eritrea. In particular, the subcommittee asked what tools and leverage 
the United States possesses that would be most effective in achieving 
U.S. objectives in the Horn of Africa.

          CURRENT SITUATION IN ETHIOPIA, ERITREA, AND SOMALIA

    The serious challenges facing Ethiopia, Eritrea, and Somalia are 
longstanding and have implications for neighboring Djibouti, Kenya, and 
Sudan just as developments in those countries impact the situation for 
the three countries discussed in this testimony. With approximately 75 
million people and located in the center of the Horn, Ethiopia is in 
many ways key to peace and security (or lack thereof) in the region. 
But the cross-border linkages are so important in the Horn that any one 
of the countries has the potential to destabilize or make more stable 
the other countries in the region.
    Turning first to Ethiopia, the country is still recovering from the 
aftermath of the 2005 general election. The runup to the election and 
the actual balloting were deemed to be generally free and fair. It was 
a major improvement over all previous elections. Charges by some 
opposition parties that the ruling Ethiopian People's Revolutionary 
Democratic Front (EPRDF) stole the election during the ballot counting 
process resulted in violence that continued sporadically for the 
subsequent 6 months. In some cases the opposition provoked a strong 
reaction by government security forces. Nevertheless, the security 
forces clearly used excessive force in responding to a number of 
challenges.
    With local elections (districts and kebeles or wards) and those for 
some 40 vacancies in the national legislature scheduled for April 2008, 
the internal political situation approaches another potentially 
significant turning point. Unfortunately, opposition political parties 
are demoralized, arguing that the government has shut down most of 
their regional offices and arrested some of their supporters. Several 
of the opposition parties may not even contest seats for local offices, 
which in Ethiopia are actually very important. The current internal 
political dynamic surrounding these elections does not auger well for 
enhancing democracy in the country. Traditionally, there are no 
international observers for local elections. In any event, because of 
the size of the country and large number of contests, it would be 
difficult to mobilize a sufficient number of international observers. 
Nevertheless, the local elections are an opportunity for advancing 
democracy in Ethiopia. If they fail to achieve this goal, it will be an 
enormous lost opportunity.
    Turning to Ethiopia's relations with neighboring countries, Addis 
Ababa has close relations with Kenya and Djibouti, which now serves as 
the principal port for all Ethiopian imports and exports. Relations 
with Sudan have fluctuated since the EPRDF took power in 1991, but have 
been good following the outbreak of conflict in 1998 between Eritrea 
and Ethiopia. Addis Ababa is particularly hopeful that the 
Comprehensive Peace Agreement (CPA) that ended conflict between 
northern and southern Sudan not collapse. From the perspective of 
Ethiopia's security, maintaining peace in southern Sudan is more 
important than ending the conflict in Darfur. Nevertheless, Ethiopia 
has offered both helicopters and troops to the United Nations/African 
Union peacekeeping operation in Darfur. This has ingratiated Ethiopia 
with the United States and presumably with Sudan. Ethiopia has also 
earned praise in Washington for supporting U.S. counterterrorism 
efforts in the region.
    Ethiopia has established a good working relationship with 
Somaliland, which declared its independence from Somalia in 1991 but 
has not been recognized by any country. Ethiopia's military 
intervention in Somalia in 2006 at the request of Somalia's 
Transitional Federal Government (TFG) has been opposed by virtually all 
Somalis except those aligned with the TFG. If Ethiopian troops left 
Somalia tomorrow, however, the TFG would almost certainly collapse. The 
leaders of most Somali groups opposing the TFG are in exile in Asmara, 
Eritrea, where they formed the Alliance for Re-liberation of Somalia 
(ARS) and receive support from Eritrea.
    Ethiopia's intervention in Somalia has also led to increased 
conflict in its Somali-inhabited Ogaden region in the southeastern part 
of the country. There is strong evidence that Eritrea is supporting the 
dissident Ogaden National Liberation Front (ONLF) in the Ogaden. The 
withdrawal of Ethiopian forces from Somalia and the end of Eritrean 
support for the ONLF would reduce, but not eliminate, conflict in the 
Ogaden between ONLF and Ethiopian Government forces.
    The situation in Somalia remains extremely volatile. The TFG has 
limited support of Somalis, most of whom see the Ethiopians as an 
occupying force. Almost 300,000 Somalis have fled the violence in 
Mogadishu since last October, raising the total number who has left the 
capital to about 700,000. A UNHCR representative commented at the end 
of January that Somalia ``is the most pressing humanitarian emergency 
in the world today--even worse than Darfur.'' The African Union force 
is unable to take control of the situation in Mogadishu as a 
replacement for Ethiopian troops. The U.N. is debating whether the 
security situation even permits planning to send a U.N. peacekeeping 
operation to replace the African Union force. An affirmative U.N. 
decision, which does not seem likely anytime soon, would be followed by 
many months of delay before the U.N. could mobilize such a force. In 
the meantime, Somali animosity against the Ethiopians increases.
    Two spoiler groups, which may have concluded it is in their 
interest for conflict to continue, are also benefiting from the current 
deadlock. The al-Shabaab militia, which once served as the muscle for 
the Islamic Courts, is by most accounts gaining strength. Some key al-
Shabaab leaders now operate independently of the Islamic Courts while 
others reportedly still follow its lead. Mogadishu's warlords, some of 
whom now support the TFG, are notorious for switching sides or 
operating completely independently when that serves their purpose. 
Often backed by businessmen, some of them actually benefit financially 
from continuing conflict. Neither they nor al-Shabaab can be counted on 
to work for peace or to serve the broader interests of the Somali 
people.
    The positive development in this otherwise bleak analysis of 
Somalia was the appointment in 2007 of Prime Minister Nur ``Adde'' 
Hassan Hussein by President Abdullahi Yusuf. Nur Adde has stated that 
he supports a broad-based reconciliation process that takes into 
account Islamists and clan-based factions that now oppose the TFG. He 
said the TFG is ``ready to talk to those who are fighting in Mogadishu. 
Nobody is exempted from negotiations.'' International envoys who have 
met with Nur Adde believe he is sincere in reaching out to disaffected 
Somali groups. There are still concerns, however, whether President 
Abdullahi Yusuf is as committed to a reconciliation process with the 
enemies of the TFG. Nor is it clear that the ARS is prepared to join a 
government of national unity before the departure of all Ethiopian 
troops. Such a precondition would result in even more chaos in 
Mogadishu than exists now. Nur Adde has for the first time raised the 
possibility of real accommodation with the TFG's opponents. A sequenced 
departure of Ethiopian troops agreed upon by both the TFG and ARS 
should not be ruled out.
    The U.S. role in Somalia is focused primarily on countering 
terrorism, although it deserves credit for providing significant 
amounts of emergency assistance to Somalis through international and 
nongovernmental organizations. So long as the U.S. effort in Somalia 
remains essentially to capture and kill bad guys, and there are some in 
Somalia, the United States marginalizes its ability to impact in a 
positive way any long-term solution to the Somali problem. U.S. aerial 
attacks against suspected high value terrorist targets inside Somalia 
can be justified if there is a very high probability they are conducted 
on the basis of accurate, up-to-the-minute intelligence. Going back 
many years, however, the U.S. record for accurate intelligence in this 
part of the world is, unfortunately, not very good. The United States 
has conducted four aerial attacks inside Somalia since January 2007. 
The most recent one occurred early in March. If there was any success 
against high value targets as a result of these attacks, this 
information has not become public knowledge. Anecdotal evidence 
suggests the aerial attacks accomplished little. In the meantime, each 
American attack only increases the anger of most Somalis toward the 
United States, Ethiopia, and the TFG.
    Developments in Eritrea present special challenges for U.S. policy. 
The internal Eritrean situation leaves much to be desired. While 
Ethiopia has had a long series of controversial elections, Eritrea has 
not even had a national election since it became independent in 1993. 
It is subject to growing criticism in the West for a concentration of 
power around the Executive, a lack of press freedom, a faltering 
economy, support for the Islamic Courts and opposition groups in 
Somalia, and effectively ending the ability of the U.N. Mission to 
Ethiopia and Eritrea (UNMEE) to operate in Eritrea. It supports a 
number of organizations that are trying to destabilize the Government 
in Ethiopia while Ethiopia provides sanctuary to Eritrean dissidents 
who wish to do the same in Eritrea. On the other hand, for a country 
that is approximately half Christian and half Muslim, it has managed to 
preserve cordial relations between these two major religious groups. 
Eritrea has good relations with neighboring Djibouti and Sudan and even 
played the principal role in brokering a peace agreement between 
dissident groups in eastern Sudan and the Government in Khartoum.
    A close friend of the United States until the outbreak of conflict 
with Ethiopia in 1998, relations between Washington and Asmara 
subsequently steadily deteriorated. Eritrea has been particularly 
frustrated by the inability of the United States to convince Ethiopia 
to accept the 2002 ruling of the Ethiopia Eritrea Boundary Commission. 
This disagreement largely accounted for a series of decisions by Asmara 
that have worsened the United States-Eritrea relationship. At one point 
recently, there was even a suggestion in Washington that Eritrea might 
be added to the list of states that support terrorism. This would have 
been an unwise decision. It is more important to find ways, as 
difficult as it will be, to encourage Eritrea to support initiatives 
that improve peace and stability in the region.

           MOST SERIOUS THREATS TO REGIONAL AND U.S. SECURITY

    The most serious threats to the Horn of Africa, and indirectly 
United States, security are in order of priority the continuing 
violence in Somalia, a breakdown of the CPA in Sudan, the conflict in 
Darfur, and a possible but unlikely resumption of conflict between 
Ethiopia and Eritrea. Other issues of concern are instability in 
Ethiopia's Ogaden region, ethnic conflict in Kenya, opposition to the 
EPRDF by the Oromo Liberation Front, continuing violence by Uganda's 
Lord's Resistance Army, and a possible resumption of conflict in 
eastern Sudan.
    The situation in Somalia is particularly worrisome because the 
country has effectively not been governed since the early 1990s. It has 
attracted a number of movements that do not represent mainstream Somali 
thought, including some affiliated with terrorism. The humanitarian 
situation is worsening. The Somali conflict either impacts directly or 
has drawn in Ethiopia, Kenya, Eritrea, and Djibouti. The United States 
treats Somalia primarily as a counterterrorist threat and is especially 
anxious to capture or kill three persons (all non-Somalis linked to al-
Qaeda and believed to have taken refuge in Somalia) who were involved 
in the 1998 bombings of the U.S. Embassies in Kenya and Tanzania. Even 
if counterterrorism were not, a key to the U.S. agenda, Somalia would 
pose a major threat to regional stability and, hence, American 
interests in the Horn.
    The United States played a significant, positive role in helping to 
broker the CPA in Sudan and bring an end to the civil war. This was the 
most significant political achievement of the Bush administration in 
Africa. The international community and, at least until recently, the 
United States have allowed the conflict in Darfur to monopolize their 
collective energy while paying insufficient attention to a possible 
breakdown of the CPA. As serious as the situation is in Darfur and its 
negative impact on neighboring Chad and the Central African Republic, 
the possible resumption of civil war between northern and southern 
Sudan would have far greater negative implications for the Horn of 
Africa. Consequently, it is critical that all parties, including the 
United States refocus attention to assure the successful implementation 
of the CPA and the avoidance of a return to war both between the north 
and south and among rival southern factions.
    The absence of normal relations between Ethiopia and Eritrea 
contributes to instability in the region. When these two countries 
resolve their differences and resume their important economic 
relationship, all neighboring countries will benefit. I do not 
subscribe to the school of thought that war is likely between Ethiopia 
and Eritrea because of the failure to implement the border agreement. I 
believe both countries have concluded that it is not in their interest 
to initiate conflict, although both sides support groups that have 
hostile intentions against the other. Any diminution in effectiveness 
of the UNMEE operation increases slightly the possibility for conflict 
along the border. Therefore, it is important, even as UNMEE is forced 
to leave Eritrea, that it maintain a presence, however modest, on the 
Ethiopian side of the border. Independent UNMEE observers would be in a 
position to identify quickly and point the finger at whichever party 
might initiate a border incursion.

              ANALYSIS OF EFFORTS TO ADDRESS THESE THREATS

    Efforts by governments in the region to solve the problem in 
Somalia, keep the CPA on track, and encourage a normalization of 
relations between Ethiopia and Eritrea are sometimes at counter 
purposes with American objectives. The United States seeks stability in 
the region and wants to mitigate or even eliminate the terrorist 
threat. Regional governments do not necessarily share these priorities. 
Eritrea and Ethiopia support each other's opposition groups; this does 
not encourage stability. The TFG has been more interested in retaining 
political power than encouraging reconciliation among all Somalis. It 
is not even clear how committed the Sudan People's Liberation Movement 
(SPLM) and especially the Bashir government in Sudan are to 
implementing the letter and spirit of the CPA. All governments in the 
Horn give lip service to countering terrorism, but with the possible 
exception of Ethiopia their support for this goal is not always 
convincing.
    For its part, the U.S. obsession with counterterrorism emphasizes 
short-term objectives aimed at tracking down terrorists. It gives 
insufficient attention to working with regional governments on 
ameliorating the long-term root causes that lead to support for groups 
that use terrorist tactics. Nor has there been a meeting of the minds 
on what constitutes terrorism in the region. The United States is 
primarily interested in international terrorism instigated by al-Qaeda 
and groups affiliated with it like the now moribund al-Ittihad al-
Islami in Somalia. It is much less interested in terrorist tactics used 
by local groups such as the Lord's Resistance Army, which is not 
affiliated with al-Qaeda. Ethiopia, for example, ascribes terrorist 
acts to groups such as the ONLF and the Oromo Liberation Front that are 
not on the U.S. terrorist list. It should come as no surprise that 
regional governments are more concerned with these groups that have a 
domestic objective than they are with al-Qaeda.
    All international and regional efforts since the early 1990s to 
solve the Somali dilemma have failed, although not for lack of trying. 
The United States essentially abandoned Somalia following the departure 
of American troops in 1994 and the end of the U.N. peacekeeping 
operation in 1995. It reengaged sporadically only after
9/11 and the invasion of Afghanistan for fear that the Taliban might 
move to Somalia. It became much more involved about 2 years ago as the 
Islamic Courts began to assert authority in Mogadishu, but again with 
an overwhelming focus on counterterrorism. The United States ill-
advisedly supported an alliance of warlords in Mogadishu that led 
directly to a military victory by the Islamic Courts. Ethiopian 
military intervention, at some point encouraged by the United States, 
resulted in the defeat of the Islamic Courts, but did not contribute to 
a solution that allowed Somalia to establish a government that has the 
support of most Somalis. From the standpoint of regional stability, the 
situation in Somalia today is no better, and arguably worse, than 
during the period of control by the Islamic Courts.
    Sudan's CPA nearly collapsed in 2007 when the SPLM withdrew its 
representatives from the government of national unity. This occurred at 
a time when the international community was far more engaged in the 
situation in Darfur. Fortunately, the SPLM and the Bashir government 
resolved their differences. The CPA is back on track but remains in a 
highly fragile state. In recent months, the United States appears 
appropriately to be giving this issue greater high-level attention. 
Ethiopia is also taking steps that encourage peace and stability 
between northern and southern Sudan.
    Since the outbreak of conflict in 1998 between Ethiopia and 
Eritrea, the United States worked hard to end the war and made 
considerable effort to convince both countries to normalize their 
relations. The major stumbling block has been the unwillingness of 
Ethiopia to implement the decision of the Boundary Commission. Eritrea 
has not helped its case by taking a series of steps aimed at 
destabilizing Ethiopia. The international community, including the 
United States, seems to have concluded in the past year that there is 
little it can do to resolve the impasse.

                      U.S. LEVERAGE AND RESOURCES

    Of the major challenges facing the United States in the Horn, it 
probably has the most leverage with Somalia's TFG. Although total 
American assistance to Somalia is modest and not likely to influence 
the TFG, its political leverage should be enormous. The TFG is heavily 
dependent on Ethiopia and the United States for its very survival. If 
the TFG chooses to ignore advice from Ethiopia and the United States, 
it does so at its peril. The United States has also worked hard to 
stand up the African Union force to replace the Ethiopians in Somalia.
    The United States has brought substantial financial resources to 
bear in Sudan for both implementing the CPA and alleviating suffering 
in Darfur. It expended considerable political capital in helping to 
achieve the CPA, but has been much less successful in resolving the 
conflict in Darfur. The United States has far better relations with the 
SPLM than it has with the Bashir government, with whom relations are 
strained. The rocky relationship with Khartoum limits U.S. leverage to 
effect policy change in Darfur or to ensure implementation of the CPA.
    The United States provides Ethiopia substantial assistance, 
although most of it in recent years has been emergency aid and support 
to counter HIV/AIDS. Washington also has a close working relationship 
with Addis Ababa. In theory, therefore, the United States has 
considerable leverage with the Meles government. At the same time, the 
close relations with Ethiopia have contributed directly to a worsening 
of relations with Eritrea. The Isaias government accuses Washington of 
favoring Ethiopia on the border question. As a consequence, it asked 
the USAID mission to leave Eritrea. Washington has virtually no 
leverage with Eritrea. But even in the case of Ethiopia, leverage is a 
relative concept. The leaderships in both Ethiopia and Eritrea since 
they assumed power in their respective countries in 1991 are notably 
resistant to outside pressure even when large amounts of assistance are 
at stake. Both Meles and Isaias will change positions on a policy only 
after they have concluded it is in the long-term interest of their 
respective governments.

                 RECOMMENDATIONS FOR THE UNITED STATES

    Taking the above analysis into account and as requested in the 
invitation to testify, I suggest the following recommendations for ways 
the United States can contribute to security, stability, growth, and 
democracy in Somalia, Ethiopia, and Eritrea. I have purposely omitted 
many desirable recommendations that are hopelessly unrealistic or 
beyond the ability of the United States to implement because of its 
limited leverage in one or more of the three countries.

  <bullet> Work closely with Ethiopia to encourage the TFG to create a 
        government of national unity that includes moderates from the 
        ARS and from subclans in Mogadishu who currently oppose the 
        TFG.
  <bullet> Consult closely with the Somalia ``Contact Group'' and ask 
        its members to follow the same approach with the TFG.
  <bullet> Ask the Arab League and its member governments to encourage 
        the ARS to engage without preconditions in power-sharing talks 
        with the TFG.
  <bullet> Encourage governments that have good relations with Eritrea 
        to follow the same approach with Eritrea vis-a-vis the ARS.
  <bullet> If a government of national unity that is widely accepted by 
        the Somali people actually materializes, be prepared quickly to 
        mobilize a significant amount of development assistance for 
        Somalia.
  <bullet> Likewise, push the wealthier Arab countries to make major 
        contributions to Somalia's development.
  <bullet> As security improves in Somalia, work with Ethiopia and the 
        TFG to design a quick, sequenced departure of Ethiopian forces 
        from Somalia so as to encourage broader Somali support for a 
        new government of national unity.
  <bullet> On a contingency basis, request the U.N. to draw up plans 
        for a peacekeeping operation that would replace the small 
        African Union presence and would actually keep the peace rather 
        than try to separate warring factions.
  <bullet> Be prepared to offer substantial logistical support for 
        standing up a U.N. peacekeeping mission in Somalia.
  <bullet> Make a concerted effort to reach out to the Somali diaspora 
        in the United States to solicit ways it can help to bring peace 
        and stability to Somalia.
  <bullet> Help Ethiopia and Eritrea identify confidence-building 
        measures that may eventually lead to Ethiopian acceptance of 
        the Boundary Commission's decision followed by practical 
        adjustments along the border that are acceptable to both 
        countries.
  <bullet> Encourage both Ethiopia and Eritrea to end support for 
        groups whose goal is to destabilize the situation in the 
        other's country.
  <bullet> Following the departure of UNMEE from Eritrea, insist that 
        it maintain observers inside Ethiopia along the border so that 
        it can assign blame for any military incursion across the 
        Ethiopian-Eritrean frontier.
  <bullet> If requested by the U.N., assign a significant number of 
        U.S. personnel to this effort, certainly more than the tiny 
        number that has participated in UNMEE.
  <bullet> Continue and even increase the high-level attention devoted 
        to ensuring implementation of the CPA in Sudan.
  <bullet> Initiate a working group of government and nongovernment 
        experts from the Horn, a few European and Arab countries, and 
        China to identify and suggest solutions for the root causes of 
        both domestic and international terrorism in the region.
  <bullet> Put front and center counterterrorism programs that mitigate 
        the root causes of terrorism and the environment in the Horn 
        that sustains both domestic terrorists and those coming from 
        outside the region.
  <bullet> Engage governments in the region on their responsibility to 
        reduce social and economic inequality and political 
        marginalization as important ways to reduce both conflict and 
        support for terrorist groups.
  <bullet> Engage governments and groups inside and outside the region 
        to end their support for religious ideology of whatever 
        persuasion that expressly encourages intolerance.
  <bullet> Increase support for democracy, good governance, and 
        anticorruption programs in Ethiopia and be prepared to initiate 
        funding for such programs in Somalia and Eritrea when the 
        situation permits.
  <bullet> Provide additional funding for basic education programs, 
        especially in the Somali language, conducted over the radio and 
        which also contain useful civic lessons that include 
        encouragement of religious and ethnic tolerance.
  <bullet> Identify and, where desired by host governments, fund 
        programs, even on a pilot basis that help reduce youth 
        unemployment.

    Senator Feingold. Well, thank you so much, Doctor, for that 
information and testimony.
    Colonel Dempsey.

  STATEMENT OF COLONEL THOMAS DEMPSEY, USA (RET.), PROFESSOR, 
PEACEKEEPING AND STABILITY OPERATIONS INSTITUTE, U.S. ARMY WAR 
                 COLLEGE, CARLISLE BARRACKS, PA

    Colonel Dempsey. Thank you, Mr. Chairman, for inviting me 
to participate in the hearing. The views I'm about to offer are 
my own.
    I suggested almost 2 years ago that the U.S. response to 
terrorist hubs operating in African failed states, like 
Somalia, had been less than adequate. I noted that military 
strikes, which target terrorists directly, have enjoyed few 
successes in failed states, and that they tended to legitimate 
terrorist groups by providing them combatant status under the 
Geneva Convention.
    I also noted that law enforcement efforts have likewise 
enjoyed few successes in places like Somalia, largely because 
law enforcement agencies lack the capacity to access and 
operate in those very violent and austere environments. 
Integrating U.S. military capabilities and U.S. law 
enforcement, I suggested, offered a more effective strategy for 
countering terrorist in the kind of volatile environments that 
confront us in the Horn.
    The military forces can establish access to failed states 
and ungoverned spaces for law enforcement agencies, carve out a 
secure environment for those agencies to carry out their core 
function of identifying and apprehending terrorist suspects. I 
also suggested that once those suspects were apprehended, they 
ought to be delivered to an appropriate criminal justice 
system, discrediting their activities through public trials 
that shine the light of international scrutiny on their 
terrorist acts and the consequences of those acts.
    In the 2 years since that study was published, I think 
events have borne out several of my original conclusions. As we 
have heard here today, failed states like Somalia continue to 
provide venues for terrorism. Our continued dependence upon 
military strikes has yielded a few tactical successes, but I 
would argue that the strikes have generated significant levels 
of controversy, skepticism, and outright mistrust among many of 
our key partners, especially within the AFRICOM AOR.
    The collateral damage, including the loss of innocent 
civilian lives, which are an unavoidable consequence of 
military strikes, no matter how carefully planned or carried 
out, threatens to undermine the moral authority of our 
counterterrorism campaigns, and arguably contributes to the 
ongoing recruitment by the terrorists themselves.
    On the positive side, however, the past 2 years have seen 
some significant progress in fostering cooperation and synergy 
between military and law enforcement agencies in the Africa 
region. Developments on the American side, like the 
promulgation of NSPD-44, the establishment of SCRS, the 
issuance of Department of Defense Directive 3000.05, and the 
emergence of whole-of-government approaches to stabilization 
and reconstruction that those initiatives represent--promoting 
rule of law and good governance, strengthening accountability 
mechanisms, supporting democratic processes--I would suggest to 
offer an opportunity to both implement an alternative strategy, 
combining military and law enforcement capabilities, and also 
offer an opportunity to improve our strategies across a broad 
range of agendas and objectives in the region.
    I'd note that especially in--and I'd add, this is not a 
pipe dream. This process is already underway in West Africa, 
and you can see significant progress in helping the northern 
tier of ECOWAS states deal with exactly these kinds of 
problems, and in the comprehensive security sector reform and 
governance programs that we can see being implemented today in 
Sierra Leone and Liberia.
    And especially encouraging development in this respect is 
the emergence of U.N. Integrated Missions as a key player in 
stabilization and reconstruction efforts. These U.N. Integrated 
Missions offer a vehicle for undertaking the transformative 
reconstruction of the security sector. It's really necessary 
for the recovery of states that have failed completely, as is 
the case in Somalia, and can provide a means of pursuing an 
effective set of counterterrorism strategies.
    In that context, I would suggest that in Somalia, a quick 
transition from African Union Forces to a full-fledged 
integrated U.N. Mission could provide a key to jumpstarting a 
recovery process that will ultimately support counterterrorism 
initiatives, as well as broader governance and security agendas 
that Deputy Assistant Secretary Whelan and Assistant Secretary 
Frazer discussed earlier today.
    Thank you for the opportunity. I would ask that the full 
text of my statement be entered into the record.
    Senator Feingold. Without objection.


    [The prepared statement of Colonel Dempsey follows:]


  Prepared Statement of Colonel Thomas A. Dempsey, U.S. Army (Ret.), 
     Professor, Security Sector Reform, Peacekeeping and Stability 
   Operations Institute, U.S. Army War College, Carlisle Barracks, PA

    I thank the subcommittee and Chairman Feingold for inviting me to 
participate in this hearing. I have been asked to discuss recent 
developments in the Horn of Africa and their implications for U.S. 
military and counterterrorism policy toward this region over the past 2 
years. I will also offer some comments regarding our efforts to improve 
regional security capacity more generally in this volatile area of the 
world. The views that I offer are my own, as an academic and former 
practitioner in African security affairs, and are not intended to be a 
statement on behalf of the United States Army, the Peacekeeping and 
Stability Operations Institute, or the current administration.

                 COUNTERTERRORISM IN THE HORN OF AFRICA

    I suggested almost 2 years ago that the U.S. response to terrorist 
hubs operating in African failed states, like Somalia, had been less 
than adequate. I noted that military strikes which target terrorists 
directly have enjoyed few successes in failed states, and have tended 
to legitimate terrorist groups by providing them combatant status under 
the Geneva Convention. Law enforcement efforts have likewise enjoyed 
few successes in failed states, as civilian law enforcement agencies 
lack the capacity to penetrate or operate effectively in the violent 
environments presented by countries like Somalia. Security assistance 
programs, while enjoying some remarkable successes elsewhere on the 
African Continent, require partnering with host nation security 
institutions that are simply not present in those areas of the Horn at 
greatest risk. While attempts to address the root causes of terrorism 
may offer an effective counterterrorism strategy, such efforts require 
extended periods of time in order to show results--time which appears 
to be running short in the case of the Horn.
    I argued in my original study of this topic that better integrating 
the efforts of the U.S. foreign intelligence community with U.S. 
military capabilities and U.S. law enforcement offers a more effective 
strategy for countering terrorist hubs operating in failed states and 
ungoverned spaces like those that confront us in the Horn of Africa. 
The foreign intelligence community is best equipped to identify 
terrorist hubs operating in these areas which may be developing global 
reach and directly threatening U.S. national interests. Once those 
threats have been identified, a synthesis of expeditionary military 
forces and civilian law enforcement agencies will be far more effective 
in dealing with the terrorist hubs than either element can be while 
operating independently. The military forces establish access to failed 
states and ungoverned spaces for law enforcement officers, and carve 
out a secure environment for those officers to perform their core 
function of indentifying, locating, and apprehending criminal, in this 
case terrorist, suspects.
    Dealing effectively with terrorist groups and activities requires 
more than just taking them into custody, however. Once terrorists have 
been located, identified, and apprehended, they must be screened to 
assure that they are, indeed, the terrorist suspects that the 
apprehending officers believe them to be, a task that I suggested was 
appropriate to a properly constituted and administered military 
tribunal, which could be provided by the supporting military force. 
Individuals whose status as a terrorist suspect is confirmed would then 
be delivered to an appropriate criminal justice system, whether 
national or international, for arraignment and trial. This strategy 
would avoid the legitimizing effect of treating terrorists as military 
targets, while discrediting their activities through public trials that 
shine the light of international scrutiny on their terrorist acts.
    In the 2 years since that study was published, I believe that 
events have borne out several of my original conclusions. Failed states 
and ungoverned spaces have continued to provide platforms for terrorist 
recruiting and operational planning, as events in Somalia have 
demonstrated. Our continued dependence upon military strikes as our 
primary approach to counterterrorism has yielded a few tactical 
successes, but has yet to demonstrate any long-term impact at the 
operational or strategic levels. Those strikes have, however, generated 
significant levels of controversy, skepticism, and outright mistrust 
among many of our key partners, especially within the AFRICOM AOR. The 
collateral damage, including loss of innocent civilian lives, which is 
an unavoidable consequence of military strikes, no matter how carefully 
or surgically delivered, threatens to undermine the moral authority of 
our counterterrorism efforts and arguably contributes to the ongoing 
recruitment efforts of the terrorist groups themselves. This is 
particularly problematic in a country like Somalia, where clan politics 
and the complex web of alliances and obligations among dia-paying 
groups lend unexpected consequences to the exercise of lethal force.
    On the positive side, however, the past 2 years have seen some 
significant progress in fostering cooperation and synergy between 
military and law enforcement communities in the Africa region, 
including the Horn. Several developments on the American side have 
contributed to this progress, most notably the promulgation of NSPD-44, 
the establishment of the Office of the Department of State Coordinator 
for Stabilization and Reconstruction, and issuance of Department of 
Defense Directive 3000.05, which established stability operations as a 
core mission of U.S. military forces. The emergence of whole-of-
government approaches to stabilization and reconstruction, both within 
the U.S. Government and among its international partners, is 
transforming strategies for dealing with transnational problems like 
terrorism and drug trafficking in failed states and ungoverned spaces. 
This transformation opens the door to pursuing an alternative 
counterterrorism strategy that leverages both military and law 
enforcement core competencies to identify, apprehend, and convict the 
planners and perpetrators of terrorist acts. The emergence of security 
sector reform as an effective tool of state, subregional, regional and 
international capacity-building can facilitate and support the pursuit 
of such alternative strategies.

           IMPROVING SECURITY CAPACITY IN THE HORN OF AFRICA

    The same developments that offer opportunities to enhance regional 
counterterrorism strategies promise to enhance the building of security 
capacity in the subregion more generally. Integrated strategies that 
address capacity-building in a comprehensive way have the potential to 
fundamentally recast the security environment in the Horn. Promoting 
rule of law and good governance, to include strengthening 
accountability mechanisms and supporting democratic processes, can lay 
the foundation for a broader and more durable concept of subregional 
security. This is not a pipe dream: The process is already underway in 
West Africa, embodied in the ECOWAS Mechanism for Conflict Management 
and its Protocol on Democracy and Good Governance, and clearly evident 
in the comprehensive governance and security sector reform programs 
underway in Liberia and Sierra Leone.
    An especially encouraging development in this respect is the 
emergence of the U.N. Integrated Mission as a key player in 
stabilization and reconstruction efforts. U.N. Integrated Missions, the 
best examples of which are currently in Liberia and the Democratic 
Republic of the Congo, provide a comprehensive framework within which 
partners, to include the U.S., can develop and implement a complete 
restructuring of the security environment in collaboration with the 
host nation. An Integrated Mission can provide levels of resourcing and 
oversight that are not available from any other source, and can offer a 
vehicle for undertaking the massive, transformative reconstruction of 
the security sector that is necessary to the recovery of states that 
have failed as completely, as was the case in Liberia, and continues to 
be the case in Somalia.
    The rapid recovery currently underway in Liberia demonstrates 
clearly the potential of even the most devastated area to restore 
legitimate, functional governance, once a genuinely secure environment 
is created for the host nation and its partners to undertake 
reconstruction activities. In the context of Somalia, a quick 
transition from African Union forces to a full-fledged, Integrated U.N. 
Mission is the key to jump-starting a recovery process that will 
ultimately support counterterrorism initiatives as well as broader 
governance and security agendas. U.S. support to such a mission in a 
whole-of-government approach orchestrated through the mechanisms 
currently being developed by the U.S. interagency, under the leadership 
of S/CRS, can provide critical mass to this effort. Active involvement 
of AFRICOM, the new Unified Command for Africa, can also contribute 
significantly to helping U.S. agencies focus effectively on a broader 
security agenda in the Horn. Such an agenda, while it cannot neglect 
the other major issues confronting the subregion, must center, first 
and foremost, on addressing the ongoing challenges posed by the 
situation in Somalia.

    Senator Feingold. Colonel, thank you for your candid and 
thoughtful testimony. In fact, thanks to all three of you for 
being able to do that in a rather brief period of time. I know 
it was a little rushed, so thank you. And now I will just ask a 
few questions.
    Ms. Fredriksson, you suggest that the United States should 
help alleviate Eritrea's dire humanitarian situation. What kind 
of assistance do you think would be most effective? And given 
that the Eritrean Government has banished USAID from the 
country, how could this assistance best be provided and 
monitored?
    Ms. Fredriksson. Well, I think there are three different 
ways to approach this. One would be through our international 
agency partners, through bilateral partnerships, and others who 
have an ongoing relationship with the Government of Eritrea to 
encourage further assistance through those bodies.
    Another would be to consider options as to what we could 
provide without a presence physically on the ground.
    And, in addition to that, I think the specific type of 
assistance most desperately needed at this time is assistance 
to IDPs and refugees along the border.
    And I hope that that actually--consideration, serious 
consideration, by the administration of that need would improve 
to some degree the dialog that is at the moment pretty minimal.
    Senator Feingold. Ms. Fredriksson, the U.N. Arms Embargo in 
Somalia is clearly failing. Can you provide the committee with 
some analysis of why this embargo is failing? And what can be 
done to strengthen and enforce it?
    Ms. Fredriksson. Thank you, Senator. I am very glad to 
provide some thoughts on that.
    Currently, there is no enforcement mechanism for the U.N. 
Arms Embargo. There is a free flow of arms into Somalia from 
several different directions and several different funding 
sources. Some of those funding sources, according to our local 
partners, come through the UAE, through Saudi Arabia, through 
Kuwait, and other places.
    As you know, Eritrea has been accused of being one of the 
direct sources of arms transfers, as have Somalis based in 
Eritrea. And beyond that, the conditions on the ground are such 
that we're seeing an increase in the market flow through 
Bakara, which is now split into three or four or five different 
markets, and this is ammunitions, this is small arms, and this 
is heavy arms.
    So the answer that I would like to suggest is that we 
consider, first of all, that no specific exemptions have 
actually been requested to the Arms Embargo and to make that 
process a stronger one.
    And, in addition to that, to look at means by which we 
could consider bans which have worked in other countries in 
Africa at different times on individuals, companies, or 
countries which are believed to have been providers.
    Senator Feingold. Thank you. Ambassador Shinn, looking 
ahead to next month's bielections and local polls throughout 
Ethiopia, what do you see as the best- and worst-case 
scenarios? And what can the United States and the broader 
international community do to encourage a positive outcome? And 
what measures should be taken in the event of a worst-case 
scenario?
    Ambassador Shinn. The elections are scheduled for April, so 
they're coming very quickly. Unfortunately, at this late date, 
there's relatively little that can be done to make them more 
successful. They've already been postponed a number of times. 
They were to have taken place about 2 years ago.
    The likely outcome is a rather a tepid outcome that will 
simply not allow a great deal of contestation by opposition 
groups. And that, in my view, will be unfortunate; essentially, 
a missed opportunity. There probably are a lot of players to 
blame for that, including some of the opposition themselves, 
for not having either the ability or the capacity to mount a 
real serious threat to the EPRDF in terms of going to the 
ballot box.
    But part of it also certainly lies with the government, 
where it's made life very difficult for the opposition to 
function in Ethiopia. And it's just a shame, because the local 
elections are actually very important in the Ethiopian context. 
And it should be an opportunity for progress on 
democratization.
    My fear is that it's not really going to change anything 
one way or the other; it will be a continuation of the same.
    Senator Feingold. Colonel, the threats emanating from the 
Horn of Africa are real and need to be addressed properly, as 
you indicated. You mentioned in your testimony the importance 
of integrating foreign intelligence with military capabilities, 
but what about other elements of national power, like foreign 
and development assistance, or diplomatic engagement? How do 
these elements fit into the framework that you've delineated?
    Colonel Dempsey. Thank you for the question, sir. They fit 
very clearly into that format. The challenge of addressing 
counterterrorism is one of trying to address it in an 
environment where the accompanying government structures to 
support it aren't present.
    And one of the keys to establishing those frameworks is a 
robust approach involving all agencies--not just of the U.S. 
Government, but of our inner-governmental partners, of our 
bilateral partners--so that we have a comprehensive approach, 
rather than trying to solve this a piece at a time.
    As I suggested in my testimony, the best vehicle that I can 
see for doing that is a U.N. Integrated Mission. It has the 
robustness, it offers a comprehensive framework in which all of 
the agencies of the U.S. Government that have a piece of this, 
can engage, engage effectively, and engage with a very high 
level of legitimacy.
    But going back to my original thesis, I would say the key 
here is addressing counterterrorism in a law enforcement 
context. Military capabilities can facilitate and support them.
    Senator Feingold. Finally, Colonel, what role do you see 
for the new U.S. Africa Command, or AFRICOM, furthering the 
United States security agenda in the Horn of Africa? What do 
you think this new Command should and should not be responsible 
for? And how should it collaborate with the existing programs 
like CJTF-HOA?
    Colonel Dempsey. I would suggest, sir, that there are two 
areas in which AFRICOM can be especially supportive of our 
agenda in places like the Horn of Africa.
    First, AFRICOM will bring to the table a focus on African 
issues in advising the President, the Secretary of Defense, and 
advising members of Congress. That is not distracted by 
responsibilities for other areas of the world. The AFRICOM 
Commander will not have to balance in his own mind how 
important his African concerns are with his European concerns 
or with his Middle Eastern concerns. That's the significant--
that's significant progress that I think very important.
    Second, as AFRICOM has been presented by the Department of 
Defense, it seeks, I think sincerely, a much more collaborative 
role with nonmilitary and non-OSD players in this arena. And my 
hope is that AFRICOM, as it emerges, will include a robust 
component from agencies like the Department of State, like 
USAID, like Department of Justice, that will be able to 
coordinate one of the second major shortfalls that I see, and 
that is a lack of resolution on exactly how the U.S. military 
can best support these other agencies in carrying out those 
duties.
    And we listened to that earlier today when we heard the 
difficulties the Department of State and USAID are having in 
accessing the Ogaden and finding out exactly what's going on 
there.
    The U.S. military can do for those other agencies exactly 
what I suggest it can do for law enforcement. It can provide 
access, it can carve out a secure space, it can provide support 
for those agencies to fulfill their functions in very, very 
difficult, violent, and austere conditions.
    Senator Feingold. Thank you. Well, you've articulated both 
the reasons why I've supported the general idea of AFRICOM, and 
the need to have concentrated focus on Africa, but also you've 
alluded to some of the real concerns I have about the new 
command.
    I have a chance in the last couple of weeks to speak 
directly to both the President of the United States and the 
Secretary of State about this issue. And I know that the 
President heard concerns when he was in Africa about this. This 
is an opportunity to get something right, but it is very 
complicated and requires a long-term view.
    I want to thank again this panel and I also want to thank 
everyone in the audience and everyone who would be reviewing 
the record of this. I hope that this hearing demonstrates, 
again, how seriously this committee takes this part of the 
world and how seriously we intend to follow the events there 
and give it the attention it deserves.
    I thank you and this adjourns the hearing.


    [Whereupon, at 12:15 p.m., the hearing was adjourned.]


</pre></body></html>
